<html>
<title> - THE FUTURE OF OCEAN GOVERNANCE: BUILDING OUR NATIONAL OCEAN POLICY</title>
<body><pre>[Senate Hearing 111-512]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-512
 
                    THE FUTURE OF OCEAN GOVERNANCE: 
                   BUILDING OUR NATIONAL OCEAN POLICY

=======================================================================



                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
56-409                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendicks, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             GEORGE S. LeMIEUX, Florida
JOHN F. KERRY, Massachusetts         JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 4, 2009.................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Begich......................................     5
Statement of Senator Nelson......................................     6
Statement of Senator LeMieux.....................................    33

                               Witnesses

Hon. Nancy H. Sutley, Chair, White House Council on Environmental 

  Quality........................................................     8
    Prepared statement...........................................     9
Hon. Jane Lubchenco, Ph.D., Under Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce....................................    12
    Prepared statement...........................................    14
Admiral Thad W. Allen, Commandant, U.S. Coast Guard..............    19
    Prepared statement...........................................    21
Hon. Laura Davis, Associate Deputy Secretary, Department of the 
  Interior.......................................................    25
    Prepared statement...........................................    26
Billy Frank, Jr., Chair, Northwest Indian Fisheries Commission...    43
    Prepared statement...........................................    44
Dennis Takahashi-Kelso, Ph.D., Executive Vice President, Ocean 
  Conservancy....................................................    46
    Prepared statement...........................................    48
Matthew Paxton, Ball Janik, on Behalf of the Coastal Conservation 
  Association....................................................    53
    Prepared statement...........................................    55
Carolyn Elefant, Legislative and Regulatory Counsel, Ocean 
  Renewable Energy Coalition.....................................    58
    Prepared statement...........................................    60

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    71
Hon. Kay Bailey Hutchison, U.S. Senator from Texas, prepared 
  statement......................................................    72
Response to written questions submitted to Hon. Nancy Sutley by:
    Hon. Maria Cantwell..........................................    72
    Hon. Mark Begich.............................................    75
Response to written questions submitted to Hon. Jane Lubchenco 
  by:
    Hon. Maria Cantwell..........................................    77
    Hon. Barbara Boxer...........................................    81
    Hon. Mark Begich.............................................    82
    Hon. Kay Bailey Hutchison....................................    83
    Hon. David Vitter............................................    86
Response to written questions submitted to Admiral Thad W. Allen 
  by:
    Hon. Maria Cantwell..........................................    89
    Hon. Barbara Boxer...........................................    91
    Hon. Mark Begich.............................................    93
Response to written questions submitted to Hon. Laura Davis by:
    Hon. Maria Cantwell..........................................    95
    Hon. Barbara Boxer...........................................    95
    Hon. Kay Bailey Hutchison....................................    97
Response to written questions submitted by Hon. Maria Cantwell to 
  Billy Frank, Jr................................................    98
Response to written questions submitted by Hon. Maria Cantwell to 
  Dennis Takahashi-Kelso, Ph.D...................................    99


   THE FUTURE OF OCEAN GOVERNANCE: BUILDING OUR NATIONAL OCEAN POLICY

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2009

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Good morning. This Commerce Subcommittee 
on Oceans, Fisheries, Atmosphere, and Coast Guard will come to 
order. This morning we are having a hearing on the future of 
the ocean governance and building our national ocean policy.
    So, thank you, to the witnesses, for being here this 
morning, and for your testimony. And thanks, to my colleagues. 
I know Senator Snowe is going to be joining us. And I thank my 
colleague from Alaska for being here, as well.
    Before we begin, this morning, I'd like to briefly mention 
a very tragic event that recently impacted our government 
agencies. Last Thursday evening, an accident--midair collision 
occurred between a Coast Guard C-130 plane and a Marine Corps 
helicopter, off the coast of California. Tragically, nine 
servicemembers were killed, two from the Marine Corps and seven 
from the Coast Guard. Admiral Allen, I want you to know that 
our hearts and prayers go out to the Coast Guard--the entire 
Coast Guard and Marine Corps--the families of the proud nine 
men and women who lost their lives in service to our country. 
And they are in our thoughts and prayers today.
    Our oceans are responsible for so many things in our daily 
lives, from the air we breathe to the food we eat. And this 
subcommittee has heard, in many previous hearings, the oceans 
and Coast Guard economies of the U.S. provide over 50 million 
jobs for Americans and contribute 60 percent to our GDP. Our 
economy depends on a healthy ocean environment. But, most 
people don't realize that our oceans are in crisis and that we 
must take action now.
    Today's hearing is about building a national policy to 
sustain our oceans and to make improvements for the future. We 
will have the opportunity to hear from Chair Sutley, 
Administrator Lubchenco, Admiral Allen, and Deputy Secretary 
Davis about the developments of the proposed National Ocean 
Policy and Framework for Spatial Planning and how it will 
impact Federal stewardship.
    Our second panel of witnesses will present the perspectives 
on how to improve stewardship, management and the use of 
oceans, coasts, and the Great Lakes.
    I hope that by hearing from these panelists, this 
subcommittee will better understand the magnitude of this 
problem facing the ocean environment and what are the best 
management practices we should be using to confront these 
problems.
    One example of the trouble facing our oceans has emerged in 
my state, the State of Washington, in recent weeks. Since Labor 
Day, a deadly toxic algae bloom has killed over 8,000 seabirds; 
the largest seabird kill ever on a Washington coastline.
    Our oceans also face major threats from climate change and 
ocean acidification. Since the start of the industrial 
revolution, 200 years ago, humans have released more than 1.5 
trillion tons of carbon dioxide into the atmosphere. And one-
third of those emissions, more than half a trillion tons, have 
been absorbed by the oceans. We know that this is actually 
changing the very chemistry of the oceans. As seawater becomes 
more acidic, it begins to withhold the basic chemical building 
blocks needed by many marine organisms. And acidification is 
threatening the existence of the world's coral reefs and 
starting to dissolve the shells of organisms that make up the 
base of the ocean's food chain. When it comes to ocean 
acidification, we cannot just continue; we need to make sure 
that we are working forward and understanding the foundation 
that we need.
    Unfortunately, oceans are too often an afterthought in our 
decisions and our discussions about climate change. As the 
climate debate moves forward, it is going to be a major 
priority of mine to make sure that the oceans are a major part 
of that discussion.
    There are continued threats: toxic substances, new diseases 
are showing up in marine mammals, ocean dead zones plague vast 
parts of the marine environment, toxic algae bloom poison 
various coastal wildlife and threaten shellfish, oil spills 
remain an ever-present threat, and, more and more, our ocean 
species are becoming endangered, like our iconic southern 
resident orca population in the Pacific Northwest.
    Over 40 years ago, Senator Warren Magnuson championed 
legislation that established the Stratton Commission. Some of 
my witnesses may remember that. The Commission had a 
substantial impact on marine science and policy in the United 
States, including the creation of NOAA.
    Today, we are here to heed another call to action. It's 
time to move forward on a national ocean policy. A lot of 
discussion has already happened in the last several years. But, 
words on paper are meaningless unless they are put into action 
and we change how the Federal Government does business. It is 
NOAA's mission to conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and 
environmental needs. The Administration should acknowledge and 
strengthen NOAA's role, and literally give them a seat at the 
table of the National Ocean Council.
    One of the many Ocean Commission recommendations left 
unfinished is enacting an organic act for NOAA. I hope that the 
Administration will work with this committee on the effort to 
improve the stewardship of our oceans by implementing this.
    Senator Snowe and I have called on the Administration to 
increase funding for ocean conservation, management, and 
science, and we cannot expect success in implementing a 
national ocean policy, or look at ideas like spatial planning, 
if we do not provide tribes, States, scientists, and managers 
with the resources they need. The success of a national policy 
will depend on broad support. And it is my hope that this 
hearing will be the first of a series to better understand how 
we collectively move forward to determine actions needed and 
what should be done to sustain our ocean's coasts and our Great 
Lakes.
    And before we turn to our panel of witnesses, I would like 
to turn it over to the ranking member of this committee, 
Senator Snowe, for an opening statement.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madam Chair. And thank you for 
calling this hearing.
    And very pleased to be here today to discuss the future of 
our Nation's ocean resource management.
    Before we proceed with the business of the Committee, I do 
want to take a moment to express to you, Admiral Allen and the 
entire Coast Guard community, my deepest condolences in the 
loss of seven of your shipmates along with two U.S. marines in 
a tragic accident that took place last Thursday night off the 
coast of California. I understand, from my discussion with 
Admiral Pekoske, that this was the worst incident in terms of 
loss of life since 1947 in the Coast Guard. So, my thoughts and 
prayers remain with our fallen heroes, their families, their 
friends, and fellow servicemembers at this most difficult time. 
We're profoundly grateful for their service, and we will be 
eternally grateful. So, I just appreciate the fact that you're 
here today under some very difficult circumstances.
    I also want to thank our other witnesses, as well: Dr. 
Sutley, Dr. Lubchenco, and Ms. Davis. Your presence here today 
speaks volume about the Administration's commitment to 
improving the management of our oceans.
    I also want to welcome those who will speak on the second 
panel: Mr. Frank, Mr. Paxton, Mr. Takahashi-Kelso, and Mr. 
O'Neill.
    From fisheries to energy to tourism, industries thrive 
along and beyond our Nation's shores, and we must find an 
appropriate balance of sustainability to frame the ever-
expanding number of potential uses of our more than 3.4 million 
square miles of ocean space.
    According to a report of the Joint Ocean Commission 
Initiative, ocean-dependent industries generate approximately 
$138 billion annually. Factor in tourism, transportation, and 
utilities that rely heavily on oceans, and that amount 
increases by a factor of ten, to nearly a trillion and a half 
dollars a year. So, I applaud the efforts of all involved in 
the Ocean Policy Task Force, as you attempt to untangle and 
reorganize the web of piecemeal policies that manage individual 
activities in areas off our shores.
    I also have concerns about the process and some of the 
early recommendations that have emerged in the interim report. 
Specifically, the interim report proposes three major 
objectives and nine overarching principles that will guide 
ocean management decisions. Of those, none specifically 
prioritizes safe, economic development of ocean resources. I 
certainly understand the need for environmental protection 
called for in this report. Much of the inherent monetary and 
intrinsic value of our oceans would be compromised or destroyed 
without strong safeguards. At the same time, we must allow 
sustainable economic activity to continue as we provide 
managers and industry members with adequate rationale for the 
restrictions they must impose and adhere to.
    The interim report calls for decision-making consistent 
with the best available science. Unfortunately, ``best 
available'' is often just not good enough. As we've seen in the 
Northeast, our fisheries are being subjected to increasingly 
tight catch limits while scientists themselves too often admit 
that they must establish those restrictions based on 
insufficient data. I have always supported management based on 
sound science, but as we develop policies that directly impact 
livelihoods, and indeed entire cultures, we must invest in 
research that provides a strong foundation; otherwise, we risk 
making decisions that have unnecessarily drastic impacts 
without achieving definitive environmental benefits.
    That's why Senator Cantwell and I have called for 
increasing the budget for NOAA to $8 billion for Fiscal Year 
2011, and a commitment to double that by 2013. This investment 
will pave the way to a future in which our resource managers 
can develop policies and regulations based on indisputable and 
not simply best-available science.
    Further, while I recognize many agencies have critical 
parts to play in determining how best to use and protect our 
ocean resources, NOAA must remain our Nation's leader in 
researching, developing, and implementing our ocean policy, and 
it must be strengthened to reflect the Administration's 
commitment to ocean issues.
    The National Ocean Council, proposed in the interim report, 
does not appear to carve out a sufficient leadership role for 
NOAA. I look forward to hearing comments from our witnesses 
explaining how this comprehensive ocean policy body was 
proposed without a specific role for our Nation's preeminent 
ocean agency. The recommended structure of the shared 
leadership between the Council on Environmental Quality and the 
Office of Science and Technology policy lacks the ocean-
specific perspective that NOAA can and must provide. 
Particularly as the work of the Task Force and the National 
Ocean Council expands to encompass emerging and yet still 
nebulous concept of marine spatial planning, NOAA's efforts 
must be at the fore.
    Our oceans comprise a dynamic environment that sustains 
myriad life forms, natural phenomena, and human activities, 
each with a vital role to play in our environmental and social 
and economic climate. While a holistic look at these diverse 
elements can provide great efficiency and streamline future 
management, we must move methodically down that path. In a 
climate where the best available science is already 
insufficient, additional layers of complexity must come with 
additional resources to ensure they don't simply provide 
additional layers of uncertainty.
    Again, I want to express my gratitude to the Chair and to 
our witnesses for promises to be an enlightening and productive 
discussion here today. Improving and coordinating ocean policy 
is vital to the future of our coastal national economy today 
and for future generations.
    So, I want to thank you, Chair Cantwell.
    Senator Cantwell. Thank you, Senator Snowe. And thank you 
for your leadership on this issue. I don't want to say exactly 
how many years you've been involved in----
    [Laughter.]
    Senator Cantwell.--ocean policies, but I think you have 
seen these reports come and go, safe to say. And so, I look 
forward to your input on how we take action on a ocean policy 
that is concrete action, moving forward, and the discussion 
that we're going to have about what kind of leadership we need, 
to make sure that it's not just ocean policy by committee, but 
ocean policy with strict and forceful leadership.
    Senator Begich, would you like to make an opening 
statement?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Madam Chair. And usually I 
don't, but this is one of those issues that is pretty important 
to Alaska. So, thank you, for having the hearing.
    And also, I want to share, Admiral, my condolences to the 
families, as the Chair and the Ranking Member have expressed 
also. So, thank you for your service.
    Let me--anytime I get a moment, it's always important to 
kind of bring, at least my view, Alaskan perspective to what it 
means, in the sense of fisheries. And let me start by saying 
Alaska, which is 47,000 miles of shoreline, more than the rest 
of the country combined. You know, we have 70 percent of the 
Outer Continental Shelf. We produce and harvest over half the 
seafood of the country, with--about 4 billion pounds annually--
with about 2 billion-plus in value. Just to give kind of a 
perception--or a perspective of where we are, three-quarters of 
our state--or three sides of our state are bordered by water. 
So, we understand the business and have been understanding the 
waters around us and how to ensure that they are protected.
    We also understand, besides the importance of fishing, but 
also shipping and the cruise industry, oil and gas, which also 
is in our waters. Again, we're a very diverse economy, with our 
oceans and our waters that border Alaska.
    I want to thank Dr. Lubchenco and Ms. Sutley--Nancy, good 
to see you--and Admiral Allen, for hosting a listening session 
in Alaska. You probably have a good sense of the diversity of 
opinions of Alaskans. And you are still standing, and that's a 
good sign. And I appreciate your willingness to go there and 
listen to the very diverse ideas and concerns we have when you 
think of fisheries and the sustainable models that we have--
when you think of pollock and salmon and halibut and cod, we do 
have--of those four fisheries, sustainable fisheries--and noted 
sustainable.
    But, I'll just mention two quick things, and then I'll look 
forward to the questions. I do have several questions. But, to 
follow up on the Ranking Member's comment regarding the 
economic component. And, Dr. Lubchenco, you and I have had a 
conversation briefly about this. But, the important piece of 
the oceans not only is the preservation and the long-term 
environmentally sound condition of the oceans, but also the 
economic components. As I've mentioned, Alaska and how that 
fits into the equation, two recommendations I'll just point out 
that I thought were--I was glad to see it in there--the Law of 
the Sea and the recommendation of the Law of the Sea. We--I've 
been a personal supporter of that. Our House and Senate members 
in Alaska have just made a joint effort to try to move that 
forward as a resolution, supporting it. So, Alaska is 
interested in supporting this.
    But, also the mention of the Arctic in climate change, 
which, again, I want to thank you for that and the 
recommendations related to the Arctic.
    I'll end there and just really look forward to your 
testimony, and then I have some questions I would love to ask 
you all.
    Thank you very much.
    Senator Cantwell. Thank you, Senator Begich.
    Senator Nelson, would you like to make an opening 
statement?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, I want to add my thoughts 
to the loss of lives, Admiral. And thank you all for you 
constant surveillance in my State. You are a very big part, and 
you're a very big part as your Admiral down there heads that 
Task Force, with so much that's happening in the Caribbean and 
in and around the Straits of Florida. So, thank you very much.
    I also want to call attention that our astronaut crew from 
our latest Space Shuttle are here to meet with me, and I'll 
excuse myself after these comments. Thank them for your 
extraordinary success and service to our country as you have 
continued to build and equip the International Space Station 
where the nations of the world come together for science and 
for exploration.
    So, thank you very much.
    And I----
    Senator Cantwell. Gentlemen, would you like to stand up--
and let's recognize them? Is that OK?
    Senator Nelson. Certainly.
    [Applause.]
    Senator Nelson. And I want to thank Dr. Lubchenco, because 
we're bringing science to the question of the oceans. And 
sometimes it has been kind of lonely down in the southeastern 
United States, battling those who want to go out and, ``Drill, 
baby, drill.'' I've had national security on my side, because 
that's the largest training and testing area for the United 
States military in the world. And people who say that, ``Well, 
we ought to have a mixture of drilling and preservation,'' I'm 
all for that, because I was the author of working out, in 2006, 
to give the oil industry an additional 8.3 million acres, over 
the 37 million acres that they already have leased in the 
Gulf--an additional 8.3 million acres, and to keep it out from 
crossing the military mission line, which is the demarcation 
line that sets aside the eastern Gulf of Mexico for the United 
States military testing and training.
    The reason I'm saying all this, I want to thank you that 
you are now bringing the scientific perspective to this. I 
mean, I can rail all day about protecting Florida's coastline 
and our $65-billion-a-year tourism industry that depends on 
beaches that don't have tar balls on them. Or I can talk until 
I'm blue in the face about protecting the delicate estuaries, 
where so much of marine life is spawned. But, now you bring, 
Dr. Lubchenco, another perspective, in your draft proposed 
Outer Continental Shelf and Gas Leasing Program for 2010-2015 
analysis, where you point out--and I'm quoting from page 17, 
``There are numerous sensitive, hard-bottom habitats along the 
west Florida shelf, from Panama City to Dry Tortugas, important 
habitats for fisheries, species''--and you go on to cite 
deepwater coral mounds. And NOAA recommended the exclusion of 
those areas designated by the Gulf of Mexico Fishery Management 
Council.
    So, I want to thank you for bringing science to this. It 
will help me in my otherwise--and, by the way, I mean, you 
know, I thought we had a done deal 3 years ago. I had everybody 
signed up to it. And we put into law, for the first time--into 
law--protecting those areas. But, it's never enough. And so, we 
have to fight this again. And so, now I have to fight--when the 
energy bill gets to the floor, I have to fight an Amendment 
that was put on in the Energy Committee that puts oil drilling 
over the entire eastern Gulf of Mexico all the way up to within 
10 miles of the Florida coast. That's what the Dorgan Amendment 
did. And, of course, I've talked to some Senators that voted 
for it who didn't understand it and will change their vote. 
But, I still have to fight this fight. Thank you, for bringing 
the scientific perspective to it.
    Senator Cantwell. Thank you, Senator Nelson.
    As a--and I think you know, I think I tried to help in your 
effort of stopping----
    Senator Nelson. You did. You did.
    Senator Cantwell.--to repeat this lunacy of opening up 
drilling off the coast of Florida. I think this previous 
hearing that we had about the coastal communities--it is 
literally 60 percent of our GDP, these coastal economies. And 
they've already been built on the assets and resources that are 
there. And somebody who thinks that they can just casually 
change that with an amendment, I think, are very, very 
shortsighted in the impacts that it would have.
    Well, let's turn to our witnesses. We're very grateful that 
you are here, and we look forward to your comments. We're going 
to hear from Nancy Sutley, Chair of the Council on Economic--
Council on Environmental Quality for the Office of the 
President; and Honorable Jane Lubchenco, Administrator of the 
National Oceanic and Administrative--National Oceanic and 
Atmospheric Administration; Admiral Thad Allen, the U.S. Coast 
Guard Commandant; and Laura Davis, Deputy Secretary of the U.S. 
Department of the Interior.
    Welcome, to all of you. Chair Sutley, why don't we start 
with you, and we'll just go down the line from there.

           STATEMENT OF HON. NANCY H. SUTLEY, CHAIR, 
          WHITE HOUSE COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Sutley. Thank you, Senator--Chair Cantwell. Thank you, 
for the opportunity to be here. And thank you, Ranking Member 
Snowe and Senator Begich, for being here this morning and for 
the opportunity to appear before you.
    I'm Nancy Sutley, Chair of the Council on Environmental 
Quality and Chair of the Interagency Ocean Policy Task Force.
    The oceans cover more than 70 percent of the planet's 
surface and are critical to our survival. These bodies of water 
provide about half the oxygen we breathe, drive weather 
patterns, and have a major impact on our climate. Nearly half 
of our population is located in coastal counties. We rely 
heavily on the oceans for a number of activities, including 
fishing, tourism, and energy development, to name a few. Our 
rich and productive coastal regions and waters account for the 
majority of the national economy, totaling trillions of dollars 
each year.
    The United States has been a leader in exploring and 
protecting the oceans. As we research and monitor the ocean 
ecosystems, we have come to realize why it's so important to 
protect this critical resource. To ensure that the Federal 
Government is effectively achieving its stewardship 
responsibilities and responding to the growing demands and uses 
of these resources, the President established the Interagency 
Ocean Policy Task Force in June. The Task Force was charged 
with developing recommendations that include a national policy 
for the stewardship of our oceans, coasts, and the Great Lakes, 
a framework for improved Federal policy coordination, and an 
implementation strategy to meet the objectives of the National 
Ocean Policy. We submitted our interim report on September 10, 
and the report was made available for public comment. The task 
force was also asked to develop a recommended framework for 
effective coastal and marine spatial planning within 180 days.
    The interim report proposes a comprehensive national 
approach to uphold our stewardship responsibilities and ensure 
accountability for our actions. It contains proposals for a 
national policy, a robust governance structure, and priority 
actions for the Federal Government. I'd ask the Committee to 
refer to my written comments for additional detail on these key 
recommendations.
    I'm happy to report that the 24 agencies involved in the 
Task Force worked very hard, very collegially, and reached 
consensus on the interim report. And I'd like to especially 
recognize my colleagues, who are here today, for their 
leadership.
    I also want to highlight the robust public engagement 
process that the task force has undertaken to hear from and 
involve stakeholders. We held 38 expert roundtable meetings, 
had over 2,000 people attend our six regional public meetings, 
and have received more than 3,400 comments on our website.
    Moving forward, the task force is focusing its efforts on 
developing a recommended framework for effective coastal and 
marine spatial planning. We're seeing greater demands across 
the board, from offshore energy, both conventional and 
renewable, increased shipping, recreational, commercial 
fishing, and the desire for offshore aquaculture. These demands 
create stress on an already stressed environment, increase 
conflicts among users, create greater demand for use and 
occupancy of the ocean space, and emphasize the greater need 
for conservation.
    We recognize the need for ecosystem-based management and 
moving away from an uncoordinated sector-by-sector or stove-
piped approach, toward a more integrated marine resource 
management. The framework we are working on would only be a 
first step in the development of coastal and marine spatial 
planning. And while the framework will provide the foundation 
for coastal and marine spatial planning in the United States, 
much will be left to be developed among Federal, State, 
regional, and tribal partners.
    Upon completion of the next part of our report, we intend 
to issue it for 30 days of public comment, as we did with the 
interim report. We look forward to hearing from the public and 
continue to welcome input from the Committee, the Committee 
members, and your colleagues in Congress.
    Thank you, for the opportunity to testify this morning.
    And I also want to extend my condolences to our colleagues 
in the Coast Guard.
    And I look forward to your questions.
    [The prepared statement of Ms. Sutley follows:]

          Prepared Statement of Hon. Nancy H. Sutley, Chair, 
              White House Council on Environmental Quality
    Thank you Chair Cantwell. And thank you Ranking Member Snowe and 
members of the Committee, for the opportunity to appear before you this 
morning to discuss the President's Interagency Ocean Policy Task Force.
    As you know, the oceans cover more than 70 percent of the planet's 
surface and are critical to our survival. These bodies of water provide 
about half of the oxygen we breathe, drive weather patterns and have a 
major impact on our climate. Nearly half of our population is located 
in coastal counties. We rely heavily on the oceans for a number of 
activities including fishing, tourism and energy development, to name a 
few. Our rich and productive coastal regions and waters account for the 
majority of the national economy--totaling trillions of dollars each 
year.
    The United States has been a leader in exploring and protecting the 
oceans. As we research and monitor the ocean ecosystems, we have come 
to realize why it is so important to protect this critical resource. We 
have reduced overfishing, made great strides in reducing coastal 
pollution, and helped restore endangered species and degraded habitats. 
But we also recognize that demands on the oceans, our coasts, and the 
Great Lakes are intensifying, spurred by population growth, migration 
to coastal areas, and economic activities.
    Traditional and renewable energy development, shipping, 
aquaculture, and emerging security requirements are examples of new or 
expanding uses expected to place increasing demands on our ocean 
resources. To ensure that the Federal Government is effectively 
achieving its stewardship responsibilities and responding to the 
growing demands and uses of these resources, the President established 
the Interagency Ocean Policy Task Force in June of this year.
    The Task Force was charged with developing recommendations that 
included a national policy for the stewardship of our oceans, our 
coasts and the Great Lakes, a framework for improved Federal policy 
coordination, and an implementation strategy to meet the objectives of 
a national ocean policy within 90 days. We submitted our Interim Report 
on September 10, and the report was made available for public comment, 
with comments requested by October 17. The Task Force was also charged 
with developing a recommended framework for effective coastal and 
marine spatial planning within 180 days.
    The Task Force, which I chair, comprises 24 senior-level policy 
officials from across the Federal Government. Because of its wide range 
of members representing interests throughout the Federal Government, 
the Ocean Policy Task Force has been able to include input from 
agencies with a natural focus on the oceans like NOAA, the Coast Guard, 
and Department of the Interior. But at the same time, it includes 
agencies like Labor and Health and Human Services--who have a less 
traditional, but also critical stake in the national policy developed 
around this resource. Because science is the foundation of the National 
Policy, science agencies such as the National Aeronautics and Space 
Administration and the National Science Foundation were also very 
involved.
    Across the Task Force membership there is a clear recognition of 
the importance of what the President has asked us to achieve. I am 
happy to report that the level of commitment and participation by all 
those represented on the Task Force has been outstanding and I would 
especially like to recognize my colleagues that are here today--Dr. 
Lubchenco, Admiral Allen and Laura Davis for their leadership on the 
Task Force.
Public Engagement
    The Task Force has undertaken a robust public engagement process to 
hear from and involve stakeholders and interested parties. We have held 
38 expert roundtable meetings, six regional public meetings, and 
received more than 3,400 comments on our website. Our public engagement 
efforts have directly involved thousands of Americans in the 
development of our recommendations for the President.
    The 24 expert roundtables regarding the National Ocean Policy 
included representatives from sectors including: energy, conservation, 
science, recreational fishing and boating, commercial fishing, 
transportation, agriculture, human health, States, tribes, and local 
governments, ports, business, and national and homeland security. In 
addition, the Task Force has hosted 14 additional expert roundtables to 
inform its development of a recommended framework for coastal and 
marine spatial planning. Several Task Force or Working Committee 
members attended each roundtable. There was robust participation, and 
the Task Force received many valuable comments and perspectives for its 
consideration during each session. Through these expert meetings, we 
engaged approximately 700 interested stakeholders and private citizens 
in the work of the Task Force.
    The Task Force has received thousands of comments through the 
Council on Environmental Quality (CEQ) Ocean Policy Task Force (OPTF) 
website from a range of affected and interested parties, including 
academia, citizens, commercial interests, non-governmental 
organizations, and States, tribes, and regional governance structures. 
We released the Task Force's Interim Report for 30-days of public 
comment and received over 1,800 comments. We anticipate releasing the 
second phase of work, proposing a framework for marine and coastal 
spatial planning, also for public comment later this year.
    The Task Force also hosted six regional public meetings in 
Anchorage, Alaska; San Francisco for the West Coast Region; Providence 
for the East Coast; Honolulu for the Pacific Islands; New Orleans for 
the Gulf of Mexico Region; and Cleveland for the Great Lakes Region. 
The Pacific Islands meeting was virtually and interactively connected 
to several Hawaiian Islands and to Guam, American Samoa and to Saipan 
in the Commonwealth of the Northern Mariana Islands. The Gulf Coast 
meeting connected all five Gulf Coast States live and interactively 
through the Gulf Coast Ecosystem Learning Centers.
    There were three ways to participate in each of these meetings: 
live at the site (or satellite sites); by telephone; and by webcast. 
These meetings were located in key regions with distinct interests in 
the development of a national ocean policy and framework for coastal 
and marine spatial planning.
    These meetings were very well attended--over 2,000 people signed in 
at the public meetings, nearly 1,800 logged onto the webcasts, and 
hundreds used our call-in line to participate. This robust engagement 
provided the Task Force with excellent input and a real flavor of the 
diversity of the regional challenges, issues, and opportunities facing 
our oceans, coasts, and the Great Lakes.
The Interim Report
    On September 10, the Task Force sent President Obama an Interim 
Report addressing the first three charges from the President. The 
report was made available for public comment on September 17, with 
comments requested by October 17. This Interim Report proposes a 
comprehensive national approach to uphold our stewardship 
responsibilities and ensure accountability for our actions. We believe 
that it outlines a more balanced, productive and sustainable approach 
to our coastal, ocean, and Great Lakes resources. It contains proposals 
for a national policy, a robust governance structure and categories for 
action that the Federal Government will prioritize. Let me briefly walk 
through those key recommendations.
A National Policy
    The Interim Report proposes a new National Policy, based on sound 
science, that recognizes that America's stewardship of the oceans, our 
coasts, and the Great Lakes is intrinsically and intimately linked to a 
wide set of intersecting and overlapping equities--environmental 
protection and sustainability, human health and well-being, national 
prosperity, adaptation to climate and other environmental change, 
social justice, foreign policy, and national and homeland security.
    The Interim Report outlines a vision of oceans and coasts that are 
healthy and resilient, safe and productive, and understood and 
treasured. And it provides--for the first time in our Nation's 
history--a comprehensive statement of our National Policy and a set of 
overarching guiding principles for U.S. Government management decisions 
and actions affecting the oceans, our coasts, and the Great Lakes.
A Robust Governance Structure
    The Interim Report recommends modifications to the existing 
governance structure, the Committee on Ocean Policy, which was first 
created by Executive Order 13366 (2004) under the prior Administration. 
We received much input recommending that the structure could and should 
be strengthened--by providing a stronger mandate and policy direction 
to the agencies, more effectively linking science and management, and 
by ensuring renewed and sustained high-level engagement.
    The Task Force is recommending a new structure, an interagency 
National Ocean Council, led by CEQ and the Office of Science and 
Technology Policy (OSTP). The Interim Report calls for the creation of 
a Governance Advisory Committee to improve coordination with State and 
local authorities, tribes, and regional governance structures that have 
emerged over the last several years and where so much innovation and 
early leadership has been demonstrated. These steps, combined with 
sustained high-level staff involvement, would ensure that these areas 
become, and remain, a high priority throughout the Federal Government.
Categories for Action
    Finally, the Interim Report prioritizes categories for action to 
address some of the most pressing challenges facing the oceans, our 
coasts, and the Great Lakes. Four of the categories for action relate 
to improving how the Federal Government does business. These are: (1) 
Ecosystem-Based Management; (2) Coastal and Marine Spatial Planning; 
(3) Inform Decisions and Improve Scientific Understanding; and (4) 
Coordinate and Support (Federal, State, tribal, local, and regional 
management of the oceans, our coasts, and the Great Lakes).
    In addition, the Task Force proposed five priority areas of special 
emphasis--substantive areas of focus that we felt deserved renewed and 
sustained attention from the Federal Government. These are: (1) 
Resiliency and Adaptation to Climate Change and Ocean Acidification; 
(2) Regional Ecosystem Protection and Restoration; (3) Water Quality 
and Sustainable Practices on Land; (4) Changing Conditions in the 
Arctic; and (5) Ocean, Coastal, and Great Lakes Observations and 
Infrastructure.
    One of the areas of particular importance relates to the changing 
conditions in the Arctic. Increased human activity in the area is 
bringing additional stressors to the Arctic environment, with serious 
implications for Arctic communities and ecosystems. In fact, global 
climate change has already had an appreciable impact on these 
communities. As the Arctic system changes with climate change, the 
pressures for increased development of living and non-living resources 
and for increased commerce and transportation will only grow.
    This August, I had the privilege of traveling throughout Alaska 
with a number of Task Force members to meet with local communities and 
see firsthand the challenges and opportunities emerging in an 
increasingly accessible Arctic region. The common observation that we 
came away with is that the U.S. Arctic region--including its native 
peoples, its environment and its resources--is a true national 
treasure, but a vulnerable one.
    We also recognize that overlaying all of this, we must implement 
this policy and these areas of emphasis consistent with the 1982 Law of 
the Sea Convention. Accession to this vitally important treaty would 
allow the United States to participate more effectively in the 
interpretation and development of the convention, including with regard 
to the changing realities of the global marine environment. As a Party, 
the United States would have access to procedures that would allow us 
to maximize international recognition and legal certainty over our 
extended continental shelf (likely extending at least 600 nm off 
Alaska).
Next Steps: Coastal and Marine Spatial Planning
    Moving forward, the Task Force is now focusing its efforts on 
developing a recommended framework for effective coastal and marine 
spatial planning. We are seeing greater demands across the board--from 
offshore energy, both non-renewable and renewable, increased shipping, 
recreational and commercial fishing, and the desire for offshore 
aquaculture. These demands create stress on an already stressed 
environment, increased conflicts among ocean users, greater demand for 
use and occupancy of ocean space, and greater need for conservation. 
Numerous scientists, policy experts, Congress, and others have 
emphasized the need for ecosystem-based management; looking more 
holistically and across legal jurisdictional boundaries to conserve and 
sustainably use our marine environment. To do so requires us to move 
away from an uncoordinated, sector by sector, or stove piped approach 
to more integrated marine resource management.
    States such as Massachusetts, California, and Rhode Island have 
stepped out in front on this issue over the last few years, as well as 
have a number of foreign governments, such as Australia, the United 
Kingdom, the Netherlands, and Norway. The Task Force is looking at 
these examples and listening to experts in science, policy, and law, 
State, regional, and tribal representatives, and numerous stakeholders. 
Themes the Task Force has heard include that coastal and marine spatial 
planning must be proactive and integrated, ensure broad stakeholder 
participation, be adaptive, allow transparency, provide incentives for 
participation, avoid new layers of bureaucracy, and be done in 
partnership with States, regional governance structures (e.g., Gulf of 
Mexico Alliance, West Coast Governors' Alliance, Great Lakes 
Commission, Mid-Atlantic Regional Council on Oceans, South Atlantic 
Governors' Alliance, and Northeast Regional Ocean Council) and tribes, 
as appropriate.
    The Task Force is working with these ideas as it develops the 
recommended framework. This framework would only be a first step in any 
development of coastal and marine spatial planning. Coastal and marine 
spatial planning is intended to incorporate these ideas and allow for a 
more coherent approach to how we manage oceans, coasts, and the Great 
Lakes to achieve sustainable economic, environmental, and social 
benefits now and in the future. Coastal and marine spatial planning has 
been defined a number of ways, but some of the key themes include that 
it is a transparent, proactive, adaptive, forward-thinking, and 
integrated planning approach for the use of marine space.
    I expect the Task Force to further these ideas in the framework. 
However, while the framework will provide the foundation for coastal 
and marine spatial planning in the United States, much will be left to 
be developed among Federal, state, regional, and tribal partners from 
the bottom up, to ensure their interests, along with those of 
stakeholders and the public, are included in any planning process.
    Upon completion of its next report, we intend to issue it for 30 
days of public comment, as we did with the Interim Report. We look 
forward to hearing from the public, and continue to welcome any input 
the Committee, its members, or your colleagues in Congress would like 
to provide.
    Thank you for the opportunity to testify this morning and I look 
forward to your questions.

    Senator Cantwell. Thank you very much for your testimony.
    Dr. Lubchenco, thank you very much for being here.

            STATEMENT OF HON. JANE LUBCHENCO, Ph.D.,

           UNDER SECRETARY FOR OCEANS AND ATMOSPHERE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Thank you very much, Madam Chairwoman, 
members of the Subcommittee.
    My name is Jane Lubchenco. I am Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of NOAA. I greatly 
appreciate the opportunity to testify before you today on the 
Interagency Ocean Policy Task Force's work, including its 
interim report, which was release publicly on September 17.
    I appreciate the Committee's interest in this important and 
historic endeavor. As the President declared in his memorandum 
that established the task force, quote, ``We have a stewardship 
responsibility to maintain healthy, resilient, and sustainable 
oceans, coasts, and Great Lake resources for the benefit of 
this and future generations,'' unquote. And to succeed in 
protecting them, he went on, we need to, quote, ``act within a 
unifying framework under a clear national policy, including a 
comprehensive ecosystem-based framework, for the long-term 
conservation and use of our resources,'' unquote.
    Based on my personal knowledge of coastal and marine 
ecosystems from decades of scientific research, and on my 
current responsibility for leading NOAA, I completely agree 
with the President's statement.
    NOAA is the Nation's primary ocean agency. Our name says it 
all: Oceans and Atmosphere. NOAA's mission, to understand and 
protect changes in the Earth's environment and conserve and 
manage coastal and marine resources to meet our Nation's 
economic, social, and environmental needs, aligns nicely with 
the work of the Task Force. The countless hours of creative 
work by NOAA employees are reflected in the interim report's 
strong support for healthy and resilient oceans, coasts, and 
Great Lake ecosystem that support human uses and ensure vibrant 
communities and economies.
    As a science and regulatory agency, NOAA operates under the 
basic principle that sound science must inform decisionmaking. 
Similarly, the interim Ocean Policy Task Force recommendations 
are solidly grounded in scientific knowledge. Much of the 
content of the interim Ocean Policy Task Force report reflects 
NOAA's priorities as an operational marine science and 
management agency. Emphasis on ecosystem approaches to 
management has been a NOAA operating principle for several 
years, and we are pleased that this draft policy reaffirms and 
strengthens our operating principle by making it one of the 
priority objectives for how the Federal Government will do 
business under this national ocean policy.
    NOAA's mission, as a key ocean science agency, is very much 
aligned with the interim report's areas of special emphasis on 
ecosystem restoration and robust ocean science and observing 
systems. These areas of emphasis are essential to sustaining 
diverse uses of oceans, ranging from recreational fishing and 
boating to commercial fishing, shipping, energy generation, and 
national security.
    Understanding the ocean's role in climate change and the 
impacts of climate change on ecological and human communities 
is also a major part of NOAA's core business. Climate change is 
already having significant impacts on our living marine 
resources and on coastal communities. NOAA's extensive 
expertise in understanding climate dynamics and impacts is 
clearly relevant to both current and future uses of oceans.
    One of my priorities for NOAA is to connect the dots 
between healthy oceans, healthy and secure people, the economy, 
communities, and jobs. Simply put, human well-being, good jobs, 
and resilient communities depend upon the health and resilience 
of natural ecosystems. At the broadest level, we must seek to 
advance more holistic approaches to understand and balance 
human use, sustainability, and preservation of ecosystem 
resources and functioning. These concepts were a part of the 
task force's discussions, and I am pleased that these important 
issues are interwoven throughout the report.
    NOAA is committed to assist CEQ and the task force in 
responding to the President's charge to deliver a coastal and 
marine spatial planning framework, one that will enable 
governments, at all levels, to optimize use and protection of 
marine resources for the maximum benefit of the Nation.
    NOAA's capabilities in science, stewardship, and service 
are central to national economic and environmental goals. 
NOAA's existing scientific capabilities and ocean management 
authorities, including the ocean observing systems and mapping 
capabilities, along with management responsibilities for marine 
sanctuaries, estuary and research reserves, area-based 
fisheries, and protected marine resources, uniquely position 
the agency to support a national coastal and marine spatial 
planning framework.
    NOAA has already used elements of coastal and marine 
spatial planning for many years under its ocean management 
authorities. Recent examples include working with the U.S. 
Coast Guard to modify the traditional navigation routes to 
reduce impacts on North Atlantic Right Whales and other 
species, managing multiple compatible uses within marine 
sanctuaries, and regulating fisheries in time and space for 
sustainable use.
    But, NOAA's goal, and the goal of coastal and marine 
spatial planning, is to move toward a more robust, holistic 
management approach that reduces ocean/human-use conflicts and 
ecosystem impacts while enabling sustainable use of oceans.
    Apart from helping to produce these two framework 
documents, NOAA is committed to the successful implementation 
of their recommendations. NOAA has many mandates, including the 
Magnuson-Stevens Act, National Marine Sanctuaries Act, Coastal 
Zone Management Act, and Marine Mammal Protections Act, which 
could also serve as tools in the implementation of the task 
force's recommendations.
    It is clear that there is much that we can do under present 
authorities to enhance collaboration within the Federal 
Government and between the Federal Government and the States 
and tribes. We will, of course, want to engage with Congress on 
the extent to which we can accomplish the new policies under 
current legislation and on where we think additional 
authorities may be required for full implementation.
    Let me conclude by stating how pleased I am with the 
progress that has been made by the Ocean Policy Task Force. I 
particularly wish to thank Chair Sutley for her leadership and 
vision. It has been rewarding to work with all of the other 
agencies that are part of the task force, and I want to thank 
each of them for their participation and perspectives. Our 
collective effort will ensure that we move forward with a 
comprehensive ecosystem approach to addressing our stewardship 
responsibilities and to ensure accountability for our actions. 
The Nation's oceans are counting on us.
    [The prepared statement of Dr. Lubchenco follows:]

 Prepared Statement of Hon. Jane Lubchenco, Ph.D., Under Secretary for 
        Oceans and Atmosphere, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Madam Chairwoman and members of the Subcommittee, my name is Dr. 
Jane Lubchenco and I am the Under Secretary of Commerce for Oceans and 
Atmosphere and the Administrator of the National Oceanic and 
Atmospheric Administration (NOAA). Thank you for the opportunity to 
testify before you today on the Interagency Ocean Policy Task Force's 
work including its Interim Report, released on September 17, 2009.
    I appreciate the Committee's interest in this important and 
historic endeavor that began on June 12, 2009, with President Obama's 
memorandum to the heads of executive departments and Federal agencies 
establishing an Interagency Ocean Policy Task Force. Under the 
leadership of the White House Council on Environmental Quality (CEQ), 
the Task Force was charged with developing recommendations that include 
a national policy for our oceans, coasts and the Great Lakes, a 
framework for improved Federal policy coordination, an implementation 
strategy to meet the objectives of a national ocean policy, and a 
framework for effective coastal and marine spatial planning.
    The urgent need for the President's action is not new. In two 
separate reports, first in 2003 and then in 2004, both the Pew Oceans 
Commission, of which I was a member, and the U.S. Commission on Ocean 
Policy (USCOP) recognized the need for a stronger ocean policy and 
improved governance structure. Specifically, the USCOP report, An Ocean 
Blueprint for the 21st Century, identified the need for a comprehensive 
and coordinated national ocean policy and recommended moving away from 
the current fragmented, single-sector way of doing business and toward 
ecosystem-based management.
    As the President declared in his memorandum, ``We have a 
stewardship responsibility to maintain healthy, resilient, and 
sustainable oceans, coasts and Great Lakes resources for the benefit of 
this and future generations,'' and that to succeed in protecting them, 
``The United States needs to act within a unifying framework under a 
clear national policy, including a comprehensive, ecosystem-based 
framework for the long-term conservation and use of our resources.'' I 
have dedicated my career to studying coastal and marine ecosystems and 
now, as I am responsible for leading NOAA, I could not agree more with 
the President's statement. As the Department of Commerce's 
representative on the Task Force, I am both excited and honored for 
NOAA to participate as we have an exceptional range of scientific 
capabilities, as well as policy and management expertise that have 
contributed to this initiative of national importance.
The Task Force
    The Task Force is comprised of 24 senior-level policy officials 
from across the Federal Government. To complete the tasks laid out in 
the President's memorandum, CEQ established a Working Committee 
composed of senior officials and key representatives from the agencies 
and departments to support the Task Force. CEQ also established several 
subgroups to help inform the Working Committee. The Working Committee 
and subgroups met on a weekly basis (in some cases, several times a 
week) to meet the President's aggressive 90 day schedule. Reflecting 
this shared commitment to meaningful and permanent action, the Federal 
agencies have had an ``all hands on deck'' strategy to engage in a 
robust policy debate.
    The breadth of agencies and departments participating in the Task 
Force reflect how the oceans touch on most of what we do as a Federal 
Government. Throughout this process, NOAA, the Nation's primary ocean 
agency, was pleased to see so many agencies whose primary focus is not 
ocean and coastal issues be very supportive and engaged. The Department 
of Health and Human Services (HHS) is one example of a Department whose 
primary mission is to ensure the health of all Americans and provide 
essential human services, which does not explicitly lend itself to the 
stewardship of the Nation's oceans, coasts, and Great Lakes. Yet, HHS 
was engaged throughout the Task Force process realizing that healthy 
oceans support human health and their participation was comparable to 
other agencies that deal with ocean issues on a more regular basis such 
as the U.S. Coast Guard, Environmental Protection Agency, Navy and the 
Department of the Interior. It is this type of interagency commitment 
that will be critical to the effectiveness of a comprehensive National 
Policy for the Stewardship of the Ocean, our Coasts, and the Great 
Lakes.
    Many talented and dedicated NOAA employees have worked numerous 
hours on the charges laid before the Task Force. This has included very 
senior personnel in our Agency involved in marine science and policy, 
coastal zone and living resource management, and communications 
experts. Included in this NOAA team is Dr. Paul Sandifer, a former 
member of the USCOP whose experience on the Commission was invaluable 
to the Working Committee and subgroup deliberations. I am proud of 
their efforts thus far and I know that the outcome of this Task Force 
has and will continue to benefit from NOAA's steadfast participation. 
That being said, I want to emphasize the importance of a collaborative 
approach among all of the agencies that have been involved in this 
process. They all have sent very talented senior people to participate 
in the Task Force and empowered them to work collaboratively with the 
other agencies; resulting in surprisingly few ``turf battles'' as these 
policies and principles for ocean management have emerged.
The Interim Report
    The first 90 days of hard work by the Task Force resulted in the 
Interim Report, which was released on September 17, 2009. The Interim 
Report proposes a new National Ocean Policy that recognizes that 
America's stewardship of the ocean, our coasts, and the Great Lakes is 
intrinsically and intimately linked to environmental sustainability, 
human health and well-being, national prosperity, adaptation to climate 
and other environmental change, social justice, foreign policy, and 
national and homeland security.
    The Interim Report also recommends a proposed policy coordination 
framework that makes modifications to the existing ocean governance 
structure, including a stronger mandate and policy direction, and 
renewed and sustained high-level engagement. Under the proposal, CEQ 
and the Office of Science and Technology Policy would lead an 
interagency National Ocean Council to coordinate ocean-related issues 
across the Federal Government and the implementation of the National 
Ocean Policy. Such a governance structure, combined with sustained 
high-level staff involvement, would ensure that ocean issues remain a 
priority and are addressed consistently throughout the Federal 
Government. The proposal also includes a Governance Advisory Committee 
to the National Ocean Council to improve coordination and collaboration 
with State, Tribal, and local authorities, and regional governance 
organizations.
    The Interim Report prioritizes nine categories for action, 
including ecosystem-based management, regional ecosystem protection and 
restoration, and strengthened and integrated observing systems, that 
seek to address some of the most pressing challenges facing the ocean, 
our coasts, and the Great Lakes. These strategies and objectives 
provide a bridge between the National Ocean Policy and action on the 
ground. As we have heard from listening sessions all over this country, 
there is great enthusiasm and high expectations that we will move from 
planning and coordination to meaningful improvements in coastal and 
ocean ecosystems.
    Lastly, the Interim Report highlights the need for the United 
States to provide leadership internationally in the protection, 
management, and sustainable use of the world's ocean and coastal 
regions, including through accession to the Law of the Sea Convention.
    The recommendations in the Interim Report reflect the considerable 
input the Task Force received through a robust public engagement 
process. The Task Force convened 24 expert roundtables with 
representatives from a variety of stakeholders and sectors including 
energy, conservation, fishing, transportation, agriculture, human 
health, State, tribal, and local governments, ports, recreational 
boating, business, science, and national and homeland security. Several 
Task Force or Working Committee members attended each roundtable. 
Public comments were also accepted via the CEQ website.
    In addition, between August and the end of October, we held six 
regional public listening sessions where Task Force members traveled to 
the different regions of the country and heard from many interested 
stakeholders. NOAA was the primary support to CEQ for organizing and 
running the regional listening sessions and I personally participated 
in all six of these sessions as I believe that public participation is 
vital to the success of this process and meeting our overall goals.
    Throughout the various public engagement processes there were 
several key themes that we heard over and over again. These include 
ecosystem-based management, support for science-based decisionmaking, 
the need for improved governmental coordination, collaboration and 
transparency, and the importance of ensuring that adequate financial 
and other resources are made available to implement the National Ocean 
Policy. The Task Force took these comments and integrated them into the 
Interim Report. The extraordinary amount of public engagement in the 
process also illustrated the fact that, wherever one lives in this 
great country, the oceans matter to our individual and national 
prosperity, our health, our security, and our quality of life. The 
comments received on the interim report through the public comment 
period are currently under review and the interim report will be 
modified as necessary.
NOAA's Input to the Interim Report
    NOAA's mission, to understand and predict changes in Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs, aligns 
with the work of the Task Force. The countless hours of creative 
thoughts and negotiations by NOAA employees, in coordination with our 
interagency partners, are reflected in the Interim Report's strong 
support for healthy and resilient oceans, coasts and Great Lakes 
ecosystems that support human uses and ensure vibrant communities and 
economies.
    As a science and regulatory agency, NOAA operates under the basic 
principle that sound science must inform decisionmaking. Science is the 
underpinning of the Interim Ocean Policy Task Force recommendations. It 
feeds the substantial informational needs of ecosystem-based management 
and provides tools for achieving ecosystem-based management such as 
coastal and marine spatial planning, to inform better decisionmaking 
and to improve understanding of the impacts of the ocean environment on 
living resources and human communities. Ocean sciences in the United 
States are supported by research agencies such as the National 
Aeronautics and Space Administration, National Science Foundation, and 
National Institutes of Health, and ``operational'' agencies such as 
NOAA, the Department of the Interior, and Environmental Protection 
Agency. There are also important ocean science components in a number 
of other agencies as well, including the U.S. Navy.
    Much of the content of the interim Ocean Policy Task Force report 
reflects NOAA's priorities as an operational marine science and 
management agency. Emphasis on ecosystem approaches to management has 
been a NOAA operating principle for several years, and we are pleased 
that this draft policy reaffirms and strengthens our operating 
principle by making it one of the priority objectives for how the 
Federal Government will do business under this National Ocean Policy. 
Working across agencies and vertically among Federal, tribal, state and 
local governmental agencies is similarly a high priority for our 
agency.
    NOAA is a key ocean science agency fulfilling the role of providing 
the scientific information to the Nation in support of the Task Force 
recommendations. As such, NOAA made large contributions to the content 
of the Interim Report. Similarly, NOAA's missions are very much aligned 
with the Interim Report's areas of special emphasis in ecosystem 
restoration, including habitats, fisheries and protected species, 
robust ocean science capabilities including integrated ecosystem 
assessments, biodiversity assessments, and ocean exploration, and a 
robust ocean observing systems.
    Understanding the ocean's role in climate change and the impacts of 
climate change on ecological and human communities is a major part of 
NOAA's core business. Climate change is already having significant 
impacts on our living marine resources and coastal communities. Entire 
ecosystems are undergoing unprecedented changes--one only has to look 
to Alaska to see the extent and magnitude of these changes and to get a 
preview of the kinds of impacts that may be in store for the rest of 
the country. NOAA has extensive expertise in improving our 
understanding of climate dynamics. We are able to monitor and forecast 
short-term climate fluctuations and to provide information on the 
effects climate patterns may have on the Nation. We also track changes 
in biological and physical indicators of climate change such as shifts 
in the geographic ranges of species.
    The Arctic is an emerging area of national concern from a variety 
of economic, ecological, cultural/subsistence and climate-related 
issues. NOAA Scientists supply a variety of services in the Arctic and 
are providing ongoing advice on topics ranging from mapping and 
charting for emerging transportation issues and the extent of the U.S. 
continental shelf to advice on the likely impacts of climate change on 
protected species such as ice-dependent seals and fish stocks and on 
Alaska Native subsistence communities. For these and other reasons, 
NOAA supported the inclusion of the Arctic as an area of special 
interest in the Interim Report.
    As the NOAA Administrator, it is one of my priorities for NOAA to 
be a leader in understanding the processes by which marine ecosystems 
provide services crucial for human survival on Earth, in quantifying 
the values of these services, and in helping to educate businesses and 
Federal, state and local decisionmakers about how the health of human 
society and the health of the environment are tightly coupled. Simply 
put, human health, jobs, prosperity, and well-being depend upon the 
health and resilience of natural ecosystems. Nowhere is this connection 
more evident or important than in our oceans and along our coasts and 
Great Lakes where NOAA has major responsibilities. Human impacts 
degrade coastal, ocean and Great Lakes ecosystems, and degraded marine 
ecosystems result in increased risks to human communities and their 
economies, and to public health and safety. At the broadest level, we 
must seek to advance more holistic approaches to understand and balance 
human use, sustainability, and preservation of ecosystem resources and 
functioning. I personally made it a priority to see that these concepts 
were a part of the Task Force's discussions, through my participation 
in all six of the regional listening sessions. I am very pleased with 
how these important issues are interwoven throughout the Interim 
Report.
Next Steps--A Framework for Coastal and Marine Spatial Planning
    NOAA is committed to assisting CEQ and the Task Force in the 
President's charge to deliver a coastal and marine spatial planning 
framework--one that will enable governments at all levels to optimize 
both use and protection of marine ecosystems for the maximum benefit of 
the Nation. During this second phase, we have expanded NOAA's 
involvement to include additional staff with expertise in spatial 
management, data integration, legal affairs and ocean sciences and 
management. This additional expertise and similar contributions by 
other agencies is allowing rapid and concrete progress toward 
development of a workable framework for coastal and marine spatial 
planning, a framework where we can bring to bear many of NOAA's 
capabilities in science, stewardship and service to support national 
economic and environmental goals. In addition to the Task Force's work, 
NOAA has also sponsored internal training in marine spatial planning 
and extended invitations to other Task Force agencies to hear from 
international experts in marine spatial planning about their 
experiences in this emerging field elsewhere in the world.
    NOAA's existing scientific capacities and ocean management 
authorities, including ocean observing systems and mapping 
capabilities, along with management responsibilities for marine 
sanctuaries, estuarine research reserves, area-based fisheries, and 
protected marine resources, uniquely position the agency to support a 
national coastal and marine spatial planning framework. NOAA has 
practiced elements of coastal and marine spatial planning for many 
years under its ocean management authorities; recent examples include 
working with the U.S. Coast Guard to modify traditional navigation 
routes to reduce impacts on North Atlantic Right Whales and other 
species, managing multiple compatible uses of marine sanctuaries, and 
regulating fisheries in time and space for sustainable use. But NOAA's 
goal, and the goal of coastal and marine spatial planning, is to go a 
step further and foster a more robust, holistic management approach 
that effectively reduces human use and ecosystem conflicts while 
enhancing economic activity and maintenance of critical ecosystem 
services.
    NOAA, together with the Department of the Interior and 
Environmental Protection Agency, has also brought to the Task Force's 
coastal and marine spatial planning framework discussions its 
experience in working with the coastal States on their regional 
collaborations. These include, in part, the Governor-created regional 
groups: Northeast Regional Ocean Council, Mid-Atlantic Regional Council 
on the Ocean, Gulf of Mexico Alliance, and the West Coast Governors 
Agreement. These State-led regional bodies, and individual State marine 
spatial planning efforts such as the Massachusetts Ocean Plan and Rhode 
Island's Ocean Special Area Management Plan, are currently leading 
marine spatial planning efforts and bringing substantial information 
and ideas to the Task Force.
    Apart from helping to produce these two framework documents, NOAA 
is committed to the successful implementation of their recommendations. 
NOAA has many mandates including the Magnuson-Stevens Act, National 
Marine Sanctuaries Act, Coastal Zone Management Act, and Marine Mammal 
Protection Act, which could also serve as tools in the implementation 
of the Task Force recommendations. In working with the various agencies 
on the Task Force, it is also clear that there is much we can do under 
present authorities to enhance collaboration within the Federal 
Government and between the Federal Government and the states and 
tribes. We will, of course, want to engage with Congress on the extent 
to which we can accomplish the new policies under current legislation, 
and on where we think additional authorities may be required for full 
implementation. In either case, if the President chooses to adopt these 
recommendations, they could require NOAA to modify and re-prioritize 
some of its missions and data gathering responsibilities. Additionally, 
it will require all of the Line Office elements of NOAA to continue to 
focus on working collaboratively together and with the many external 
partners that will be required to support ecosystem-based management of 
the oceans. We look forward to the implementation phase of this 
historical effort to harmonize the management of the Nation's coastal, 
ocean and Great Lakes ecosystems.
    Let me conclude by stating how pleased I am with the progress that 
has been made by the Ocean Policy Task Force. I would particularly like 
to thank Chair Sutley for her leadership and vision. It has been 
rewarding to work with all of the other agencies that are part of the 
Task Force, and want to thank each of them for their participation and 
perspectives. Our collective effort will ensure that we move forward 
with a comprehensive ecosystem approach to addressing our stewardship 
responsibilities and to ensure accountability for our actions. The 
Nation's oceans are counting on us.
    Finally, I'd like to thank the Committee for this opportunity to 
testify and I look forward to working with you on this important issue.

    Senator Cantwell. Thank you very much.
    Next, we'll hear from Admiral Allen.
    Thank you, for being here, today. We look forward to your 
comments.

              STATEMENT OF ADMIRAL THAD W. ALLEN, 
                  COMMANDANT, U.S. COAST GUARD

    Admiral Allen. Thank you. Good morning, Madam Chair, 
Senator Snowe, and other members present. Thank you very much, 
for holding this hearing.
    And I'm happy at the opportunity to be here with my 
colleagues. Over the last several months, we've forged a very 
strong partnership and a bond of friendship, and I think we're 
all committed to moving this effort forward.
    I'm also very pleased to be representing the Department of 
Homeland Security and Secretary Napolitano as a member of the 
task force.
    And I would ask that my written statement be included in 
its entirety for the record.
    I believe the Ocean Policy Task Force represents a 
significant opportunity to employ a whole-of-government 
approach for managing our oceans, coastlines, Great Lakes, and 
waterways.
    This is an issue of critical strategic importance to our 
service in our maritime safety, security, and stewardship 
roles. Those roles are clearly reflected in the report's vision 
statement, an America whose stewardship ensures that the ocean, 
our coast, and Great Lakes are healthy and resilient, safe and 
productive, and understood and treasured so as to promote the 
well-being, prosperity, and security of present and future 
generations. And, in fact, it's hard to find a section of the 
task force report where the Coast Guard does not have 
significant equities. But, here are a few that I consider most 
important:
    The first would be an improved policy coordination and 
predictable processes for how we manage our roles and 
responsibilities in relation to the ocean. A national oceans 
policy will enhance interagency coordination and ensure senior-
level attention on ocean-related issues. This will result in 
more efficient Federal oversight of our oceans, coasts, Great 
Lakes, and waterways, and improved communications with our 
partners throughout the public and private sectors.
    Marine spatial planning, a key element of this policy, 
similar in many regards to urban planning for the ocean, 
provides an objective and transparent framework to guide the 
decisions for the use of ocean, coastal, and Great Lakes water 
resources. We need to establish a sustainable balance between 
use and conservation while providing greater predictability for 
public- and private-sector investments. Marine spatial planning 
will help us reduce conflicts in the maritime domain and 
responsibly harvest oceanic resources.
    As a cooperating agency within the National Environmental 
Policy Act process, the Coast Guard becomes immersed with 
conflicting waterway uses, such as renewable energy proposals, 
deepwater ports, oil and gas exploration, aquaculture, 
sanctuaries, vessel traffic lanes, navigable channel sizes, and 
the establishment of anchorages. These conflicts will expand as 
technology makes our oceans more accessible to exploration.
    Currently, the Coast Guard adjudicates conflicts 
individually, without the benefit of an overarching marine 
spatial planning framework. The lack of a broader national plan 
makes it difficult to understand the implications across all 
stakeholders and the ecosystem. Without such perspectives, the 
ensuing uncertainty forces higher costs, inefficiencies, and 
the potential for litigation of disputes.
    The oceans are our last global commons. Thus, our domestic 
ocean policies must be considered relative to international 
frameworks. The task force, to be effective--for the task force 
to be effective, it is paramount that the United States become 
a signatory to the United Nations Convention on the Law of the 
Sea. UNCLOS puts us on an equal footing when negotiating with 
other nations, on extended continental shelves, ocean resources 
management, freedom of navigation, and international ocean 
policy issues.
    We must work closely also with the International Maritime 
Organization as we implement any new policy. The IMO has proven 
time and time again that it can bring the global maritime 
community together to address shared concerns. The passage of 
the International Ship and Port Facilities Security Code and 
the work on greenhouse gas emissions are just two examples. 
While there are those that say the IMO process sometimes takes 
longer, it does result in a highly effective way to generate a 
consensus.
    I'd like to speak for just a moment about the Arctic 
region. In August, I had the honor of joining my fellow task-
force members on a trip to the Arctic. Climate change is 
causing Arctic temperatures to rise at nearly twice the global 
rate, resulting in back-to-back record low sea-ice coverage in 
2007 and 2008. Decreasing sea ice and enhanced technologies are 
opening new possibilities for shipping routes and marine 
activity in the Arctic. It requires special and immediate 
attention. A national ocean policy should give special 
consideration to the Arctic region and provide for robust and 
coordinated implementation of U.S. Arctic regional policy as 
developed in the National Security Presidential Directive 66.
    By simply convening the Ocean Policy Task Force, we are 
acknowledging how important the maritime domain is to our 
national prosperity, security, and resilience. We fully endorse 
a national ocean policy that supports integrated ocean 
observing systems and sensors to monitor and collect 
information about our ocean, coast, and Great Lakes. This data 
significantly adds to our overall maritime domain awareness and 
improves our ability to provide for maritime safety, security, 
and stewardship.
    In closing, I fully endorse the stated goals of the Ocean 
Policy Task Force. I look forward to building the national plan 
that will allow our Nation to benefit from our oceanic 
resources while sustaining them for future generations to 
enjoy.
    And thank you for the opportunity to testify today, and I 
look forward to your questions.
    [The prepared statement of Admiral Allen follows:]

             Prepared Statement of Admiral Thad W. Allen, 
                      Commandant, U.S. Coast Guard
Introduction
    Good morning, Madame Chair, Senator Snowe, and distinguished 
members of the Subcommittee. I am pleased to be here today to discuss 
the Coast Guard's role in the Interagency Ocean Policy Task Force that 
President Obama established in June. A new national ocean policy 
especially as it creates a unified framework for effective coastal and 
marine spatial planning--is critical to the Nation and to the ability 
of the Coast Guard to execute its mission. I will also briefly discuss 
several objectives the Coast Guard would like to see addressed as this 
important ocean policy process moves toward completion and initial 
implementation.
Importance to the Coast Guard of a Better National Ocean Policy
    Ms. Nancy Sutley--the Chair of the White House Council on 
Environmental Quality and leader of this Task Force--has presented an 
excellent overview of the substance and purpose the Task Force, and 
what it hopes to accomplish in promoting the health and productivity of 
our oceans, coastlines, waterways, and Great Lakes. I would like to 
discuss in some more detail the benefits of a national ocean policy to 
the Coast Guard and the Nation as a whole.
    For well over two centuries, the Coast Guard has worked to 
safeguard our Nation and its citizens, to secure our maritime borders, 
and to serve as a responsible steward of our oceans, coastlines, 
intercoastal waterways and the Great Lakes. As the principal Federal 
maritime law enforcement agency, the Coast Guard protects our coastal 
waters and marine resources, ensures safe and secure navigation, and 
performs other essential tasks such as search and rescue, servicing 
aids to navigation, and counter-drug operations.
    Our Nation is facing many new challenges in marine spaces. 
Potential new shipping lanes burgeon as Arctic ice melts. The size and 
volume of commercial shipping around the world continue to increase. 
There is increasing interest in our continental shelves for oil and gas 
production. Overfishing and other destructive practices proliferate. 
Parts of the ocean are suffering acidification. Invasive species are 
being introduced and migrating to new areas. Critical coastal habitats 
and the environmental benefits they provide are being lost. A 
comprehensive approach is imperative to address these many challenges.
    These challenges are not new. Most of these have been well 
documented in the past--by the Stratton Commission report in 1969, the 
Pew Commission report in 2003, and the report of the U.S. Commission on 
Ocean Policy in 2004. For its part, the Coast Guard produced a strategy 
document in 2007 titled ``The U.S. Coast Guard Strategy for Maritime 
Safety, Security, and Stewardship.'' After quoting from the Final 
Report of the U.S. Ocean Policy Commission on maritime regimes, and 
noting the increased security challenges following the 9/11 terrorist 
attacks, I provided the following observation in that strategic 
document: ``In ocean policy, the United States needs integrated regimes 
that address concerns ranging from increased use of the Exclusive 
Economic Zone (EEZ) to new uses in the Arctic. To fill these gaps, and 
create a more integrated system, the Coast Guard must work to 
strengthen existing maritime regimes, and develop new ones where 
necessary.'' That need has become increasingly apparent to me as I have 
continued to serve as the Commandant of the Coast Guard.
    Although the work of producing the Interim Ocean Policy Task Force 
Report was limited to 90 days, the Department of Homeland Security and 
the Coast Guard are proud of what the Task Force produced in this 
timeframe. This report provides admirable focus on, and balance of 
safety, security, economic resource and environmental stewardship 
issues. The report emphasizes a number of areas that the Coast Guard 
views as critical to achieve safe, secure, and environmentally prudent 
commercial shipping, such as: ecosystem-based management of coastal 
waters; adaptive management; coastal and marine spatial planning; plans 
for addressing changing conditions in the Arctic; science-based 
decision-making; and improved maritime domain awareness. The Department 
of Homeland Security and the Coast Guard look forward to working across 
government and the maritime community to implement any national ocean 
policy that may result from the work of the Task Force. In order to 
ensure that any policy takes the concerns of all stakeholders into 
account, the Task Force will continue to solicit and consider 
suggestions from the public and other stakeholders as to the substance 
of its proposals.
    I would also like to emphasize a key point upon which all Task 
Force members agree: the time has long since come for the United States 
to join the 1982 Convention on the Law of the Sea. Task Force Chair 
Sutley, Dr. Jane Lubchenco, Administrator of the National Oceanographic 
and Atmospheric Administration(NOAA), and I co-authored an 4 op-ed 
piece in the Seattle Times (published Sept. 4), in which we noted the 
crucial importance of acceding to the Convention as the Task Force 
completes its work. Among other things, accession to the Convention is 
essential to promote our vital national interests in the Arctic. The 
Clinton, Bush, and Obama Administrations have all made clear their 
strong support for the Convention. So, too, have the Joint Chiefs of 
Staff and a diverse array of other national security leaders, 
environmental policy experts, and the entire spectrum of maritime 
industry stakeholders. To this overwhelming body of opinion, we 
recently added the unanimous conclusion of the Interagency Ocean Policy 
Task Force. In comments the Task Force has received from policy 
experts, industry, and other knowledgeable citizens, support for the 
Convention has been overwhelming. I strongly urge the U.S. Senate to 
provide its necessary consent for the United States to join the 
Convention as soon as possible.
Coast Guard's Role in the Process
    The Coast Guard strongly supports the goals of the Task Force and 
has been enthusiastic to take an important role in its work. Soon after 
the President established the Task Force on June 12, 2009, the 
Secretary of Homeland Security and I discussed how best we could 
represent our Departmental obligations in carrying out the mission of 
the Task Force. Because the Coast Guard has great experience and 
expertise in ocean policy and marine spatial planning, Secretary 
Napolitano named me as the Department's representative on the Task 
Force. The Coast Guard has a long-standing and vested interest in 
developing, implementing, and carrying out a comprehensive ocean policy 
for the United States. My senior staff and I, along with a wide 
spectrum of Coast Guard operational and policy subject-matter experts, 
are actively participating in every aspect of this important 
interagency process.
    In August, I hosted a Task Force trip to the North Slope of Alaska. 
Several members of the Task Force--including two members of the Task 
Force, the Chair, Nancy Sutley and Dr. Jane Lubchenco traveled with me 
to see the increasingly fragile environment of Arctic and to learn what 
the Coast Guard, other governmental agencies, local tribal governments, 
and non-governmental groups are doing to enhance stewardship of this 
critical region. During our trip, we met with leaders of several of the 
indigenous peoples in the Arctic region, visited oil and gas production 
facilities, and witnessed first-hand the increasing number of 
challenges at-risk coastal communities face due to coastal erosion 
associated with global climate change.
    Toward the end of that trip, we participated in a formal public 
hearing that the Task Force had arranged in Anchorage. We heard from a 
wide variety of experts and interested citizens on a broad range of 
topics related to ocean policy, ecosystem-based management, and marine 
spatial planning. Since that field hearing in Anchorage, senior Coast 
Guard leaders and I have participated in public hearings in San 
Francisco, Honolulu, Providence, New Orleans, and Cleveland. These 
public hearings have been very worthwhile and informative, and the work 
of the Task Force has been well received. The Coast Guard continually 
strives to increase our awareness of the many challenges facing our 
ocean and coastal waters, and we consistently engage the maritime 
community to define and promote the necessary steps that we can take 
together to overcome these challenges. The Task Force has been taking 
this approach at the national level.
    The Coast Guard has provided physical, personnel, and 
administrative resources to the Task Force's efforts. A Coast Guard 
helicopter tour of the Louisiana coastline allowed the Task Force to 
observe first-hand the remaining effects of the devastation of 
Hurricane Katrina as well as the remarkable resilience of the region. 
During our flight, we were briefed on hypoxic ``dead zone'' caused by 
polluted water from the Mississippi River--often larger in area than 
the State of Massachusetts--in the Gulf of Mexico coastal waters.
    Coast Guard participants in the Task Force have also actively 
provided administrative support for research, workshops, outreach to 
the public and other stakeholders, drafting assistance, and other 
coordinating efforts on the work products for the Task Force. The 
Interim Report--which contains a draft ocean policy, governance 
framework, and implementation strategy was sent to the President on 
Sept. 10, reflects a remarkable achievement of interagency cooperation, 
containing a draft ocean policy, governance framework, and 
implementation strategy.
    We continue to support the development of a final strategy through 
briefing congressional staffers and holding expert roundtable 
discussions designed to hear suggestions and provide answers to the 
public and other stakeholders.
Importance of Coastal and Marine Spatial Planning
    The Coast Guard was also involved in the second phase of tasks the 
President laid out in his June 12 Executive Memorandum. Specifically, 
Coast Guard staff attorneys and other subject-matter experts are 
actively participating in the Working Committee and the subgroups 
established to develop a framework for effective coastal and marine 
spatial planning (CMSP).
    The Task Force's work in improving coastal and marine spatial 
planning (CMSP) is critical to the Coast Guard's ability to perform our 
important work. For years, the Coast Guard has essentially performed a 
limited form of marine spatial planning in many different ways, 
especially in regard to vessel traffic separation. However, these 
actions are undertaken on an ad hoc, case-by-case basis. The Nation 
would greatly benefit from a framework to implement ocean management 
principles that takes into account the impact of the use of U.S. waters 
on all alternative uses and users, as well as the entire ecosystem. A 
comprehensive, integrated, transparent planning process for current and 
anticipated uses of off-shore maritime space would reduce conflict and 
adverse environmental impacts, facilitate compatible uses, and preserve 
critical ecosystem services to better meet environmental, economic and 
security objectives.
    The 2004 report of the U.S. Commission on Ocean Policy expressed 
the challenge and opportunity as follows: ``While legal, policy, and 
institutional frameworks exist for managing some ocean uses, there 
remain increasingly unacceptable gaps. The Nation needs a coordinated 
offshore management regime that encompasses traditional and emerging 
uses and is adaptable enough to incorporate uses not yet clearly 
foreseen.''
    From the perspective of the Coast Guard, the Federal Government 
needs to establish a multi-purpose process that allows for 
identification and resolution of potentially competing uses of maritime 
resources and spaces prior to the emergence of conflicts; that balances 
ocean uses and conservation; and that creates a transparent means to 
determine and resolve ``trade-offs'' between potentially conflicting 
uses that reflects national and regional ocean use priorities; and that 
creates an accepted and expedited dispute-resolution mechanism when 
conflicts do arise. We need to provide a more coordinated, 
comprehensive, uniform, and integrated approach to exercising Federal 
legal authorities related to ocean use and management. Based on the 
work of the Task Force so far, we anticipate that an effective system 
of CMSP will better address the ``gaps'' in current ocean management 
regimes and better manage ocean uses. This will allow the Coast Guard 
to more effectively execute its many missions in support of safety, 
security, and stewardship in our ocean and coastal waters.
    Policy experts presented case studies of CMSP in other parts of the 
world, as well as in a handful of U.S. states. In 1975, Australia 
became the first to establish a system of marine spatial planning, 
which strove to protect the fragile and unique ecosystem of the Great 
Barrier Reef while minimizing undue interference with essential 
shipping activity and other commercial and recreational uses. The Task 
Force also studied the experiences of several other European coastal 
countries that have implemented marine spatial planning to provide for 
off-shore alternative energy production, particularly wind farms and 
hydrokinetic applications.
    The processes that these countries have implemented have led to the 
establishment of shared priorities for the ocean and coasts, and a 
framework for balancing the shared interest in the marine environment 
with commercial and industrial activities. Properly structured and 
implemented, CMSP can streamline and simplify the permitting process, 
balance competing uses effectively, explicitly identify and evaluate 
trade-offs, provide administrative certainty, and expedite dispute 
resolution, all while better protecting the marine environment through 
science- and ecosystem-based and adaptive management. All of these 
benefits would help the Coast Guard accomplish its missions more 
efficiently and effectively.
    The Coast Guard's limited involvement in marine spatial planning 
most obvious in its establishment and enforcement of vessel traffic 
separation schemes in U.S. waters, especially at the entrance to major. 
These traffic schemes help ensure navigational safety and security by 
defining where specific shipping and other activities may take place. 
One recent example where the Coast Guard, NOAA, and other Federal 
agencies employed adaptive management principles to better preserve at 
least one critical component of a marine ecosystem was by modifying the 
vessel traffic system in the approaches to Boston Harbor. In light of 
new scientific evidence concerning the preferred feeding and basking 
locations of North Atlantic right whales in Cape Cod Bay, the Coast 
Guard and our partner agencies weighed the benefit of amending the 
vessel traffic system to reduce the likelihood of vessel traffic 
passing through the areas with the highest incidence of whale 
observations. In 2007, the Coast Guard worked with other interested 
stakeholders to slightly shift existing shipping lanes and establish 
new ones nearby to reduce the likelihood of whale strikes as vessels 
entered and departed from the port of Boston, all while minimizing any 
adverse impacts on the large daily volume of commercial shipping.
    This is only one example of the type of prior work conducted in 
applying the basic technique of marine spatial planning to strategic 
management of our oceans, coasts, and the Great Lakes. The Coast Guard 
has statutory authority to establish and enforce vessel anchorage areas 
in U.S. ports and coastal waters, where the need to accommodate 
different vessel types and varied uses must be weighed against 
environmental impacts and the burden of maintaining such measures. 
Likewise, the Coast Guard has the authority to establish security zones 
and regulated navigation areas in U.S. ports and waters. The Coast 
Guard also plays a key role as a cooperating agency helping to 
determine whether and under what conditions various offshore activities 
should be authorized, such as deep-water ports, hydrokinetic or wind-
based renewable energy proposals, or traditional uses such as oil and 
gas exploration and production. Moreover, while undertaking these 
responsibilities, the Coast Guard engages and listens to a wide variety 
of stakeholders, including the shipping industry, port authorities, and 
in some instances the International Maritime Organization in the 
process of reviewing and making recommendations for such plans.
    A system of effective CMSP would greatly improve and enhance the 
effective collaboration of Federal and state agencies, affected local 
governments and tribes, and other stakeholders to determine the most 
efficient and prudent uses of our oceans, coasts, and Great Lakes.
    Given the significance of these issues, the remarkable cooperation 
that we have seen from all the members of the Task Force, the positive 
tenor and text of the Interim Report, and all other indications, the 
Coast Guard is fully confident that the process to develop a 
recommended framework will continue to properly address the Coast 
Guard's, and other Task Force members' interests. .
    In the meantime, the Coast Guard and its interagency partners are 
working within the current structure to make the ocean and our coastal 
and Great Lakes waters safer, more secure, more productive, and as 
environmentally sound as we can. On October 16, the Coast Guard, the 
State Department, the Environment Protection Agency, and NOAA 
cosponsored a 2009 World Maritime Day event in New York, with several 
parallel events taking place in major port cities throughout the 
country. Representatives from a broad range of government agencies, 
maritime industries, non-governmental organizations, and the general 
public, participated in these events. Dr. Holdren, Director of the 
White House Office of Science and Technology Policy, gave the key-note 
presentation on the topic of global climate change and pollution, and 
its impacts on the ocean's ecology. Other discussion topics at the 
event included shipping safety, maritime security, and how climate 
changes present challenges to the maritime community. Many of those in 
attendance applauded the Administration's commitment to moving forward 
with a national policy for the oceans, coastlines, waterways and Great 
Lakes, and developing a framework for effective coastal and marine 
spatial planning.
Conclusion
    To meet our national responsibilities in our oceans, coastlines, 
intercoastal waterways and the Great Lakes, our Nation, the Department 
of Homeland Security, the Coast Guard, and the other agencies concerned 
must develop and implement the best possible national ocean policy and 
structure. We are all convinced that this should include a 
comprehensive, integrated, transparent, and ecosystem-based planning 
process for the various uses of coastal and marine space. We share the 
goal in the vision statement the Task Force expressed in its Interim 
Report: ``An America whose stewardship ensures that our oceans, 
coastlines, intercoastal waterways and the Great Lakes remain healthy, 
resilient, safe and productive, and understood and treasured so as to 
promote the well-being, prosperity, and security of present and future 
generations.''
    Thank you for your attention and your interest in this important 
topic. I would ask that my written remarks be entered into the record. 
I am ready to respond to any questions that you may have.

    Senator Cantwell. Thank you, Admiral Allen.
    Last, we'll hear from the Honorable Laura Davis, from the 
U.S. Department of the Interior.
    Thank you for being here.

  STATEMENT OF HON. LAURA DAVIS, ASSOCIATE DEPUTY SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Davis. Thank you very much, Chairwoman Cantwell and 
Ranking Member Snowe and other members of the Subcommittee. I 
appreciate the opportunity to appear here.
    I'd like to submit my full written statement and summarize 
my remarks now--statement for the record.
    I'm Laura Davis. I'm the Associate Deputy Secretary of the 
Interior. The Department of the Interior is proud to be playing 
a leadership role on the President's Ocean Policy Task Force.
    I'm honored to appear here today with my fellow task-force 
members, Chair Nancy Sutley, Admiral Thad Allen, and Dr. Jane 
Lubchenco. I especially want to acknowledge Chair Sutley's 
leadership and the extraordinary efforts of her staff.
    I know that those of you on this committee have worked for 
many years on the issue of ocean and coastal policy. And all of 
us look forward to working closely with you and receiving your 
input as we move forward.
    In June, the President charged us to work together on an 
expedited timeline to develop a policy recommendation to 
achieve healthy, resilient, and sustainable ocean, coast, and 
Great Lakes resources for the benefit of this and future 
generations. To achieve the President's vision, we have sat 
down together, over the course of 4 months, at all levels of 
all of our departments, to meet his charge. We've attended 
public meetings across the country and heard the thoughtful 
concerns expressed by citizens living in those regions who took 
the time to come and meet with us. We've released an Interim 
Ocean Policy document which includes a recommendation for a 
robust governance and coordination approach and a plan for 
expeditious implementation. And we're spending lots of time 
together now as we discuss how to make our best recommendation 
to the President on a framework for effective coastal and 
marine spatial planning. These activities have already 
strengthened our coordination with each other and our 
partnerships with States, tribes, regional organizations, and 
others in the stakeholder community.
    All of the Department of the Interior is involved in this 
effort. The Department has a lot at stake in these discussions. 
For starters, we have, after all, leasing, permitting, and 
oversight responsibility in the Minerals Management Service for 
conventional and renewable energy resources on the 1.7 billion 
acres on the Outer Continental Shelf. These resources are a 
national priority to help us secure greater energy 
independence.
    The National Park Service and the Fish and Wildlife Service 
manage over 35,000 miles of coastline and 254 ocean and coastal 
parks and refuges. The Bureau of Land Management administers 
1100 miles of coastline and the California Coastal National 
Monument. The Bureau of Indian Affairs works with tribes to 
address their ocean and coastal issues. And because the 
Department is committed to sound scientific decisionmaking, the 
U.S. Geological Survey provides the rigorous scientific 
research that supports our resource management activities.
    So, we're all involved, and proudly so, in working together 
with our Federal sister agencies to achieve the goals of the 
President's Ocean Policy Task Force. We're committed to 
developing and implementing a coordinated and comprehensive 
national policy for our treasured but vulnerable ocean, coast, 
and Great Lakes resources. We look forward to working with you 
as we move forward, to implement this vision.
    Thank you again for the opportunity to appear here today, 
and I look forward to answering your questions.
    Thank you.
    [The prepared statement of Ms. Davis follows:]

    Prepared Statement of Laura Davis, Associate Deputy Secretary, 
                       Department of the Interior
    Chairwoman Cantwell, Ranking Member Snowe and members of the 
Subcommittee, my name is Laura Davis. I am the Associate Deputy 
Secretary of the Department of the Interior. I appreciate the 
opportunity to appear before you today to discuss the President's 
Interagency Ocean Policy Task Force and the Department of the 
Interior's role in the process and its oceans and coastal 
responsibilities.
    In establishing the Interagency Ocean Policy Task Force, the 
President said, ``We have a stewardship responsibility to maintain 
healthy, resilient, and sustainable ocean, coasts and Great Lakes 
resources for the benefit of this and future generations.'' We at the 
Department of the Interior are proud to be part of the Task Force and 
pledge to do our part to fulfill the President's vision for a 
coordinated, comprehensive national policy for our ocean, our coasts 
and the Great Lakes.
    As the Nation's principal conservation agency, the Department of 
the Interior is responsible for conserving and providing access to many 
of our significant coastal and ocean resources.
    The Department manages and conserves ocean and coastal lands and 
waters to protect native species and their habitats, provide 
recreational opportunities for the public, and ensure safe and 
responsible natural resource energy development. Department scientists 
conduct extensive ocean, coastal, and Great Lakes research and mapping 
to predict, assess, and manage impacts on coastal and marine 
environments. In collaboration with our partners, the Department 
integrates effective multiple-use management from upland ecosystems to 
deep oceanic waters.
    Our oceans, coasts and uplands are interconnected and 
interdependent both ecologically and economically. As a steward of our 
ocean and coastal resources, we see first hand, the affects of climate 
change and other threats and the imperative to increase the resiliency 
and adaptability of these ecosystems in the face of these challenges.
    The 1.7 billion acres of the Outer Continental Shelf that we manage 
are crucial to securing our energy independence through conventional 
and renewable energy development. The 35,000 miles of coastal lands and 
waters of the ocean and Great Lakes we manage stretch across 35 states 
and territories and are of enormous recreational, biological, and 
cultural value to the Nation. Over 254 National Park Units and National 
Wildlife Refuge Units spanning 34 million acres of ocean and coast 
conserve and protect places where people connect with the ocean. These 
areas provide communities the ability to preserve their cultural 
heritage and economic livelihood. We also work with our insular areas 
to assist them in ensuring that the coral reefs on which their island 
communities depend will be there for future generations.
    I want to convey to you, Madam Chairwoman, and to the members of 
the Subcommittee, that the Secretary shares the President's commitment 
to making our ocean, coasts and the Great Lakes healthy, resilient, and 
sustainable--environmentally and economically--through improved 
coordination among Federal agencies and partnership with States, 
territories, Tribes, and regional and local authorities. And I want to 
thank the fellow members of the Task Force, those here today and not 
here today, for their participation in this important effort. Chair 
Sutley is a great leader and each of the members of the Task Force is 
committed to the President's vision.
National Ocean Policy Task Force
    Recognizing that the time has come for a clear and comprehensive 
national ocean policy to uphold our stewardship responsibilities, and 
serve as a model of coordinated, consistent, efficient and informed 
ocean and coastal decision-making, on June 12, 2009, President Obama 
issued a memorandum to the heads of executive departments and Federal 
agencies establishing an Interagency Ocean Policy Task Force. The Task 
force is led by the White House Council on Environmental Quality and 
charged with developing a recommendation for a national policy that 
ensures protection, maintenance, and restoration of the ocean, our 
coasts and the Great Lakes. It will also recommend a framework for 
improved stewardship, and effective coastal and marine spatial planning 
designed to guide us well into the future.
    The Department of the Interior has been proudly and actively 
engaged in the Task Force from the outset. We appreciate that the Task 
Force collaborations have already strengthened DOI coordination and 
planning. Interior has also participated in and supported each of the 
expert roundtables and the series of six public regional meetings with 
interested stakeholders. Close partnering and extensive public 
engagement has resulted in greater understanding of the common 
challenges and opportunities our diverse ocean and coastal 
responsibilities present and the need for innovative, science-based and 
ecosystem-based strategies to guide our decisionmaking now and for the 
long-term.
    I am honored to be the Department of the Interior representative on 
the Task Force. The Department has very actively participated in 
contributing to the Interim Task Force report that was presented to the 
President and released to the public in September and we continue to 
participate in the development of the proposed Coastal and Marine 
Spatial Planning Framework that will be delivered in December. Senior 
Departmental and bureau representatives are fully engaged in the 
numerous subgroup, working group and Task Force meetings that have 
supported the development of the interim report and the proposed 
Coastal and Marine Spatial Planning framework. Along with sister 
agencies, The Department has contributed extensive staff resources to 
support CEQ in writing these documents. David Hayes, our Deputy 
Secretary and I have attended the public hearings associated with the 
Task Force, and the Department hosted the virtual Pacific Islands 
meeting ensuring Washington connectivity to several Hawaiian Islands 
and to Guam, American Samoa and to the Commonwealth of Northern Mariana 
Islands. Departmental representatives have attended roundtable 
discussions that CEQ staff hosted and have supported all six of the 
public hearings.
Activities of Interior Agencies
    As noted above, the Department of the Interior conserves, protects, 
and manages more than 35,000 miles of coastline, and 254 ocean and 
coastal parks and refuges, as well as over 1.7 billion underwater acres 
of the Outer Continental Shelf (OCS). Our scientists conduct extensive 
ocean, coastal, and Great Lakes research and mapping to predict, 
assess, and manage impacts on coastal and marine environments.
    Through these efforts, Interior has improved its role and 
effectiveness within the ocean and coastal community at the State, 
regional, and national levels.
    The Department of the Interior is helping lead the development of 
large-scale ocean and coastal ecosystem-based policies, allowing us to 
cross jurisdictional lines and tackle key problems with partners to 
carry out on-the-ground projects, and catalyze collective agency and 
public involvement to find solutions. I would like to highlight for the 
Committee a few examples our recent success in coordinating on ocean 
and coastal issues.
    Pursuant to Congressional direction, the Minerals Management 
Service (MMS), working with NOAA and other Federal agencies, has 
developed the Multipurpose Marine Cadastre (MMC), which allows Federal 
managers and technical staff, as well coastal States; local, 
territorial, and tribal governments; private industry; and the academic 
community, to directly access information and resources necessary to 
promote and conduct good ocean governance.
    The MMC is an integrated submerged lands spatial information system 
consisting of legal (e.g., real property/cadastre), physical, 
biological, human resource, and cultural information in a common 
reference framework. It is an ambitious, multiyear endeavor that will 
help greatly inform any marine spatial planning approach.
    The MMS has leasing, permitting and oversight responsibility for 
oil and gas, renewable energy, and mineral activities within the OCS. 
MMS employs a robust environmental and collaborative process in 
reviewing these activities including memoranda of understanding with 
the Federal Energy Regulatory Commission (FERC), the U.S. Coast Guard, 
the U.S. Fish and Wildlife Service and the Department of Defense, among 
others.
    The U.S. Geological Survey (USGS), a world leader in natural 
science, is an unbiased, multi-disciplinary earth and biological 
science agency that works in full partnership with States and Federal 
agencies, to provide data and maps of the seabed and characterization 
of the aquatic habitat. From the upper watersheds to the abyssal deep 
of the ocean, USGS is engaged in monitoring water quality and assessing 
water availability; forecasting coastal change; building a better 
understanding of ocean-based hazards from landslides, submarine 
volcanic eruptions, earthquakes, tsunamis, and extreme storms.
    The U.S. Fish and Wildlife Service, the National Park Service, the 
Office of Insular Affairs and the Bureau of Land Management all have 
numerous successful programs underway that work with Federal, State, 
territory, tribal, international, and private partners to fulfill 
extensive coastal and marine-based natural resource conservation 
planning and coordinate statutory responsibilities. Notable activities 
involve science, mapping, and monitoring, as well as restoring and 
protecting barrier islands, coastal wetlands, watersheds, and ocean 
ecosystems.
The Coastal and Marine Spatial Planning Framework and Information 
        Infrastructure
    The Department of the Interior looks forward to ongoing cooperation 
and coordination with our partners and stakeholders to meet the 
President's call to develop a recommended framework for effective 
coastal and marine spatial planning (CMSP). We share and fully support 
the President's goal of working toward establishing a framework that is 
a comprehensive, integrated, ecosystem-based approach to address 
conservation, economic activity, user conflicts, and sustainable use of 
ocean, coastal, and Great Lakes resources consistent with international 
law.
    With management responsibility over 35,000 miles of shoreline, 
Interior very much recognizes the threats to the sustainability of our 
coastal communities, economy, and natural resources, posed by rising 
sea levels as today's coasts may be become part of tomorrow's oceans. 
Additionally, Interior supports securing clean, renewable energy 
security derived from the oceans as a national priority
Conclusion
    Interior has and will continue to take a leadership role in 
national, regional, and local efforts to build the long-term engagement 
with non-Federal partners to meet goals for coastal and ocean ecosystem 
and economic health. We stress the coordination of coastal and ocean 
activities across the bureaus that are responsive to regional 
priorities established by the states, and effectively meet departmental 
strategic goals. We work closely with the ocean and coastal community 
at the state, regional, and national levels. An Ocean and Coastal 
Activities Coordinator helps to facilitate this critical coordination.
    The President's Interagency Ocean Task Force provides an exciting 
and important opportunity for us all to work together to develop and 
implement a coordinated, comprehensive plan for our oceans, coasts and 
Great Lakes. We look forward to working with you as we go forward with 
this process and I thank you again for the opportunity to appear before 
you today.

    Senator Cantwell. Thank you very much.
    And again, thank you, to all the witnesses, for being here. 
And thank you for your testimony. I think you've outlined areas 
of responsibility that you each have in the various areas of 
ocean policy. But, I think as we move forward, the public wants 
to know, What is a national ocean policy and who's in charge? 
And if each of you could just answer for me whether you think 
your agency should be in charge of the policy.
    [Laughter.]
    Senator Cantwell. I'm very supportive of interagency 
cooperation. But, I think, having been a member of this 
committee for several years myself, and being through the last 
Oceans Commission recommendations, this--and the fact that we--
let's just say, the lack of an organic act and various attempts 
to put focus to this--I think now it's time to come clean and 
let's say who really should lead this effort. So, if each of 
you could give me some comments on that.
    And we'll start with CEQ.
    Ms. Sutley. Thank you, Madam Chair. And thank you, for the 
question.
    The report of the Task Force, and really the consensus 
recommendation of the Task Force, was that we needed to have 
high-level engagement, we needed to--through the National 
Oceans Council and that--the recommendation is to have that 
Council co-chaired by the Council on Environmental Quality and 
the Office of Science and Technology Policy, recognizing the 
important--the importance of stewardship and science in 
carrying out this national ocean policy. The National Ocean 
Council would comprise high-level representatives from the 
agencies here and others, recognizing the important work that 
they do, the important scientific and regulatory work at NOAA, 
the important activities at--that the Coast Guard carries out, 
and the responsibilities of the Department of Interior, as well 
as others who have important responsibilities over our coasts--
oceans, coasts, and marine resources. So, the--that 
recommendation, I think, builds on the recommendations of 
earlier commissions, including the Joint Oceans Commission and 
the U.S. Commission and the Pew Commission, that there needed 
to be some high-level oversight and coordination, and that 
really--I think the recommendation of the National Ocean 
Council is built around that.
    Senator Cantwell. Dr. Lubchenco, what is the policy, and 
who's in charge?
    Dr. Lubchenco. Thank you, Chairwoman.
    It's pretty clear to me that, for a national ocean policy 
to be fully successful, it needs to have strong guidance about 
what the goals are, it needs to have strong leadership as well 
as good collaboration and cooperation. And so, in my view, the 
keys to success are leadership that facilitates the 
coordination and collaboration. Also, accountability for 
implementation of the policy, and visibility and access at 
senior White House level as well as throughout the Federal 
family.
    I don't believe that any single agency can fully execute 
all of the qualities that I just articulated as being required. 
I do believe that NOAA has the scientific expertise and the 
ocean and coastal management experience to be an important 
leader in this effort, the implementation of the policy, and in 
providing the scientific expertise that is required to make it 
fully successful.
    Senator Cantwell. Is that an endorsement of Chair Sutley's 
recommendation, or an alternative?
    Dr. Lubchenco. I've articulated what I think are the 
elements to success. I--and those include having strong 
leadership that is able to convene all of the relevant 
agencies. I'm telling you that I think we have a key role to 
play in this.
    Senator Cantwell. Thank you. Thank you.
    Admiral Allen? I know I'm asking a dicey question here, 
but, at the same time, this is what we've got to get down to. 
People in my State--and we're going to hear from some of them, 
and, I'm sure, from my colleagues; they're going to want to 
know who's in charge of this policy.
    Admiral Allen. Yes, ma'am. And thank you for the question.
    Throughout our deliberations on the task force, I have been 
in very, very strong agreement with Administrator Lubchenco's 
position on this. And we both feel that spec'ing out the 
functions that are required to be successful are what's really 
important here. And she talked about accountability, access, 
and ability to actually achieve and effect across the 
interagency, and I think that is very, very important, moving 
forward.
    The Coast Guard is always going to be a supporting player, 
not a lead, on this. But we are looking for the ability to go 
to a single point in government to merge the policy issues and, 
frankly, ultimately make very, very difficult resource 
decisions on how we're going to proceed with implementation.
    So, I support Director Lubchenco.
    Senator Cantwell. Deputy Secretary Davis, how about the 
Interior Department? Do you want to step up to the oceans?
    Ms. Davis. Well, thank you, for the question. And I think 
we do have significant responsibility and authorities in the 
ocean.
    I will say that--I mean, you've obviously put your finger 
on that there are a lot of different agencies with a lot of 
different interests in ocean and ocean policy. We do believe, 
at Interior, that the approach outlined in the Interim Task 
Force report, which is--brings the requisite senior-level 
attention to this issue set, will be able to provide the 
direction and the accountability that Dr. Lubchenco talks 
about. Because, I think--we believe it is very difficult to 
assign one agency with this responsibility alone.
    Senator Cantwell. Thank you.
    Senator Snowe, do you have questions?
    Senator Snowe. Yes, I do.
    Senator Cantwell. And we're going to do a 5-minute round, 
so----
    Senator Snowe. Thank you.
    To get back to the question that the Chair posed, noticing 
the composition of this council, it would include the 
Administrator of EPA and the Administrator of NASA. Both 
agencies, of course, have independence from the overarching 
departmental authority; they have budget independence. Now, we 
know that NOAA doesn't. And that has been the case since the 
Administration of President Nixon. So, that goes a ways back. 
And I'm just wondering if that would not be a preferable 
approach: to establish NOAA in law. I mean, to pass legislation 
that gives you statutory authority that first, I think, would 
solidify NOAA's position as the leader on oceans issues. I mean 
it defies reason, as to why NOAA would not be part of this 
council. I understand the Secretary of Commerce is part of it. 
But, that still doesn't get to the direct issue, in terms of 
who is the preeminent leader, when it comes to ocean policy, 
within the agencies.
    So, would that help, Dr. Lubchenco? Should we take that 
step to codify your agency into statute? Is it long past due? 
Because, I see the lack of authorization as an impediment, 
frankly.
    And, second, given the fact that NASA and EPA are both 
included in this council, it doesn't stand to reason that your 
agency is not. Now, I'm just trying to understand, what was the 
rationale involved? First of all, Chair Sutley, why that didn't 
happen? And, secondly, Dr. Lubchenco, can you comment on 
whether or not we should move forward with providing you 
statutory authority?
    Chair Sutley?
    Ms. Sutley. Thank you, Senator Snowe, for the question.
    I think the recommendation was to try to give the highest-
level attention to the very important issues surrounding the 
National Ocean Policy, and the work of the proposed National 
Ocean Council was that it--the representation on the Council be 
at the secretarial level--or, the Cabinet Secretary level. We 
certainly expect that NOAA will continue to play a very strong 
role on--not only on the task force but on any subsequent 
structure that we adopt, including the National Ocean Council. 
Their scientific expertise, resource management expertise and 
authorities are incredibly important to the success of any 
national ocean policy, and Dr. Lubchenco, who's been very 
active in the task forces, has joined me at all the public 
hearings that we have. So, we expect NOAA to be a very 
important and key part of this process.
    Senator Snowe. Well, I just would say that I understand the 
issues of secretarial representation, but that's not true of 
the entire Council that's being proposed. And I just believe 
that providing NOAA with the leadership position that it 
deserves at this point in time, to be the conduit for ocean 
policy. So, I just am sort of mystified as to why NOAA would 
have been exempted, because there are other agencies that are 
in here, that are not at this secretarial level, that are 
included in this council.
    Dr. Lubchenco?
    Dr. Lubchenco. Senator, the composition of the National 
Ocean policy--I'm sorry--the composition of the National Ocean 
Council included principals and deputies that were explicitly 
identified. And the representative from the Department of--and 
therefore, Commerce is represented by the Secretary on the 
Council. Because NOAA is within the Department of Commerce, and 
because it's the principals and deputies, I think that's the 
way that sorted out.
    I do believe that it would be very beneficial to NOAA to 
have an organic act. I don't believe it's my responsibility to 
say whether it should be an independent agency or remain within 
the Department of Commerce. That's beyond my pay grade.
    Senator Snowe. Right. But you see specific benefits 
deriving from codifying your agency into law----
    Dr. Lubchenco. I do believe----
    Senator Snowe.--giving formal leadership role----
    Dr. Lubchenco.--it would be very useful for us to have an 
organic act.
    Senator Snowe.--however we do it. Right.
    Well, I just see that it made much more sense to include 
NOAA in the Council, to be the conduit to the Task Force, given 
the fact that you are the lead agency when it comes to ocean 
policy. So, I appreciate that. I know it's a difficult position 
for you to respond to. But, it is certainly something that I 
think, Chair Cantwell, we ought to address here within the 
Committee.
    Thank you.
    Senator Cantwell. Thank you very much.
    Senator Begich.
    Senator Begich. I--thank you, Madam Chair--and I hate to 
continue on this line, but I'm just trying to understand it a 
little bit better. And I'll just give you an example. When I 
was mayor, and we had a situation with crime in our community, 
I co-chaired, with our U.S. Attorney, and had multiple folks--
because, at the end of the day, in our situation, we pulled the 
trigger on the amount of money and resources. And so, I'm 
looking at who's co-chairing. And what I've learned, in my very 
short time here, if you don't have the right people at the top, 
the resources don't get allocated, which is a big question I 
have on this. It's great policy, but I read very little about 
how we're going to allocate money, other than--I see some 
comments, Dr. Lubchenco, that I'm going to ask you about. So, 
be prepared for that.
    Why would you not just have the co-chairs--and this--maybe 
I'm just too new to this--is the Secretary of Interior, 
Secretary of Commerce, and their designees--and then have 
agencies, like yourself and the list that you had, Ms. Sutley, 
in regards to who would be the contributing partners? I think 
Admiral Allen laid it out how he plays a role, here. He's not 
the lead role, but he plays a contributing role. Why not do 
that? Because, at the end of the day, the Secretary of Commerce 
and Secretary of Interior will have to allocate resources, if 
we believe the oceans are a significant piece of the equation 
of our country and what we need to do. From Alaska's 
perspective, it is very significant. It's economic development. 
It's environmental issues. It's huge. Why would you not do 
that?
    Who wants--because, at the end of the day, you've got to 
pull the trigger on who's going to foot the bill and take care 
of all these recommendations. Otherwise, there'll be another 
report that these folks have seen for multiple years.
    Ms. Sutley. Thank you, Senator.
    I--I'll say, we didn't--if--CEQ didn't ask for this 
recommendation, but I think the--it was the consensus of the 
Task Force that the Council itself needed to be chaired by 
White House entities because the responsibilities over the 
oceans, coasts, and marine resources, and the Great Lakes 
really cover so many parts of the Federal Government. And the 
concern that all of the pieces of a national ocean policy would 
need to be considered and--to ensure that--as well as that we 
are--as we carry out these stewardship responsibilities, we're 
also coordinating and linking into important commercial 
shipping, security interests that lie outside of, I think, the 
direct domain of what we propose with respect to the National 
Ocean Council.
    So, there were many suggestions made to us. And, as I said, 
the recommendations of the previous outside commissions was 
that there be high-level engagement from the White House, as 
well as the agencies involved. So, that was the basis of the 
task-force discussions and the basis of that recommendation.
    Senator Begich. Fair statement. I don't agree with it, but 
thank you for that. I just think that, you know, in all my 
experience, it--you know, at the end of the day, it's going 
to--where are the resources going to go to allocate for these 
purposes? And someone has to pull that trigger on the highest 
level possible in the Department; it seems to me, the Secretary 
level.
    Let me, if I can real quick, Dr. Lubchenco, on a--kind of 
moving somewhat away--but, in your prepared remarks, you 
mentioned that NOAA may have to modify or reprioritize some of 
its missions and data-gathering responsibilities. Can you--are 
you prepared to elaborate a little bit more what you mean by 
that so I understand that and understand what the impacts might 
mean in--what resources you may adjust or where the focus might 
be from your department?
    Dr. Lubchenco. Senator, it's clear that to fully implement 
the types of areas identified in the interim report will 
require significantly more information and the acquisition of 
that information, for example, to better integrate, across the 
Federal family, many of the activities that affect oceans and 
that benefit from oceans. Doing that will require some 
additional effort. And although the Interim Report has not, 
obviously, been finalized and we are still working on the 
marine spatial planning portion of the report, what it--what 
will be laid out in the end are--is mostly policy and framework 
that will then need to be made much more specific, partly 
across the Federal family, partly with respect to interactions 
between States and tribes. And as we get into the 
identification of those specifics, it will be easier to map 
that onto what current--the extent to which our current 
capacities can meet those, as opposed to additional areas where 
we need--may need to redirect resources or have additional 
resources. So, these are starting discussions, framing 
policies, and their implementation remains to be identified.
    Senator Begich. Thank you very much.
    My time has expired. Thank you, Madam Chair.
    Senator Cantwell. Thank you.
    Senator LeMieux, welcome to this subcommittee. Glad to have 
your participation.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Madam Chair.
    Thank you very much for your testimony this morning.
    And thank you, for holding this committee meeting. It's 
very important to Florida. I can't think of a state that's more 
impacted by the work that you're going to do than Florida. We, 
with the exception of Alaska, have the longest coastline in the 
United States, as the Admiral knows, 14 ports with lots of 
traffic in and out. We're one of the largest exporters, as a 
State, in the world. And a huge, important part of our 
lifestyle, as well as our tourism that comes to our State, 
involves recreational fishing. We have more recreational 
fishermen, a million or so in Florida, than some 20 states 
combined. And I'm getting lots of letters from constituents who 
feel that this process is excluding them and that they are not 
being listened to. And it's very much heightened with these new 
restrictions that are being placed on fishing; on grouper, on 
snapper, and now on amberjack. I hope, once we figure out who's 
going to be in charge of this and who's going to spend the 
money, that you all will listen to recreational fishermen, 
especially from my State of Florida, and the impact of what you 
do. These exclusion zones that are discussed, for where fishing 
can be and can't be, have a huge and dramatic impact on our 
State. And it's my concern that we are lumping together 
commercial fishing and recreational fishing. For many years, 
our recreational fishermen have lived under standards for 
limits of how many fish they can take. And those standards have 
worked.
    And, specifically, Doctor, in terms of the National Marine 
Fisheries Services, and the work that they're doing and these 
different rules that are being placed about fishing for 
different fish, I have a great concern that the information 
that you all are using to make these decisions is not accurate. 
Now, we are hearing, from our fishermen, information that's 
opposite to these scarcity reports about these different fish.
    I have more of a statement to make than a question. But, my 
question and hope from you is that you will take into account 
recreational fishing. It's a huge part of Florida's commerce 
and lifestyle, and certainly a big part of the ocean, in terms 
of how we view it. And I wonder, if you want to start, Dr. 
Lubchenco, and talk to the point of recreational fishing and 
how it will fit into this strategy.
    Dr. Lubchenco. Senator, thanks very much, for that 
question. And thank you for the opportunity for me to clarify 
that recreational fishermen are very important to NOAA. I have 
had extensive conversations with leaders within the 
recreational fishing community, especially over the last couple 
of months, and have heard many of the same things that you have 
heard. They feel that they have not been paid attention to by 
NOAA. I've made it clear that we intend to change that. We--
NOAA and the recreational fishing community should be natural 
allies. And we haven't had the kind of productive working 
relationship that I believe we should and can and will have.
    And within NOAA, I'm making some internal changes. I have 
announced the intent to create a new position, a senior policy 
advisor for recreational fishing, to make sure that we have 
clear channels of communication, clear responsibility within 
NOAA. I met last week with the American Sports Fishing 
Association's Sports Fishing Summit, in San Diego, to 
communicate that message and to find ways that we can work 
collaboratively together in a very productive fashion.
    We share an interest in having healthy oceans. More fish 
mean more responsibilities for fishermen. And many of our 
policies are designed to achieve those goals.
    I believe that there was not any explicit desire on the 
part of the Interagency Ocean Policy Task Force to exclude 
mention of recreational fishing. And we have heard, in our 
public hearings, that this was an omission. One of the benefits 
of having an interim report with lots of opportunities for the 
public to comment--one of the benefits of having the public 
hearings has been, we've been able to get that feedback. And we 
have heard it.
    Senator LeMieux. Well, thank you very much for that.
    Chair Sutley, could you comment on recreational fishing, as 
well?
    Ms. Sutley. Yes. Thank you, Senator.
    We--the task force, I think, recognizes the significant 
role of recreation, including fishing, beach access, nature-
watching, boating, and all of the activities. My parents live 
in Florida and spend every day at the beach. And so, we 
recognize that recreation is a very important part of how we, 
as Americans, value our coasts and our marine resources. And we 
didn't mention sectors specifically in the report, but, as Dr. 
Lubchenco said, we have heard a great deal from the 
recreational fishing community. We've had some stakeholder 
meetings with the recreational fishing community and are 
looking forward to continued opportunities to interact with 
them.
    Senator LeMieux. OK. Thank you very much, Madam Chair.
    Senator Cantwell. Thank you very much.
    I think we're hearing, you know, from all Senators here, 
obviously, a strong concern that NOAA be part of any kind of 
national council, and obviously there--that there has to be 
strong leadership. So, I'm sure we'll have more opportunity to 
discuss that.
    I think what I'm going to do is allow for a second round, I 
think, if that's what members are interested in. And then we 
will get to our second panel and hear from them, as well. But, 
we don't get all of you here collectively in your 
representative perspectives, the hats you wear, so we're going 
to take advantage of that.
    One of the obvious debates that we're hearing a lot about 
is about climate change and what to do about climate change. 
And often I think the oceans are left out of that discussion, 
or at least not a centerpiece, and yet, for the various reasons 
we all just mentioned, it's where the most dramatic impacts are 
happening right now. And the proposed National Ocean Policy 
includes a resiliency and adaptation to climate change and 
ocean acidification. So, it does call out for some special 
emphasis there. How do we--how would we go about implementing 
that? How would we go about meeting those objectives?
    And so, what I want to do is hear from each of you about 
how would the White House, how would NOAA, Department of the 
Interior--how would we meet those objectives, and who do you 
think would be in charge of that?
    Ms. Sutley. Well, thank you, Senator. The issue of climate 
change, I think, was really one of the motivations for wanting 
to take on this challenge of developing a national ocean 
policy, recognizing the stresses on the ocean and our marine 
resources and our Great Lakes, that the--that climate change is 
putting on them. So, it's a very important component of the 
report. It's an important component of how we intend to go 
forward. The issues about adaptation and science are very 
important, and I think that having the engagement from the 
science agencies, from NOAA and the Department of Interior, and 
NASA and the other science agencies, to understand the science, 
understand the impact of climate change on the oceans, and 
going forward on this--in this task force and other efforts 
within the Federal Government, on adaption and resiliency, I 
think we have a lot to--both to learn and to put together some 
implementation plans. But, the report does highlight how 
important--and that this is one of the strategic objectives 
that we need to turn our attention to first.
    Senator Cantwell. Dr. Lubchenco?
    And, if I could add, just to something to that, just as an 
example, you know, how, under this National Ocean Council, 
would somebody deal with what we've just seen in Washington--
the State of Washington, with this toxic algae bloom? Who--
other than just studying the problem, who would be in charge of 
doing something about the underlying causes?
    Dr. Lubchenco. Madam Chair, I greatly appreciate your 
drawing attention to the importance of oceans in the climate--
in our discussions about climate. It's clear that oceans have a 
key role in the climate system, that they are being impacted by 
climate change, and that many of the ways that we are dealing 
with specific events or new policies must be taking climate 
change into account.
    One of the important roles that NOAA plays in this is to 
provide much of the observing information, both in situ, as 
well as from satellites, to provide much of the modeling 
information and the scientific basis for us to understand 
what's happening and be able to make forecasts about what's 
likely, down the road, with the idea of using that information 
directly in making better policy and management decisions in 
light of climate change and ocean acidification.
    The importance of those issues to the business of the Ocean 
Policy Task Force is partly recognizing the important cross-
cutting assets and cross-cutting responsibilities across the 
Federal family for addressing climate change and ocean 
acidification. So, I believe that we can make better progress 
in adapting to climate change by working--by having the Federal 
family work more closely together, not just across the Federal 
agencies, but also in partnership with States and with tribes.
    Relative to the specific very unfortunate occurrence of the 
harmful algal bloom causing the mortality of all the birds in 
Washington, I think one of the things we're going to see more 
and more often are surprises with respect to things like that 
happening. I do not know if we can attribute that event to 
climate change specifically. But, it is clear that we are 
seeing increasing surprises, and part of our management should 
be done with the expectation that we are going to be seeing 
surprises, that there is uncertainty in this future world that 
is being so affected by greenhouse gas emissions.
    Senator Cantwell. That was exactly my point. I don't--it's 
not so much that I think that's attributable, because it's 
probably attributable to runoff and a whole bunch of different 
things, but, when we find a cause, I'm interested in what we're 
going to do to act. And again, a council versus, you know, 
direct authority, is what we're trying to understand here. We 
understand the dramatic impacts. Not everybody in America 
understands the dramatic impacts that are happening to our 
oceans, because they look out and they see the water and they 
think everything's OK. But, when you see an instance like this, 
8,000 birds dead on the coast of Washington, you understand 
that something is not right. But, then the question is, Who's 
going to do something, on the preventative side? What agency 
here, what action is actually going to come up with a result 
where somebody is going to take action and authority?
    We all hear what EPA is saying about the atmosphere in 
general, and what they're going to do. But, we're interested in 
what specifically is in the actions they're going to be taking 
on ocean policy.
    So, I don't know if either of the other two witnesses want 
to respond to that. I know it's probably a little more germane 
to Dr. Lubchenco and Chair Sutley, but if you have a comment, 
we'd love to hear it.
    Admiral Allen. Just a brief comment, ma'am.
    We recently concluded an agreement between the United 
States and Canada, working in the United States with the United 
States Coast Guard, NOAA, and EPA, to establish 200-mile zones 
off the coast where we would limit the types of fuel that ships 
could use as they contribute to the emission of greenhouse 
gases, and therefore, the ultimately link to acidification. A 
small piece, but instructive, in that that's what's going to 
happen, as Dr. Lubchenco mentioned, to integrate across the 
Federal whole-of-government approach, how to act when you have 
a situation like that. And I think this small step toward the 
elimination of greenhouse gases and their contribution to ocean 
acidification is an example of the types of things we need to 
do and how we have the opportunity to, to use a military term, 
``tighten up the formation'' and focus our effort to pick those 
places where we can and have an effect.
    Senator Cantwell. Secretary Davis?
    Ms. Davis. Thank you, Chairwoman Cantwell, for the 
question.
    I think, first, I would say that the Department of the 
Interior is seeing climate impacts on lands that we administer 
throughout the United States, coastal and otherwise. So, this 
is incredibly important, that we address these issues in the 
evolving ocean policy that we're all working on.
    And Interior, of course, has science to bear and to bring 
to this effort. And I think that's one great benefit of the 
Ocean Council, as proposed, is that you do have senior-level 
attention directed from the White House and all of the senior 
management of the agencies involved and talking and 
cooperating. I don't think you can overstate the importance of 
that occurring. And this--I--it sort of leads to an answer to 
your question about the ``And then what?'' when you have a 
situation like you do off of your coast. And I think that, just 
practically speaking, the fact that under a National Ocean 
Council, with regular meetings and senior-level involvement and 
talking about issues like this as they come up, and what the 
science is telling us about what we're seeing out there, you 
have a lot better chance, with all of us in the room, of seeing 
an actual--a plan of action and a coordinated plan of action 
that benefits from the communication and collaboration that we 
think will come out of--come out at the back end.
    Senator Cantwell. Thank you very much. Yes, I think it 
really just points to the fact that, just because we can't see 
underneath the oceans, we haven't seen the neglect that has 
existed, and that neglect is really causing us serious problems 
today. So, thank you all for your answers to that.
    Senator Snowe?
    Senator Snowe. Thank you.
    I wanted to follow up on one of the issues that had been 
raised in one of the mandates that the task force was given 
with respect to ocean policy. One was to develop the National 
Ocean Policy. The second issue, of course, was marine spatial 
planning. And, Commandant Allen, I'd just like to discuss this 
with you, initially, because obviously there are multiple 
challenges in this concept which still appears to be nebulous. 
And even the public hearings elicited, I think, few details in 
what would constitute a public policy and how it would work 
with respect to marine spatial planning. And I know there have 
been concerns expressed by ocean stakeholders like the maritime 
industries, for example. Some of the states in New England have 
conducted a planning process within their own state waters. 
But, nevertheless, when you're talking about a broad-scale 
plan, as recommended in this effort, which is talking about 3.4 
million square miles within the Exclusive Economic Zone, it 
does raise tremendous concerns among commercial and 
recreational fisherman, for example.
    So, first of all, how would this process work, to begin 
with? I mean, how do we navigate this pathway to encompass this 
broadscale, as some have said, ``ocean zoning''?
    Because that just raises significant questions about how 
that process would evolve, first of all; and, second of all, 
who would be affected by it; and third, I want to talk to you 
about the emerging homeland security threat posed by small 
vessels, that we discussed last week, as we've seen, off 
Mumbai, India, off the coast of Somalia, even the USS Cole, 
back in 2000, in Yemen. And so, how would that be reconciled 
with marine spatial planning?
    Admiral Allen. Yes, ma'am, thank you very much for the 
question. And I thank you doubly for the question because we 
get involved in this every day in the United States Coast 
Guard. In addition to our enforcement and regulatory 
responsibilities, we are often a cooperating agency in 
licensing and permitting activities with the other agencies 
that are represented here at the table; most notably in doing 
waterway suitability assessments for things like deepwater 
ports for LNG offshore, renewable wind projects, and so forth. 
In the process of doing that, we tend to answer in a silo about 
what are the implications of that particular activity, in terms 
of safety and security on the waterway. A lot of times, the 
Coast Guard's determination on what happens is taken as a 
surrogate vote on how the waterway should be used. And that is 
not what we're trying to do. We're trying to just comment on 
that particular activity.
    At the heart, marine spatial planning looks at what we call 
ecosystem-based management. It's a more holistic approach to 
all the activities that take place out there, including the 
need to conserve, look at conflicts with uses, create greater 
transparency on the information that's used to support those 
decisions.
    And I'll give you a very good example. It was highlighted, 
earlier by, I believe, Dr. Lubchenco. We went to some very 
great lengths to reorient the vessel traffic separation schemes 
coming in to Boston, to make sure that we weren't in an area 
where right whales would gather in habitat they would operate 
in. In the process of doing that, we found out, shortly 
thereafter, that there was an application for an offshore LNG 
site right where we were moving the traffic lanes to. This is a 
classic case where you could deconflict these activities, and 
we see this as a cooperating agency, moving forward.
    And I think what we need to figure out is how to do this, 
because these activities occur. They're not stopping. They will 
continue, whether or not we have marine spatial planning or 
not. But, the opportunity afforded to do this in a coordinated 
manner, we see the value of that immensely every day, in the 
everyday work of the Coast Guard. And that includes--we talked 
about recreational boating, commercial fishermen, recreational 
fishermen, and the extraordinary amount of use by small-boat 
traffic out there. If you put a security zone around an LNG 
ship that's moving through Narragansett Bay, you have 
effectively excluded the use of that area for small boats. And 
that's the type of discussion we need to have, ma'am.
    Senator Snowe. And how--either you or Chair Sutley or Dr. 
Lubchenco and Deputy Secretary Davis, could you explain how we 
expect this process to work?
    Ms. Sutley. Well, really, at the end of the 180 days, where 
we'll have a draft report--a draft framework on coastal marine 
spatial planning, I expect that that--it will be just that, a 
framework, a discussion of what we believe marine spatial 
planning is, and some recommendations on how we might move 
forward. And, as the Commandant said, I think the concept is 
really to try to look across the activities and uses of the 
space in the ocean and try to understand how they all fit 
together.
    So, at this point in our discussions, we haven't, sort of, 
settled on any particular definition or way of moving forward, 
but that we would have a recommendation. It will be, really, a 
fairly high-level recommendation, and we'll seek additional 
input and comment on that before we move forward. And I think 
we recognize that, in many of the activities that the agencies 
who are part of this discussion participate in, they already 
think about how there are uses of the ocean resources, and we 
want to make sure that we're using the information we have and 
the science we develop to understand how those uses fit 
together.
    Senator Snowe. But, a process hasn't been established----
    Ms. Sutley. No, it has not.
    Senator Snowe.--at this point.
    Ms. Sutley. That's right.
    Senator Snowe. I would think that that would be a very 
complicating approach, frankly, in terms of designing a 
process, let alone the whole map. So, do you think that that's 
really conceivable?
    Ms. Sutley. Well, I think----
    Senator Snowe. I'm just not so sure how it will work.
    Ms. Sutley. Well, as we're in the middle of the process of 
trying to even describe the framework, I expect that it will be 
a long-term process and, you know, require a lot of thinking 
and discussion and public participation to come up with 
something that works.
    Senator Snowe. OK. Thank you.
    Senator Cantwell. Senator Begich, you have a second round 
of questions?
    Senator Begich. I do, just a few.
    And, Ms. Sutley, I was listening carefully; and, you know, 
my background as a Mayor, I was just visualizing the 
comprehensive plan we have just done for Anchorage--took 10 
years, three mayors. I can't even imagine how many public 
hearings we had, community meetings. And I look at marine 
spatial planning as--it's zoning for the waters. I mean, that's 
basically what it is. And I want to also echo some concerns of 
how that--I'd be very curious how that process works, because, 
as someone who's struggled with doing this simple, I thought, 
comprehensive plan for a community that wasn't that large, in 
the sense of groundmass, it turned into a long, drawn-out 
process, and very expensive process, to add to that. So, I 
just--I'm--you know, I'd be very curious about that.
    And also, just a statement generally is, in that 
experience, which is small in comparison to, obviously, the 
marine spatial planning is, one size cannot fit all. Every 
region is different. Florida is different than Alaska. The East 
Coast is different that the western States. So, as you think 
about that.
    I made a statement in my opening comments regarding the--I 
felt, as well as the State of Alaska's State government feels, 
that there was a lack of economic understanding of the 
fisheries, energy, commerce, that occurs within our oceans, in 
the interim policy. One, Ms. Sutley, do you agree with that? 
And, if so, in the next period of time, how will you address 
what we think is a void in this plan?
    Ms. Sutley. On your first point, on marine spatial 
planning, I think we recognize it's going to be a challenging 
exercise, and I think the analogy is to the kind of 
comprehensive planning we do on land. But, I think, again, just 
trying to break through some of the stovepipes and look in a 
more integrative way at how all of us relate to the use of 
ocean resources And, I think, very important and--to that is 
going to be, How do we interact and make sure that we're really 
taking a bottom-up approach, that this does reflect the 
differences among regions--certainly the Arctic and Alaska as 
its own region----
    Senator Begich. Right.
    Ms. Sutley.--but that that has--for this to be successful, 
we have to have something that does recognize and does come 
from the regions themselves----
    Senator Begich. Thank you, for that.
    Ms. Sutley.--coming up. With respect to the economic 
interests, I think the President asked us, really, at this 
point, to focus on some of the stewardship issues. But, we 
recognize, in the report and in our discussions, how important 
it is to link the work that the task force is doing to 
important economic considerations, including recreational, 
commercial fishing, shipping, and energy development; and I 
think, again, reflected by the task-force members who are here, 
that those interests are very important, shipping and security 
interests; that the Department of Homeland Security and the 
Coast Guard, the Department of Defense has been very engaged in 
this process. The energy development oversight responsibilities 
that the Department of Interior has, and the fisheries 
responsibilities that NOAA has are all very important. As we go 
forward and as we consider how we finalize the report, I think 
we'll ensure that we're clear on the link between the----
    Senator Begich. That's great.
    Ms. Sutley.--the health of the oceans, and our healthy 
economy, and these important economic uses of the ocean.
    Senator Begich. Great, thank you very much. And then, in 
your--when you do your final report--this is going to be a--
kind of a consistent comment I'll have, not only in this 
committee and other committees that I serve on, and other 
aspects--is, Will you discuss the budgetary requirements--where 
and how that will occur? You know, we do a lot of bills around 
here, but we always forget one little component of it, and that 
is how we're going to pay for it. And what happens is, the 
Departments then get subjected to additional workload and say, 
``Well, now shift everything around and make it all work, and 
oh, by the way, don't diminish what you're doing,'' which is 
totally impossible. So, are you going to address the financial 
requirements, short-term as well a long-term, at all in the 
report?
    Ms. Sutley. Well, the report has----
    Senator Begich. And if not, could you? Let me--I'm going to 
jump to the potential answer, so----
    Ms. Sutley. Yes. Well, the report outlines that we--you 
know, we understand that agencies will have to commit resources 
and assets, and many of them do, certainly, now commit 
significant resources to their responsibilities on the oceans. 
And the interim report outlines the development of strategic 
plans on the priority areas, including the Arctic. And in that 
process, I think where--that's where we would expect the 
budgetary and resource needs to be identified for these areas, 
for the agencies who are involved in this effort.
    Senator Begich. Thank you very----
    My time is up. And, Madam Chair, I'll have some other 
questions I'll submit for the record and just go from there.
    But, again, thank all of you. And thanks for all your work 
on the effort in the task force, and I'm looking forward to 
continue to work with all of you.
    Thank you very much.
    Senator Cantwell. Thank you.
    Senator LeMieux, do you have a second round of questions?
    Senator LeMieux. Just one topic, Madam Chair.
    I wanted to speak to Deputy Secretary Davis about how 
you're going to integrate the potential energy opportunities 
there are in the ocean. We're doing some really unique 
research, I think, at the Florida Atlantic University, in Palm 
Beach County, on tidal energy capabilities. With the Gulf 
Stream right off the eastern shore of Florida, there are some 
really unique opportunities, going forward, with generating 
energy from the sea.
    How will that work in this process? As I understand it, the 
Department of Interior, operates under a 5-year plan. There's 
been some concern that this is a difficult framework for these 
technologies that are advancing so quickly. So, if you could 
speak to what the Department is looking at and doing, in terms 
of these potential capabilities in the ocean for energy, not 
just the traditional ones of exploration for oil, but these new 
renewable types, as well as how this will fit into the ocean 
task force.
    Ms. Davis. Thank you for that question, Senator. I 
appreciate it, and you are right that the oil and gas activity 
that we conduct, that is under the Outer Continental Shelf 
Lands Act, isn't a good fit at all for the potential renewable 
opportunities off of our coasts. And we were given the 
authority, under the Energy Policy Act, to conduct renewable 
activities. FERC will be primarily doing wave management. And 
we are stepping out very aggressively on wind offshore on the 
Outer Continental Shelf. And Secretary Salazar and the 
Administration certainly realize the great potential for 
developing this clean energy source. Earlier this year, the 
Secretary announced the first-ever framework for the 
development of offshore wind energy that's being implemented 
now. And thanks to that framework, we now have an orderly 
process and an open and a transparent process through which 
wind projects are being evaluated and permitted. There's a 
whole lot of interest on the East Coast and some growing 
interest in other places, as well.
    With regard to how this all fits into Ocean Policy Task 
Force, I think we feel very strongly that the collaborative and 
communication aspects of the policy and the marine spatial 
planning approach, which we're working hard to figure out what 
that framework is--our view is that the information that's 
developed there and communicated probably better and more 
accurately among us as we go forward, it's going to enhance our 
ability to make choices--you know, good, scientifically and 
ecosystem-based choices about where it's appropriate to site 
and permit these resources, and other places where it may not 
be as advisable.
    Senator LeMieux. Do you think that you'll set up a similar 
framework for the tidal energy harvesting? Not just the wind, 
but also, these--you're familiar, I'm sure, with these buoys 
that float in the water, and the other things that are being 
looked at, that can then generate energy; will there be a 
similar permitting process, as there is for the wind?
    Ms. Davis. Well, that's going to be largely handled through 
FERC and its permitting processes, so I really can't speak to, 
sort of, what they're thinking.
    Senator LeMieux. Why does one go to one agency, and one go 
to the other?
    Ms. Davis. We executed a Memorandum of Understanding 
between the agencies. There were some lingering questions about 
who would handle what, in terms of offshore permitting for 
renewable energy activities. And that's how that happened.
    Senator LeMieux. I think, Madam Chair, that kind of goes 
back to your question about who's in charge. If we've got two 
similar-type activities being potentially regulated by two 
different agencies with two different regulatory schemes, how 
is that going to interplay into coastal traffic, recreational 
fishing, commercial fishing. So, I think your point is well 
taken.
    I thank you, for your answer.
    Senator Cantwell. Thank you, Senator LeMieux.
    And again, thanks to the panelists. I think you can see, 
from the members who attended, we care very much about this 
policy. I think we're all for more focus on the oceans, but we 
want that to be a clear and transparent process. And given 
what's transpiring, we certainly don't want to just have oceans 
by committee; we want to have oceans leadership. And so, we 
applaud all of you for participating in that effort. So, thank 
you very much for being here today.
    And obviously, if members have follow up questions, they'll 
submit those to you. And if you could get back with responses, 
we'd appreciate it very much. But, again, thank you for 
attending.
    We're going to turn next to the second panel to hear from 
them about the formation of oceans policy and governance and 
what types of activity of governance we should see.
    I want to call up to the witness table, if we could do that 
quickly--if people could move out quickly, I would appreciate 
it--we'd like to call to the witness table Mr. Billy Frank, 
Chairman of the Northwest Indian Fisheries Commission; Dr. 
Dennis Takahashi-Kelso, Executive Vice President of the Ocean 
Conservancy; Mr. Matthew Paxton, from the Coastal Conservation 
Association; and Ms. Carolyn Elefant, from the Ocean Renewable 
Energy Coalition.
    We thank all of you for being here today to participate as 
witnesses in this hearing on oceans policy. We look forward to 
hearing your comments and, specifically, how you think the new 
oceans policy and governance would work, particularly from the 
local perspective.
    So, Mr. Frank, it's a pleasure to have you here before the 
Committee. We appreciate your leadership in the Northwest, and 
the Northwest Indian Fisheries Council. And we look forward to 
your testimony. But, thank you for traveling to this 
Washington.
    Senator Cantwell. You might have to push on the microphone 
button, there, so that----
    Mr. Frank. Is that it?
    Senator Cantwell. Yes.
    Mr. Frank. Oh.

             STATEMENT OF BILLY FRANK, JR., CHAIR, 
             NORTHWEST INDIAN FISHERIES COMMISSION

    Mr. Frank. Thank you, Madam Chairman. And thanks for the 
invite from the Committee, and thank the Committee. I hear a 
lot of questions and a lot of answers, I hope. And, you know, 
the ocean needs us all, especially right now, as I heard.
    You know, our tribes are from the great State of Washington 
and along the Pacific Coast. We manage 200 miles out in the 
ocean. We sit on the Pacific Fishery Management Council. We sit 
on the U.S./Canada Pacific Salmon Commission for the 
international treaty for salmon. We manage from Alaska to 
Mexico. And we stand ready to, hopefully, be part of the policy 
over the ocean.
    The ocean certainly needs all of us right now. We're 
extremely concerned about acidification and certainly, the 
warming of our ocean, our climate, the changes that we see 
that's going along. We manage from the snowcaps to the 
whitecaps. And we live along the watersheds, we live along the 
ocean. If you want success, include the tribes, include our 
natives from Alaska, include our Hawaiians that live along the 
ocean. You know we're connected--our infrastructure is 
together. You know, I consider our infrastructure as the center 
of excellence. As the U.S. Senate knows, and U.S. Congress and 
the President of United States, we're involved in natural 
resource management, and we are here to assist, whatever we can 
do, to make a better day for our ocean, as well as all of our 
watersheds and certainly our Puget Sound in the Great 
Northwest.
    We support regional approaches to management of our ocean 
issues. We need to provide adequate funding for implementing of 
the policies, set clear well-designed coordination mechanisms, 
among all responsible managers, actively promote and support an 
ecosystem based on management approach, engage treaty tribes in 
development guidelines for marine special planning. The zoning 
of the ocean is a concern, it's very important that we do it 
right.
    And you have on record our general tribal position. The 
Makah Tribe along the Pacific coast, that is one of my member 
tribes that belongs in the Northwest Indian Fisher Commission, 
we support their testimony, along with all of our other tribes 
along the ocean. And certainly we work with the Columbia River 
Fish Commission, as well as the Great Lakes Fish Commission. 
Our tribes are all hooked together. And on natural resource, we 
work with our native Alaskans up in our north country. We're 
concerned in all of what's happening, as far as the ocean is 
concerned. We need more attention to everything that's 
happening within the zoning of our land, the zoning of our 
mountains, and the zoning of our watersheds. We need some 
strict attention to that. I think we need a panel of the states 
sitting here to address, ``What part do you play in this great 
movement that we're going to do?''
    We can't fail--if we write a policy, we must see it 
through. Let's not put it on the shelf, like the policies in 
the past. I remember Senator Magnuson, I remember Senator 
Jackson, in my time, and I remember all of the Presidents that 
came forward after that--policies that sit there and never get 
moved; they're still sitting there. And here, we're looking at 
another policy.
    Hopefully, we can find a policy that's going to bring us 
all together and address the problems of the ocean. Certainly, 
I heard all your concerns, our Chairlady, and we're now out 
there, with our tribal people, monitoring the ocean right now 
with all of the things that are happening on our coast and 
inside Puget Sound and the Straits of Juan de Fuca.
    So, thank you.
    [The prepared statement of Mr. Frank Jr. follows:]

            Prepared Statement of Billy Frank, Jr., Chair, 
                 Northwest Indian Fisheries Commission
    The western Washington Tribes wish to thank this Subcommittee for 
the opportunity to provide our perspective on the need for a national 
ocean policy. The treaty tribes of western Washington have been 
stewards of our lands and waters since time immemorial. Sustainability 
has been the central theme of our management philosophy. Preserving our 
fish and wildlife resources, as well as access to them, is essential to 
our economic, cultural, and spiritual well being. This importance has 
always been understood by our people and is why our hunting and fishing 
rights are secured by treaty with the United States. The breadth and 
scope of current tribal involvement in all aspects of natural resource 
management underscores how central it remains to tribal life today.
    The western Washington Treaty Tribes regard the Federal Government 
as a partner and trustee charged with the conservation and protection 
of ocean resources and the tribe's treaty reserved right to harvest 
those resources sustainability for generations to come. This 
partnership and trust relationship must be recognized within the 
development of a national ocean policy and incorporated within the 
resulting ocean governance structure. In recognition of this 
relationship and duty, we provided the Interagency Ocean Policy Task 
Force with these initial seven recommendations for their consideration:

  <bullet> The national ocean policy should support regional approaches 
        to managing ocean issues, including clearly defining mechanisms 
        for engaging individual states and tribes and supporting 
        existing regional ocean governance entities;

  <bullet> Provide adequate funding for implementing the Nation ocean 
        policy, including regulatory entities;

  <bullet> The national ocean policy should set forth clear, well-
        designed coordination mechanisms among all managers of ocean 
        resources;

  <bullet> The national ocean policy should actively promote and 
        support the transition to ecosystem-based management, including 
        needed assessments, monitoring, and research;

  <bullet> Engage treaty tribes early in developing guidelines for 
        marine spatial planning and adopt an integrated and adaptive 
        approach for this planning effort;

  <bullet> The national ocean policy should support greater research on 
        offshore renewable energy, including examining the potential 
        impacts to coastal communities and resources as well as 
        supporting the associated planning processes; and

  <bullet> The national ocean policy should acknowledge and address the 
        unique threat climate change poses to ocean and coastal 
        resources and communities.

    We commend the Interagency Ocean Policy Task Force for their 
thorough inquiry and the nine recommended priority objectives contained 
within the Interim Report. They set an ambitious schedule for policy 
development--including holding six regional hearings, numerous 
conference calls--and diligently staying focused on the task. We are 
appreciative of their direct engagement of the tribes in a government-
to-government relationship during this process. Appropriately, the 
solicitation of tribal input was timely and allowed for substantive 
dialog on the issues. We wish to thank the task force and their staff 
for this. It is our desire that the momentum gained by this effort can 
be translated into the adoption and implementation of the recommended 
priority objectives for a national ocean policy.
    We agree with the Interim Report's recommendation to form a 
National Ocean Council composed of principal- and deputy-level 
officials from the Administration. This governance structure is 
necessary to ensure high-level engagement on ocean issues that has been 
lacking in the past. Upon establishment this council must have clear 
operational and procedural rules as well as identified overarching 
principles to guide its decision-making process. Clearly stated 
principles and procedures will instill consistency in management 
actions and promote greater trust by those whom the decisions affect.
    The treaty tribes in western Washington are supportive of the 
recommendation for tribal representation on the Governance Advisory 
Committee to the National Ocean Council. This is both appropriate and 
necessary to fulfill the Federal Government's treaty trust 
responsibilities. Much of the National Ocean Council's work will have a 
direct bearing on the abundance and/or access to tribal trust 
resources. Consequently, inclusion of tribal perspectives and providing 
for their direct participation in developing these policies must occur. 
Adequate funding should be provided to tribes to support the necessary 
meeting preparations and intra-tribal coordination of policy issues 
that will be expected of these representatives.
    The inclusion of tribal perspectives in the development of ocean 
and coastal policy is necessary if we are to jointly manage these 
shared trust resources with the United States in a comprehensive and 
sustainable manner. The treaty reserved fishing and hunting rights of 
Western Washington tribes are place-based. That is to say, the tribes 
cannot exercise their treaty rights outside of their usual and 
accustomed areas. Consequently, how species respond or adapt to climate 
change or how access to these resources may be hindered is a major 
concern to the tribes. Even minor changes in resource abundance or 
access can result in severe impacts to tribal communities, both from a 
cultural and economic standpoint.
    Marine spatial planning is a concern because it creates the 
potential for use conflicts within tribes' usual and accustomed areas. 
Continuation of traditional practices (hunting, fishing, gathering) and 
access to trust resources is a priority for the tribes. Tribes desire a 
process that comprehensively balances onshore, nearshore and offshore 
activities. A governmental forum (tribal/state/Federal) that provides 
for input of regional or local management concerns is needed. This 
process must recognize Federal trust responsibilities and the need to 
manage trust resources in a co-management relationship with the tribes. 
The process must be structured to engage the tribes in meaningful 
dialog on a government-to-government basis, and not merely soliciting 
tribal comments in the same manner and time-frame as non-tribal 
stakeholders.
    Congress and this Subcommittee also have a vital role to play in 
developing a national ocean policy. Adequate funding of the Omnibus 
Public Lands Act of 2009 is important in order to fully implement the 
Interim Reports' recommended objectives. Title XII of this Act 
initiates several programs within the National Oceanic and Atmospheric 
Administration that will be critical for the informed management, use, 
and preservation of our ocean, marine, and coastal resources. We are 
supportive of the core objective of this legislation to utilize state/
tribal/federal partnerships to address emerging natural resource 
management issues.
    We believe the new programs envisioned by this legislation will be 
important to facilitate the transition to greater ecosystem-based 
management of our ocean and coastal resources. A national ocean policy 
needs a strong grounding in science. This legislation captures the 
basic elements that a national ocean policy should promote including 
the establishment of comprehensive monitoring, assessment, and research 
programs that coordinate and integrate the various entities currently 
engaged in these activities. We recommend that a pilot project focused 
on refining the management approach for rockfish populations off the 
Olympic Coast of Washington be enacted to demonstrate how this concept 
would work.
    In closing, the pressures on the marine environment and resources 
are far too great and complex not to have a national ocean policy. 
Long-term management goals and objectives should be developed to 
address climate adaptation, with the aim to improve regional ocean 
governance. Climate change and ocean acidification are real problems 
that will require substantive action across all levels of government. 
Effects are being felt now by the tribes in their daily lives within 
our communities as the natural resources we depend upon and reserved by 
treaties with the United States are becoming increasingly impacted.
    Preserving and restoring the health of our ocean and coastal areas 
and the abundance of the associated natural resources should be our 
collective goal. We need to focus our energy on continuing to move 
forward, to improving our management approaches and better integrating 
our existing governance structures. We must guard against those that 
wish only to revisit old debates over allocation of and access to 
resources which serve only to distract focus and stymie progress toward 
greater resource protection, conservation, and restoration.
    The tribes welcome the opportunity to work in partnership with 
Congress and the Federal Government on these important issues to ensure 
that our shared trust resources can be passed on to future generations.
    Thank you for allowing me this opportunity to share the views of 
the western Washington tribes on a national ocean policy.

    Senator Cantwell. Thank you, Chairman Frank, for being here 
and for that testimony. And we'll look forward to asking you 
some specific questions about how we actually get that policy 
implemented.
    We'd like to turn now to Dr. Takahashi-Kelso.
    Thank you very much.
    Am I saying that right?
    Dr. Takahashi-Kelso. Takahashi-Kelso.
    Senator Cantwell. Yes.
    Takahashi-Kelso: Thank you.
    Senator Cantwell. Thank you very much for being here. And 
we look forward to your testimony.

          STATEMENT OF DENNIS TAKAHASHI-KELSO, Ph.D., 
          EXECUTIVE VICE PRESIDENT, OCEAN CONSERVANCY

    Dr. Takahashi-Kelso. Thank you, Chairwoman Cantwell, 
Ranking Member Snowe, and members of the Subcommittee, for 
convening this oversight hearing at such an important juncture, 
and for inviting me to testify.
    My name is Dennis Takahashi-Kelso, and I am Executive Vice 
President of Ocean Conservancy.
    Like the Chairwoman, I hail from the West. Much of my 
career in natural resources management and environmental 
protection over the past several decades, was spent in Senator 
Begich's home State of Alaska. I was Alaska Commissioner of 
Environmental Conservation when the tanker Exxon Valdez ran 
aground and spilled 11 million gallons of crude oil. I saw the 
effects on only on wildlife, but on human communities that rely 
on the ocean for their way of life.
    The ocean is essential to all of us, regardless of where we 
live, because it is the life-support system for our planet. As 
President Obama has stated, our oceans, coasts, and Great Lakes 
also play critical roles in our Nation's economic well-being 
and national security. More than $1 trillion of our annual 
gross domestic product is generated from the coasts.
    What is happening in our oceans today is not as graphic as 
a major oil spill or as easily carried on the evening news, but 
it is a time of profound change for our oceans, and only 
decisive action will secure our national ocean future.
    The single greatest and most pervasive threat to our ocean 
is climate change. The effects are already visible: melting 
ice, rising sea levels, ocean acidification, and extreme 
weather events. And while we cannot bring an immediate end to 
the trajectory of ocean and climate change, we can manage other 
activities that impact ocean ecosystems already under stress.
    Madam Chair, you gave an example earlier, and I think it is 
a very good one, of how the oceans are struggling right now. 
Scientists are reporting the most harmful algal bloom ever 
recorded in your State of Washington, leading to mass mortality 
of seabirds that may well go more than 8,000 birds, perhaps 
10,000 or higher. Oceanographer Vera Trainer was quoted in the 
Seattle Times last week as saying, ``The ocean is trying to 
tell us something.'' The ocean is trying to tell us something, 
and we must not only listen, but also act.
    We applaud President Obama for moving so quickly to 
establish an ocean policy. One area singled out by the 
President's task force is the Arctic, where temperatures are 
rising almost twice as fast as the rest of the planet. The area 
of seasonal sea ice is shrinking, exposing coastal villages to 
the full force of the sea. Longer periods of open water 
encourage new industrial activities that may put additional 
pressure on ecosystems and coastal communities.
    As the Administration develops a national policy, it is 
essential for protection, maintenance, and restoration of 
ecosystem health to be the core focus. In that way, the ocean 
can provide diverse benefits long into the future.
    Never before has so much activity taken place in the ocean. 
Wind farms and other new energy facilities, recreational uses, 
offshore drilling, shipping superhighways, commercial fishing, 
and fish farming are all competing for what was once considered 
to be boundless space. Yet, the United States has no 
comprehensive national policy to govern how Federal agencies 
manage the ocean, nor do we have regional plans that address 
which uses are compatible with others and how we protect ocean 
health so that future generations can have the benefits we 
still enjoy.
    But, we have a real opportunity to get this right. 
Ecosystem-based management through marine spatial planning 
helps sustain economic benefits by providing predictability, 
lowering costs, and reducing conflicts. At the same time, it 
ensures that ecosystem health is the goal of management 
decisions.
    A number of states, as well as other countries, have used 
this approach successfully. We believe that incorporating it 
into the National Ocean Policy is a positive step. And we 
commend congressional leaders like yourself, Madam Chair, for 
recognizing its potential to transform ocean governance.
    President Obama's willingness to take the lead on ocean 
policy provides a rare opportunity. The Ocean Policy Task Force 
is laying a strong foundation, but it is one on which the 
Administration and Congress must build in the months and years 
ahead.
    Madam Chair, we very much appreciate your leadership, and 
we look forward to continuing to work closely with you and your 
colleagues. As the Task Force concludes its work, we are 
looking to this Subcommittee to lead. There has never been a 
more important moment for shaping our Nation's ocean future.
    [The prepared statement of Dr. Takahashi-Kelso follows:]

         Prepared Statement of Dennis Takahashi-Kelso, Ph.D., 
              Executive Vice President, Ocean Conservancy
    Thank you Chairwoman Cantwell, Ranking Member Snowe, and members of 
the Subcommittee for convening this oversight hearing at such an 
important juncture, and for inviting me to testify. My name is Dennis 
Takahashi-Kelso, and I am Executive Vice President of Ocean 
Conservancy.
    My career in public service includes diverse roles in natural 
resources management and environmental protection over several decades, 
much of it in Alaska. As Alaska Commissioner of Environmental 
Conservation, I was responsible for pollution control and environmental 
health regulation, including oversight of seafood safety for the 
seafood industry. When the tanker Exxon Valdez ran aground, I enforced 
the state's oil spill clean-up standards. I also served as Alaska's 
Deputy Commissioner of Fish and Game; Director of the Alaska Division 
of Subsistence; Chair of the Alaska Emergency Response Commission; and 
member of the Alaska Coastal Policy Council. More recently, my 
doctorate in Energy and Resources (University of California, Berkeley) 
led me to teach and conduct research as a member of the Environmental 
Studies faculty at the University of California, Santa Cruz; and I 
subsequently served as the fisheries conservation program officer for 
The David and Lucile Packard Foundation.
The Urgent Need for Action
    The ocean is essential to the health of every living thing. It is 
the life support system for our planet. Regardless of where we live, it 
gives us much of the food we eat, the water we drink and the oxygen we 
breathe. In his June 12 memorandum, President Obama noted that our 
oceans, coasts, and Great Lakes play critical roles in our Nation's 
economic well-being and national security. The President also observed 
that we have a stewardship responsibility to maintain healthy, 
resilient, and sustainable oceans, coasts, and Great Lakes resources 
for the benefit of this and future generations. Too often, we have 
failed to meet this stewardship responsibility; and the challenges we 
now face are daunting.
    The single greatest and most pervasive threat to our ocean is posed 
by climate change. As the engine that drives our planet's climate, our 
ocean is on the front lines of the global climate challenge. It absorbs 
half of the carbon dioxide emitted into the atmosphere and more excess 
heat from greenhouse gases than all rainforests combined. Indeed, the 
ocean is the unsung hero in this battle. But it is also the most 
vulnerable victim. We already have begun to see the effects, including 
melting ice, rising sea levels, and extreme weather events. We have 
seen harmful changes to marine wildlife populations. For example, 
conservative predictions show that if the Arctic ice cap continues to 
disappear, two-thirds of all polar bears will be lost by 2050. Even the 
tiniest organisms will be affected as the ocean grows more acidic, 
compromising productivity and jeopardizing the food web. On average, 
the ocean is a degree warmer than it was a century ago. Another two 
degrees is likely to devastate many coastal communities, kill most of 
the world's coral reefs, and result in mass extinctions of marine life.
    Added to the overarching threat posed by climate change are the 
additional perturbations caused by our multiple uses of the ocean, from 
overexploitation to coastal pollution.
    These are not theoretical or future problems: the stresses on our 
ocean and coastal ecosystems are well-documented and a crisis today. To 
give one of many current examples, Madam Chairwoman, in your home state 
scientists are currently reporting the longest lasting and largest 
harmful algal bloom ever recorded in the region, resulting in mass 
mortality of seabirds unprecedented in Washington state waters. Harmful 
algal blooms can damage human health, as well, such as Washington's 
subsistence communities that rely on shellfish (Lefebvre and Robertson, 
in press). In a recent Seattle Times article (October 30, 2009) on the 
algal bloom, oceanographer Vera Trainer is quoted as saying that ``the 
ocean is trying to tell us something.''
    While a specific link between this algal bloom and a warming 
climate is not clearly established, there is no question that carbon 
emissions and climate change are causing an array of problems in the 
marine environment. Perhaps most overwhelming and pervasive is ocean 
acidification, which was one of the primary subjects explored in this 
subcommittee's May 2008 hearing on ``The Effects of Climate Change on 
Marine and Coastal Ecosystems in Washington.''
    But the ocean is not only the victim of climate change, it also can 
be part of the solution. A healthy and resilient ocean can continue to 
perform its key climate regulation functions and continue to provide us 
with all of the goods and ecosystem services we need to survive. A 
healthy and resilient ocean also can be a source of renewable energies 
that can increase the Nation's energy independence and decrease use of 
fossil fuels. President Obama has made clear that increasing energy 
independence tops his priorities. He recognizes that as a potential 
major source of renewable energy, the ocean has a role in achieving 
these goals, and many states are working creatively to take the lead in 
developing ocean-based renewable energy.
    The ocean is already an economic engine for our country. In 2003, 
ocean-related economic activity contributed more than $128 billion to 
American prosperity and supported well over 2.2 million jobs. Roughly 
three-quarters of the jobs and half the economic value were produced by 
ocean-related tourism and recreation, sectors that rely on healthy 
oceans. Currently more than $1 trillion, or one-tenth, of the Nation's 
annual gross domestic product is generated from the coasts (National 
Ocean Economics Program 2004). Harnessing the ocean's renewable energy 
resources, if done carefully, will create jobs and grow the Nation's 
economy (see attached report on Offshore Alternative Energy Economics 
(Kildow and Colgan 2009)).
    The ocean must be healthy and resilient to continue to support the 
current level of economic and other activity and to meet the promise of 
renewable energy and other uses. Today's ocean, coastal, and Great 
Lakes ecosystems face an era of unprecedented activity. Wind farms and 
other energy facilities, diverse recreational uses, offshore drilling, 
shipping superhighways, sand and gravel mining, commercial fishing, and 
aquaculture facilities are all competing for what once seemed like 
boundless space. Novel uses, such as wave energy and offshore 
aquaculture, or even combined energy aquaculture projects, present 
economic opportunities, but will also result in new demands on ocean 
ecosystems, which are limited, fragile, and already under stress 
(Halpern et al., 2008). In order to maximize the benefits the oceans 
provide, both ecologically and economically, we need a strong, clear 
national policy; and then we need a rational process to address 
multiple management objectives consistent with that policy (see Kappel 
et al., 2009 and Turnipseed et al., 2009).
The Interagency Ocean Policy Task Force
    Our oceans, coasts, and Great Lakes are currently governed by more 
than 140 laws and 20 different agencies, each with different--sometimes 
conflicting--goals and mandates. Numerous commissions and experts have 
identified the need for a unifying national policy for oceans, coasts, 
and Great Lakes.
    We commend President Obama and his administration for moving so 
quickly to establish a coherent national ocean policy and a Task Force 
that will provide leadership and facilitate coordination as we begin to 
address these challenges in a focused and consistent way. In his 
proclamation establishing National Oceans Month, the President put it 
this way:

        [W]e are taking a more integrated and comprehensive approach to 
        developing a national ocean policy that will guide us well into 
        the future. This policy will incorporate ecosystem-based 
        science and management and emphasize our public stewardship 
        responsibilities. My Administration also is working to develop 
        a systematic marine spatial planning framework for the 
        conservation and sustainable use of ocean resources. I am 
        committed to protecting these resources and ensuring 
        accountability for actions that affect them.

    One of the President's specific charges to the Task Force is to 
``prioritize upholding our stewardship responsibilities and ensuring 
accountability for all of our actions affecting ocean, coastal, and 
Great Lakes resources.''
    The Interagency Ocean Policy Task Force has worked tirelessly under 
the leadership of Chairwoman Sutley to advance the President's vision 
and to do so very quickly. The June 12 Presidential memorandum mandated 
a very ambitious timeline for the work of the Interagency Ocean Policy 
Task Force, but that has not prevented Task Force members from engaging 
in an admirably transparent and inclusive process as they have moved 
forward.
    Six public listening sessions have been convened around the 
country, and thousands of members of the public have expressed their 
views directly to Task Force members. The 90- and 180-day mandates in 
the Presidential memorandum have necessarily required an expedited 
process, but we believe such decisive action is entirely appropriate 
given the challenges we face. Too often the opposite has been true: 
indecision, delay, and inaction have left the oceans and coasts as 
victims of policy inertia.
An Oceans, Coasts, and Great Lakes National Policy
    Many members of the environmental community submitted joint 
recommendations to the Task Force for the adoption and implementation 
of an oceans, coasts, and Great Lakes National Policy. I have attached 
them in full at the end of my testimony. As those recommendations note, 
protection, maintenance, and restoration of ecosystem health must be 
the core focus of a national policy to meet the needs of present and 
future generations. We believe that ecosystem-based management is the 
best way to achieve this objective.
    According to a consensus statement of more than 220 scientists and 
policy experts, ``[Ecosystem-based management (EBM) is] an integrated 
approach to management that considers the entire ecosystem, including 
humans. The goal of ecosystem-based management is to maintain an 
ecosystem in a healthy, productive and resilient condition so that it 
can provide the services humans want and need. Ecosystem-based 
management differs from current approaches that usually focus on a 
single species, sector, activity or concern; it considers the 
cumulative impacts of different sectors'' (McLeod et al., 2005, p. 1).
    The Task Force's September 10 Interim Report highlighted many of 
the key elements of a national policy. It called for a precautionary, 
ecosystem-based management approach, based on the best available 
science, and adaptive management based on clearly stated goals, 
objectives, and benchmarks. We support the Interim Report's national 
priority objectives, including the areas of special emphasis, 
recognition that targeted work is needed at the regional level, and 
acknowledgement that the United States must show leadership at the 
international level to achieve ecosystem and resource health goals.
    One area singled out for special emphasis is the Arctic. 
Temperatures in the Arctic are rising almost twice as fast as on the 
average for the rest of the planet, causing water temperatures to climb 
and the area of seasonal sea ice to shrink. The loss of sea ice exceeds 
the rates predicted by climate models, and scientists predict that the 
Arctic Ocean will be one of the first regions to feel the effects of 
increased ocean acidification. The Interagency Ocean Policy Task Force 
recognized the need to address changing conditions in the Arctic as a 
national priority objective. We endorse the Task Force's recommendation 
to develop a strategic action plan for the Arctic to help address those 
challenges in a proactive manner.
    The Task Force's proposed National Ocean Council is intended to 
ensure better interagency cooperation on policies that affect our 
oceans and coasts. To that end, the conservation community has 
submitted a number of specific recommendations to the Task Force, which 
I have also attached for ease of reference. These recommendations range 
from clarifying the definition of ecosystem-based management to 
improving representation on the Ocean Research and Resources Advisory 
Panel. We specifically underscore the recommendation for principal 
National Ocean Council membership for the Administrator of the National 
Oceanic and Atmospheric Administration.
Coastal and Marine Spatial Planning
    Marine spatial planning (MSP) is a tool that can accomplish 
ecosystem-based management. Researchers have defined MSP as ``a public 
process of analyzing and allocating the spatial and temporal 
distribution of human activities in marine areas to achieve ecological, 
economic, and social objectives'' (Ehler and Douvere 2009, p. 18). MSP 
can help promote sustainable economic development by providing 
predictability, saving costs, and reducing conflicts, with concomitant 
ecological benefits. A number of states, as well as other countries, 
have used MSP successfully, and incorporating it into the National 
Ocean Policy is a positive step. We commend the President for charging 
the Task Force with development of a framework for MSP, and 
congressional leaders like Senator Rockefeller and yourself, Madam 
Chairwoman, for recognizing its potential to transform ocean 
governance.
    MSP does not supplant existing management authorities for sectors 
like fisheries, transportation, and energy; instead, it coordinates and 
integrates decision-making across sectors and among government entities 
to improve institutional effectiveness and efficiency. MSP can help 
achieve better ocean management by providing a practical way to 
organize marine spaces and interactions among various human uses of the 
ocean while ensuring that the goal of healthy ecosystems is at the core 
of planning efforts and management decisions (Crowder et al., 2006).
Marine Spatial Planning Framework
    The national ocean policy commitment to ecosystem health should 
guide the MSP framework. Toward that end, we recommend the following 
goals:

  <bullet> protection, maintenance, and restoration of coastal, marine, 
        and Great Lakes ecosystem health--including protection of 
        important marine ecological areas--for current and future 
        generations; and

  <bullet> to the extent it is consistent with that overall goal, 
        fostering sustainable development that can realize economic 
        opportunities without detriment to ecosystem health.

    In addition, national security interests are important 
considerations in the planning process; and coordination of these 
activities should be fully integrated in the MSP process.
    Ecosystem attributes should serve as the foundation for setting 
national management objectives for ecosystem health. These attributes 
include native species diversity, habitat diversity and heterogeneity, 
populations of key species, and connectivity between species and 
habitats. Stresses such as climate change, ocean acidification, and 
water pollution--including marine debris--need to be considered, as 
well as the underlying geophysical characteristics of the ecosystem.
    Because of uncertainty about the effect of these stressors in 
ecosystems and on the overall health of the oceans, we support the 
Interim Report statement that ``[d]ecision-making will also be guided 
by a precautionary approach'' (p. 14). While science has made progress 
in understanding how marine systems operate, considerable uncertainty 
remains, especially with respect to overarching shifts in areas such as 
climate change and ocean acidification. When an activity, or the 
cumulative impact of activities, raises threats of serious harm to the 
environment or human health, a precautionary approach provides a way of 
accounting for uncertainty. Where there is uncertainty about potential 
catastrophic disturbances, such as effects of an oil spill or a 
hurricane, marine spatial plans should provide redundant protections.
    Specific recommendations for a governance structure and planning 
process for the MSP framework are outlined in greater detail in the 
attached letter from the environmental NGO community on marine spatial 
planning submitted to the National Ocean Policy Task Force on October 
30, 2009. Also attached is a report on Ocean Renewable Energy and the 
Marine Spatial Planning Process developed jointly by ocean renewable 
energy interests and conservation groups.
    Among the key points, a governance structure for marine spatial 
planning should utilize the proposed National Ocean Council (NOC) for 
interagency coordination in order to manage, approve and implement 
planning, which should be conducted on a regional level. The NOC 
provides a single point of policy formulation, plan approval, and 
ultimate accountability.
    In order to advance planning on an ecosystem basis across 
jurisdictional boundaries, the NOC should establish regional ocean 
councils to plan in partnership with regional, state, and local 
entities. Among key participants would be Regional Ocean Partnerships, 
Regional Fishery Management Councils, and Interstate Marine Fisheries 
Commissions.
    Wherever the issues involve other sovereign entities, including 
tribes and foreign governments, these entities should participate in 
the planning process. In addition, Federal funding should be provided 
to assist states and tribes in developing marine spatial plans that are 
consistent with regional and national MSP objectives and contribute to 
the implementation of the National Ocean Policy.
    The governance structure should also include robust participation 
of stakeholders and the general public. Their involvement will increase 
the likelihood that plans reflect people's values, increase social 
well-being, be viable over the long term, and utilize stakeholders' 
information and perspectives. In addition to appropriate public and 
stakeholder participation, transparency is essential to the legitimacy 
of a marine spatial plan.
    The MSP framework should ensure accountability and result in a 
binding plan. To build such a plan, key actions should include:

  <bullet> identifying regional planning needs to guide evaluation of 
        options;

  <bullet> assembling data for analysis and planning;

  <bullet> conducting ecological and socio-economic assessments and 
        identifying data gaps for each region;

  <bullet> evaluating compatibility of human activities with each other 
        and with ecosystem health;

  <bullet> developing marine spatial plans designed to implement 
        national and regional management objectives;

  <bullet> adopting binding marine spatial plans;

  <bullet> monitoring, revising. and adapting plans as conditions 
        change.

    The Administration and Congress must commit to adequate and 
sustained funding if marine spatial planning is to be successful. We 
urge Congress to provide funding for MSP through the appropriations 
process, and also to consider a sustained source of revenue for long-
term funding. This is an investment worth making that will be rewarded 
handsomely through the more efficient use of ocean resources, and their 
preservation for future generations.
Capitalizing on the Moment
    Madam Chairwoman, our ocean today is in crisis; but President 
Obama's willingness to lead on ocean policy provides a rare 
opportunity. The Interagency Ocean Policy Task Force is laying a strong 
foundation, but it is one on which the Administration and Congress must 
build in the months and years ahead. Current legislation provides ample 
authority to establish a national ocean policy and to adopt an 
implementation framework. In the longer run, though, Congress has a 
crucial role, both in appropriating funds for policy implementation and 
in considering new enabling legislation.
    Madam Chairwoman, we very much appreciate your convening this 
hearing, and we look forward to working with the subcommittee on 
national ocean policy issues. There has never been a more important 
moment for shaping our Nation's ocean future.
References
    Crowder, L. B., G. Osherenko, O. R. Young, S. Airame, E. A. Norse, 
N. Baron, J. C. Day, F. Douvere, C. N. Ehler, B. S. Halpern, S. J. 
Langdon, K. L. McLeod, J. C. Ogden, R. E. Peach, A. A. Rosenberg, and 
J. A. Wilson (2006). Resolving mismatches in U.S. ocean governance. 
Science 313:617-618.
    Crowder, L. and E. Norse. (2008). Essential ecological insights for 
marine ecosystem-based management and marine spatial planning. Marine 
Policy 32(5):772-778.
    Ehler, C. and F. Douvere (2009). Marine Spatial Planning: A Step-
by-Step Approach Toward Ecosystem-based Management. Intergovernmental 
Oceanographic Commission (IOC) Manual and Guides No. 53, ICAM Dossier 
No. 6.
    Halpern, B. S., Walbridge, S., Selkoe, K. A., Kappel, C. V., 
Micheli, F., D'Agrosa, C., Bruno, J. F., Casey, K. S., Ebert, C., Fox, 
H. E., Fujita, R., Heinemann, D., Lenihan, H. S., Madin, E. M. P., 
Perry, M. T., Selig, E. R., Spalding, M., Steneck, R., and Watson, R. 
(2008). A Global Map of Human Impact on Marine Ecosystems. Science. 
319, pp 948-952.
    Interagency Ocean Policy Task Force (2009). Interim Report of the 
Interagency Ocean Policy Task Force, September 10, 2009.
    Kappel, C. V., B. S. Halpern, R. G. Martone, F. Micheli, and K. A. 
Selkoe (2009). In the Zone Comprehensive Ocean Protection. Issues in 
Science and Technology, Spring 2009.
    Lefebvre, K. A., and S. Robertson (in press). Domoic acid and human 
exposure risks: A review. Toxicon.
    Mapes, L. V. Algae bloom killing seabirds mystifies researchers. 
The Seattle Times. October 30, 2009. Available at http://
seattletimes.nwsource.com/html/localnews/2010165049_birds
30m.html.
    McLeod, K. L. et al., (2005). Scientific Consensus Statement on 
Marine Ecosystem-Based Management. Communication Partnership for 
Science and the Sea.
    National Oceans Economics Program (2004). Market Data: Ocean 
Economy Data. Accessed 30 July 2009. Available at: http://
oceaneconomics.org/Market/ocean/oceanEcon.asp.
    Pew Oceans Commission (2003). America's Living Oceans: Charting a 
Course for Sea Change.
    Turnipseed, M., L. B. Crowder, R. D. Sagarin, and S. E. Roady 
(2009). Legal Bedrock for Rebuilding America's Ocean Ecosystems. 
Science 324, 183.
    USCOP (U.S. Commission on Ocean Policy) (2004). An Ocean Blueprint 
for the 21st Century: Final Report.
    Attachments: [will be retained in Committee files].
    Recommendations for an Oceans, Coasts, and Great Lakes National 
Policy, Environmental NGO consensus document.
    Comments on the Interim Report, Environmental NGO recommendations 
on a National Ocean Policy, submitted to the Interagency Ocean Policy 
Task Force, 10/16/09.
    Comments on Marine Spatial Planning, Environmental NGO 
recommendations on MSP, submitted to the Interagency Ocean Policy Task 
Force, 10/30/09.
    Kildow, J. and C. Colgan. Offshore Alternative Energy Economics, 
Report to Ocean Conservancy. The National Ocean Economics Program, 
submitted October 15, 2009.
    Ocean Renewable Energy and the Marine Spatial Planning Process, 
report prepared by ocean renewable energy interests and conservation 
groups and submitted to the Interagency Ocean Policy Task Force.

    Senator Cantwell. Thank you very much, for your testimony.
    Mr. Paxton, welcome to the Committee. Thank you, for being 
here today.

   STATEMENT OF MATTHEW PAXTON, BALL JANIK, ON BEHALF OF THE 
                COASTAL CONSERVATION ASSOCIATION

    Mr. Paxton. Thank you, Madam Chair Cantwell, for holding 
this important hearing on the National Ocean Policy Interim 
Report.
    My name is Matthew Paxton, and the testimony I'll provide 
today is on behalf of the Coastal Conservation Association.
    The Coastal Conservation Association is the leading 
maritime----
    Senator Cantwell. Mr. Paxton, could you just pull that a 
little closer to you, the microphone.
    Mr. Paxton. Absolutely.
    The Coastal Conservation Association is the leading marine 
recreational fishing group in the United States. CCA has over 
100,000 volunteer members in 17 states. This volunteer 
membership, that spans from Brownsville, Texas; to Portland, 
Maine; to Seattle, Washington, has made CCA an organization 
that prides itself on passionate grassroots efforts to 
influence policies and laws that promote sustainable fisheries 
for recreational anglers.
    We commend the Obama Administration for placing such high 
priority on ocean policy and launching an extremely aggressive 
180-day timeline to develop a national plan for our oceans.
    The focus of my comments will be on the process to 
establish a national ocean policy and the role of Congress, 
maintaining regional ingenuity, ensuring access to the marine 
environment and finally, promoting marine recreation as a core 
element of the National Ocean Policy.
    On July 22, 2004, the members of the U.S. Commission on 
Ocean Policy submitted a final report, titled ``An Ocean 
Blueprint for the 21st Century,'' to the President and the 
Congress. This committee held hearings on the report and 
incorporated many of the recommendations from the U.S. 
Commission into legislation developed by this committee to 
reauthorize the Magnuson-Stevens Fishery Conservation 
Management Act. The previous Administration benefited from this 
ocean policy roadmap, but so did the public. The final report 
was based on 16 public meetings, 18 regional site visits, and 
commissions--and the Commission heard from over 400 witnesses 
and over 275 invited presentations, resulting in nearly 2,000 
pages of testimony.
    The concern with this National Ocean Policy process is that 
it will be developed entirely within the bureaucracy of the 
Administration and not subject to any further comment or review 
by the public. Our recommendation and request would be for this 
committee and other relevant committees to hold oversight 
hearings on the final report and consider legislation for any 
ocean management proposals that do not have statutory 
authority. We do not want the National Ocean Policy to enforce 
new legal mandates under the auspices of some existing legal 
authority.
    Regional input needs to be preserved. Maintaining regional 
input and expertise is absolutely critical for establishing a 
balanced and uniquely responsive national ocean policy.
    We are encouraged by recommendations in the interim report 
to coordinate the laws and agencies to improve ocean 
management. However, a national ocean policy should not be a 
mechanism to establish an overarching bureaucracy that consists 
entirely of governmental officials implementing Federal-down 
mandates. This would require important laws that come from this 
committee to fall under one national ocean policy approach, 
requiring such laws as the Coastal Zone Management Act, the 
National Marine Sanctuaries Act, MSA, and others, to simply 
enforce a single national ocean management mandate. All these 
laws maintain critical important--critical regional input as a 
core legal step in establishing complex ocean and fisheries 
management, regulations, and policies. This should not change 
in an effort to establish national ocean policy.
    For instance, the interim report requires an ocean policy 
that implements ecosystem-based management. Currently, the 
Regional Fishery Management Councils implement varying forms of 
ecosystem-based management. However, it is not a legal 
requirement to do so. The National Ocean Policy must encourage 
better coordination between agencies and promote policies that 
focus the stewardship of our oceans, but not at the expense of 
regional ingenuity.
    The reauthorization of the MSA in 2006 required a report on 
the state of the science for ecosystem-based management. I 
would encourage this Committee to request this report from the 
Administration to help inform how ecosystem-based management 
can be implemented and whether additional legal authority is 
necessary.
    Pursuant to the interim report, officials with CEQ and NOAA 
and other agencies are charged with developing a marine spatial 
planning framework. Marine spatial planning should be a policy 
that seeks to better inform decision-making in the ocean 
environment and address gaps in science data to improve 
conservation management objectives. Marine spatial planning 
should not be a means to catalog, map, and designate vast 
marine areas as marine-restricted set-asides. The interim 
report makes numerous references to ambiguous terms, such as 
``healthy,'' ``pristine,'' and ``resilient,'' and articulates 
broad management concepts that call for the protection of 
biological diversity. The report then couples these hard-to-
define terms and concepts with a precautionary approach when 
there is scientific uncertainty. Marine spatial planning under 
this approach would arbitrarily exclude users, primarily 
recreational users and other marine user groups, we fear, from 
the marine environment and its resources. Recreational 
interests and access to the marine environment must be a core 
element of any marine spatial planning policy and proposal.
    Last, sustainable recreational use should not only be 
supported within a national ocean policy, it should be actively 
promoted. Hunting, fishing, boating, and being outdoors are 
laudable things. The recreational community believes that 
stewardship of our ocean environment involves sustainable human 
uses. We strongly encourage this Administration and this 
Committee to take advantage of this opportunity to promote the 
outdoorsman conservation ethic in the ocean environment and 
make recreational uses a core principle of national ocean 
policy.
    As the Senate Committee with the primary jurisdiction over 
the laws that impact ocean management, you have a significant 
role to play in overseeing this National Ocean Policy and 
whether laws are being expanded or constricted without 
Congressional approval.
    I commend you for holding this hearing today. I would 
recommend that further hearings be held by this committee once 
the Administration issues its final report next month.
    And thank you for this opportunity to testify.
    [The prepared statement of Mr. Paxton follows:]

           Prepared Statement of Matthew Paxton, Ball Janik, 
           on Behalf of the Coastal Conservation Association
    Thank you for this opportunity to testify on the White House 
Council on Environmental Quality's Interim Report of the Interagency 
Ocean Policy Task Force and its recommended framework for effective 
coastal and marine spatial planning.
    The testimony I will provide today is on behalf of the Coastal 
Conservation Association. My name is Matthew Paxton. I am an attorney 
at Ball Janik law firm.
    The Coastal Conservation Association (CCA) is the leading marine 
recreational fishing group in the United States. Formed by a small 
group of sport fishermen in Houston in 1977, CCA has grown to a 
seventeen-state operation with over 100,000 members. This volunteer 
membership that spans from Brownsville, Texas to Portland, Maine to 
Seattle, Washington has made CCA an organization that prides itself on 
passionate grassroots efforts to influence policies and laws that 
promote sustainable fisheries for recreational anglers.
    Over the last 20 years, CCA has been active in a number of 
conservation issues both on the state and Federal level, including all 
of the east and Gulf coast net bans; gamefish status for redfish, 
speckled trout, tarpon, striped bass, river shad, marlins, spearfish 
and sailfish; and the reduction of bycatch through the use of 
technology and time and area closures. CCA has also pushed for the 
improvement of the fishery management system through the restructuring 
of state and Federal regulatory bodies; the elimination of conflicts of 
interests by decision-makers, and the active involvement of its 
membership in the management process.
    We commend the Obama Administration for placing such a high 
priority on ocean policy and committing resources and time of the White 
House Council on Environmental Quality, the National Oceanic & 
Atmospheric Administration and numerous other agencies to develop a 
comprehensive, coordinated strategy to manage our oceans. The extremely 
aggressive 180-day timeline to develop a National Ocean Policy that 
includes an integrated, ecosystem-based framework for marine spatial 
planning, is a daunting endeavor and if completed will be an historic 
accomplishment for ocean stewardship.
    The urgency to establish such an expansive national policy and 
framework, however, does raise concern from the recreational community, 
and other marine user groups, that important concepts and perspectives 
might be overlooked or simply left out in order to meet arbitrary dead-
lines.
    The focus of my comments will be on the process to establish a 
National Ocean Policy and the role of Congress; maintaining regional 
ingenuity; ensuring access to the marine environment; and finally 
promoting marine recreation as a core element of the National Ocean 
Policy.
Process--Development of a National Ocean Policy
    On July 22, 2004, the Members of the U.S. Commission on Ocean 
Policy submitted a final report titled An Ocean Blueprint for the 21st 
Century to the President and the Congress. The report was required 
under the Oceans Act of 2000.\1\ This committee held hearings on the 
report and the 2006 reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act, developed and passed by this 
committee, contained many of the recommendations from this important 
ocean policy report.\2\
---------------------------------------------------------------------------
    \1\ Oceans Act of 2000 (P.L. 106-256).
    \2\ Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (P.L. 109-479).
---------------------------------------------------------------------------
    The previous Administration benefited from this ocean policy 
roadmap and the comprehensive recommendations on how to manage our 
oceans and marine resources more effectively. The public also benefited 
from this process--there was a final report with recommendations based 
on sixteen public meetings and eighteen regional site visits and the 
commission heard from over 400 witnesses and over 275 invited 
presentations, resulting in nearly 2,000 pages of testimony.\3\
---------------------------------------------------------------------------
    \3\ U.S. Commission on Ocean Policy Final Report, An Ocean 
Blueprint for the 21st Century, (Executive Summary, pg. xxxiii).
---------------------------------------------------------------------------
    The Obama Administration announced in June that it will develop a 
comprehensive National Ocean Policy within 180 days. The Administration 
has held five public meetings and provided opportunities for various 
ocean user groups to meet in closed door meetings at CEQ and NOAA. I 
understand the U.S. Ocean Commission report was a much different 
process and was the result of a Federal Act, however, there is some 
benefit in providing a comparison in the process that took place to 
develop solid recommendations for ocean policy in the Ocean Commission 
report and what is taking place today.
    As I mentioned earlier, the effectiveness of CCA has been the 
active involvement of its volunteer membership on the local, state and 
Federal level. Through local boards, state commissions, and Federal 
regulatory and management bodies, recreational users have been able to 
influence and shape policies and laws that impact fisheries 
conservation and ocean management. It is a well-worn process that CCA 
members understand and work within to develop effective policies that 
embody our conservation ethic and outdoorsman ideals.
    The concern, in particular for potentially new concepts like marine 
spatial planning or ocean zoning, is these concepts will be developed 
entirely within the bureaucracy of the Administration and not subject 
to any further comment or review. Our recommendation would be to 
provide the Senate Committee on Commerce, Science and Transportation 
and the House Committee on Natural Resources the opportunity to hold 
oversight hearings on the final report and consider legislation for any 
ocean management proposals that do not have statutory authority. We do 
not want the National Ocean Policy to enforce new legal mandates under 
the auspices of some existing legal authority.
    A recent example of this was the approval by Department of Commerce 
of a fishery management plan authorizing commercial offshore 
aquaculture under a very expansive legal view of ``harvesting'' under 
the Magnuson-Stevens Act (the Federal fishery law for managing 
commercial and recreational catch). Nowhere in MSA is there even a 
reference to aquaculture. This is a clear example of how a policy that 
does not have legal authority may be shoe-horned under some other 
existing authority and implemented without a fully transparent, vetted 
and public process to develop the appropriate law.
    Again, the policy must balance the equities of those that will be 
affected. In the instance of offshore commercial aquaculture, we will 
not know until after the fact if the appropriate legal and regulatory 
protections were put in place to manage these commercial enterprises in 
the ocean environment.
Maintain Regional Input--No Top-Down Mandates
    The Interim Report places a substantial focus on coordinating the 
numerous agencies and laws that ultimately intersect with the 
stewardship of our oceans. The report recommends a policy coordination 
framework that would provide a structure to strengthen ocean governance 
and coordination by ``providing clear and visible leadership and 
sustained high-level engagement within the Federal Government.'' \4\ 
Within this policy coordination framework, the report does recommend 
greater participation by local and regional governance structures. 
Maintaining regional input and expertise is absolutely critical for 
establishing a balanced and uniquely responsive National Ocean Policy. 
We are encouraged by these core recommendations on coordinating the 
laws and agencies to improve ocean management.
---------------------------------------------------------------------------
    \4\ Interim Report of the Interagency Ocean Policy Task Force, pg. 
18.
---------------------------------------------------------------------------
    However, a National Ocean Policy should not be a mechanism to 
establish an overarching bureaucracy that consists entirely of 
governmental officials implementing Federal-down mandates. This 
approach could require important laws that come from this committee to 
fall under one National Ocean Policy approach, requiring such laws as 
the Coastal Zone Management Act, the Marine Sanctuaries Act, MSA and 
others to simply enforce a single national ocean management mandate. 
All these laws maintain regional input as a core legal step in 
establishing complex ocean and fisheries management regulations and 
policies and this should not change in an effort to establish a 
National Ocean Policy.
    The Interim Report provides encouraging references to maintaining 
local and regional input, however, in an effort to dictate change in 
ocean policy it might become expedient to simply mandate that all 
actions relating to the ocean environment meet one Federal standard. 
The National Ocean Policy must encourage better coordination between 
agencies and promote policies that focus the stewardship of our oceans, 
but not at the expense of regional ingenuity.
    For instance, the report requires a National Ocean Policy that 
implements ecosystem based management. The various Regional Fishery 
Conservation and Management Councils currently implement varying forms 
of ecosystem based management. Naturally, this approach to ecosystem 
based management is inherently regional and reflects the unique ocean 
conditions and fishery dynamics in that area. The Federal/state process 
in MSA that established the Regional Councils is not perfect, but it 
does provide for ample opportunity for critical regional input. In 
addition, this Act allows for the direct involvement of anglers to 
either sit on the various Councils developing the fishery regulations 
or the opportunity to provide numerous recommendations on how best to 
manage our shared fishery resources. Ecosystem-based management should 
not be a Federal mandate under a National Ocean Policy.
    The reauthorization of the MSA in 2006 required a report on the 
``state of the science for advancing concepts and integration of 
ecosystem considerations in regional fishery management''.\5\ I would 
encourage this committee to request this report from the Administration 
to help inform how ecosystem-based management can be implemented and 
whether additional legal authority is necessary.
---------------------------------------------------------------------------
    \5\ Magnuson-Stevens Fishery Conservation and Management Act, 16 
U.S.C. 1882(f) (P.L. 109-479).
---------------------------------------------------------------------------
Marine Spatial Planning--Maintaining Public Access
    Pursuant to the Interim Report, officials within CEQ, NOAA and 
other agencies are charged with developing a marine spatial planning 
framework that will provide a ``comprehensive, integrated, ecosystem-
based approach that addresses conservation, economic activity, user 
conflict, and sustainable use of ocean, coastal, and Great Lakes 
resources''.\6\ Marine spatial planning must be a policy that seeks to 
better inform decision-making in the ocean environment and address gaps 
in science and data to improve conservation and management objectives. 
Marine spatial planning must not be a means to catalogue, map and 
designate vast marine areas as marine restricted set-asides.
---------------------------------------------------------------------------
    \6\ Interim Report, pg. 2.
---------------------------------------------------------------------------
    The Interim Report makes numerous references to ambiguous terms 
such as ``healthy,'' ``pristine,'' and ``resilient'' and articulates 
broad management concepts that call for the protection of biological 
diversity. The report then couples these hard-to-define terms and 
concepts with a precautionary approach when there is scientific 
uncertainty.\7\ Marine spatial planning under this approach would lead 
to the preservation of the ocean based entirely on precautionary 
principles and arbitrarily exclude users--primarily recreational users, 
we fear--from the marine environment and its resources.
---------------------------------------------------------------------------
    \7\ Id., pg. 14.
---------------------------------------------------------------------------
    Recreational interests and access to the marine environment must be 
a core element of any marine spatial planning policy and proposal. Too 
often recreational interests are afterthoughts of marine policy, when 
under the Magnuson-Stevens Act, the recreational community has equal 
legal standing as commercial interests to fishery resources and access 
to the marine environment. For marine spatial planning to be effective 
it must not ignore recreational interests at the outset, but instead 
have a strong focus on maintaining and encouraging public access and 
recreation in the marine environment.
    This committee developed and ultimately created the law that 
provided important rules for how all future marine restricted areas can 
be established. We would encourage this Administration, and recommend 
that this committee ensure, that the legal requirements in the 
Magnuson-Stevens Act are strictly followed before establishing any 
marine restricted area under a marine spatial planning policy. Any 
marine restricted area should: (1) be based on sound science; (2) be 
the smallest marine area possible to achieve an articulated 
conservation goal, and (3) be continuously reviewed to determine 
whether the marine restricted area is necessary to achieve these 
conservation goals.\8\
---------------------------------------------------------------------------
    \8\ MSA, 16 U.S.C. 1853(b)(2)(C) (P.L. 109-479).
---------------------------------------------------------------------------
    It should not be the goal or result of marine spatial planning to 
determine or catalogue marine areas that should be simply set-aside as 
marine reserves or no-go zones. Any policy to set-aside large areas of 
the marine environment to access or recreation creates 
disproportionate, negative impacts to the fishing and private boating 
public by simply locking them out of the oceans. Marine spatial 
planning should not be a means to lockup the ocean to public access and 
recreation.
Promote Recreation as a Core National Ocean Policy
    Sustainable recreational use should not only be supported within a 
National Ocean Policy, it should be actively promoted. Under principle 
three of the Interim Report--Current and Future Uses of Ocean 
Ecosystems--there should be a specific recommendation for ``the 
promotion of recreational uses of the ocean.''
    We believe, for example, that the efforts and outreach made by the 
Department of Interior, which are designed to get kids outdoors with 
their families, increase physical activities, and reacquaint the public 
with their natural resources is a good model. Hunting, fishing, 
boating, and being outdoors are laudable things. The recreational 
community believes that stewardship of our ocean environment involves 
sustainable human uses.
    Recreating in America's oceans is big business and supports 
hundreds of thousands of jobs, but it is also more than that. It allows 
Americans to utilize America's public marine resources as they do so 
with terrestrial resources. Such outdoor activities strengthen the 
family, improve public health, re-link people with natural resources 
and invest in them a stewardship ethic.
    We strongly encourage this Administration and this committee to 
take advantage of this opportunity to promote the outdoorsman 
conservation ethic in the ocean environment and make recreational uses 
a core principle of both the final report and the framework for marine 
spatial planning in a National Ocean Policy.
    As the Senate Committee with the primary jurisdiction over the laws 
that impact ocean management, you have a significant role to play in 
overseeing this National Ocean Policy and whether laws are being 
expanded or constricted without Congressional approval. I commend you 
for holding this hearing today, I would recommend that further hearings 
be held by this committee once the Administration issues its final 
report next month and thank you for this opportunity to testify.

    Senator Cantwell. Thank you, Mr. Paxton.
    Ms. Elefant, thank you for being here.

                 STATEMENT OF CAROLYN ELEFANT,

              LEGISLATIVE AND REGULATORY COUNSEL,

                OCEAN RENEWABLE ENERGY COALITION

    Ms. Elefant. Good morning. Thank you, Madam Chair, for 
holding this hearing and also for the opportunity to testify.
    My name is Carolyn Elefant. I'm the Legislative and 
Regulatory Counsel to the Ocean Renewable Energy Coalition. We 
are the national trade association for marine renewables, which 
includes wave, tidal, hydrokinetic, ocean thermal, and offshore 
wind.
    I'd like to open by saying that OREC commends the efforts 
of the Administration and this Committee to craft a national 
policy for responsible development of our ocean's renewable 
energy resources. In particular, we appreciated the task 
force's efforts to reach out to the broad swath of stakeholders 
and users who take advantage of our public waterways.
    Like the task force, OREC recognizes that climate change is 
one of the biggest threats to our Nation's oceans. And, in 
fact, if you speak to some of our member companies and ask them 
why they've gotten into this industry of approaching the 
challenges of harnessing our Nation's waves and tidal power, 
they'll tell you that they're committed to leaving this 
nature--to creating a cleaner Nation for future generations. 
So, our members are very concerned with the impacts of climate 
change, and these technologies can contribute to mitigating 
climate change.
    As the Electric Power Institute has studied, ocean 
renewables can provide 400 terawatts of power, which is roughly 
10 percent of our Nation's power needs. It's a little bit more 
than what conventional hydropower delivers today. And, for that 
reason, I confess that our organization was a little bit 
disappointed to see that the interim report really didn't focus 
very much on development of renewable energy resources from the 
oceans or acknowledge the role that they can play in mitigating 
climate change.
    Now, with the limited time I have available now, I'd like 
to focus on OREC's visions for ocean--for coastal and marine 
spatial planning and also describe, in that context, some of 
the challenges that our industry faces.
    One of the first components of marine spatial planning is 
that we need to develop information to inform these planning 
efforts. Right now, there is information that has been gathered 
through the process of permitting other types of development 
within the oceans, and some of that information may be 
available and housed in State and Federal agencies; other 
information needs to be collected. OREC sees a role for 
Congress and this Committee in helping to identify or authorize 
those agencies that should connect--collect the necessary data 
to inform ocean planning decisions, and also to providing 
funding for these gathering efforts.
    The other issue that we wanted to focus on is, as we move 
ahead with marine spatial planning, we don't want to stop 
ongoing activity. Right now our industry is gaining momentum. 
We have had--we've had access to unprecedented amounts of 
funding and also been the beneficiaries of new tax credits 
which are really driving our industry's growth. At the same 
time, we haven't had the opportunity to site many projects. And 
so, there's a lot that is unknown--yet unknown about how marine 
renewables will operate within the environment and what their 
impacts will be.
    We urge this committee and also the task force to allow the 
opportunity to--for us--for our industry to deploy the first 
generation of marine renewable technologies, even as marine 
spatial planning efforts are ongoing. We believe that, by 
deploying this first generation of technologies, we can gather 
information about how they work and what role they can play, 
and that can inform future decisionmaking.
    And third, as an alternative to the precautionary principle 
which was alluded to in interim task force, OREC believes that 
planning efforts should recognize the role of adaptive 
management in moving ahead with marine renewables. Adaptive 
management allows developers to deal with uncertainty through 
rigorous post-deployment monitoring and also by making 
operational changes where data might show that there's an 
adverse impact on the environment. Again, the data gathered 
through adaptive management can also help inform broader 
planning efforts.
    Fourth, OREC believes that this coastal and marine spatial 
planning efforts provide a natural opportunity for multiple 
agencies with jurisdiction over these resources to cooperate 
and collaborate on permitting. Right now, our permitting 
process is very much--takes place in the--as one witness 
mentioned, the stovepipe type of approach. We see an 
opportunity for agencies to collaborate through memoranda of 
understanding, and undertake and create uniform applications, 
and also abide by uniform scheduling deadlines, and to share 
information throughout the process. And we see the marine 
spatial planning approach as providing an opportunity for 
agencies to do that.
    Finally, even though the task force is a national body, the 
role of the states are paramount. As--in our particular--in our 
industry, some of the best sites on West Coast--the best wave 
sites on the West Coast and the best offshore wind sites on the 
East Coast straddle State and Federal lines. And so, if there 
isn't any coordination between the ongoing spatial planning 
efforts being undertaken by states, like Massachusetts, Rhode 
Island, and Oregon, and the Federal effort, we may find 
ourselves in a situation where, for example, a state designates 
an area as appropriate for marine renewables, however, Federal 
policy would exclude them, and it would put a developer in a 
situation where it couldn't build a project out. So, we'd like 
to see coordination between what the State and Federal agencies 
are doing, and also an opportunity to leverage off what states 
are doing, and share that information.
    One of the best parts about participating in the marine 
spatial planning dialogue is that we all agree that climate 
change is a critical issue. Marine renewables, if given a 
chance, can prove--may prove that they can help to mitigate the 
damage that climate change can cause to our oceans and also may 
be compatible with other multiple uses.
    Thanks again for the opportunity to testify, and I look 
forward to any questions you may have.
    [The prepared statement of Ms. Elefant follows:]

   Prepared Statement of Carolyn Elefant, Legislative and Regulatory 
               Counsel, Ocean Renewable Energy Coalition
    On behalf of the Ocean Renewable Energy Coalition (OREC), I 
appreciate the opportunity to present my comments on a framework for 
coastal and marine spatial planning.
    OREC is a national trade association representing the marine 
renewable energy industry, including wave, tidal, hydrokinetic, 
current, ocean thermal energy conversion (OTEC) and, in collaboration 
with other trade associations, offshore wind, solar and biomass. 
Founded in 2005 with just four members, OREC now stands 45 members 
strong, reflecting the increased interest in and commitment to OREC's 
mission of advancing the commercialization of marine renewables in the 
United States.
    Development of marine renewables technologies can play a 
significant role in our Nation's economic recovery and expand our 
renewable energy portfolio. According to the Electric Power Research 
Institute, ocean renewable energy in the United States has the 
potential to supply some 400 terawatt hours of clean power annually, or 
roughly 10 percent of today's electric demand. This is more than the 
electric generation currently delivered from all conventional 
hydropower plants in the United States.
    A robust marine renewables energy industry advances other national 
economic, energy and environmental goals by:

  <bullet> Producing renewable, emission- free energy from our Nation's 
        abundant ocean resources, thereby mitigating climate change 
        effects;

  <bullet> Reducing our Nation's reliance on oil imported from the 
        Middle East, Venezuela and other politically volatile areas;

  <bullet> Revitalizing shipyards, coastal industrial parks and 
        shuttered naval bases;

  <bullet> Creating green jobs in coastal communities hit hard by our 
        country's current economic crisis;

  <bullet> Securing our Nation's place in developing offshore renewable 
        energy technologies thereby ensuring that the United States is 
        an exporter, not an importer, of these technologies;

  <bullet> Providing low cost power for niche or distributed uses like 
        desalinization, aquaculture, naval and military bases, powering 
        stations for hybrid vehicles and for offshore oil and gas 
        platforms; and

  <bullet> Promoting coastal planning that reflects the goals of bio-
        diversity, and optimal use of resources which contemplates 
        synergistic gains for all offshore industries.

    The Coalition commends the work of the Committee and the National 
Ocean Policy Task Force to craft a national policy for the responsible 
development of our ocean, coastal, and Great Lake renewable energy 
resources. While this is a daunting task, we encourage this effort to 
enable marine renewable technologies to play a significant role in 
meeting our Nation's energy, economic, environmental and security 
needs.
    The marine renewables industry in the U.S. faces unique financial, 
jurisdictional and regulatory hurdles that threaten the 
commercialization of this emerging renewable technology. First, marine 
renewables have not enjoyed the level of Federal support that other 
renewables, such as solar, biomass and wind have received. In FY08, the 
Department of Energy revived its dormant water power and hydrokinetic 
program and issued $10 million in solicitations for grants. 
Appropriations increased to $30 million for FY 09 and $50 million in 
FY10. To date, DOE has not provided additional funding from the 
Recovery Act resources.
    Second, while the potential of marine renewables is enormous, the 
industry stands at the same place as wind power fifteen years ago. 
Though offshore wind projects are now commercially viable and can be 
financed through power purchase agreements, marine renewables have only 
just reached the stage where the first generation of demonstration 
projects are ready for deployment. Although the first generation of 
marine renewables projects are small in size and lack the same private 
backing and access to capital as more mature energy technologies, 
nevertheless, they are required to comply with the same lengthy siting 
procedures applicable to well-established technologies.
    For example, Verdant Power needed 5 years to acquire authorization 
to install a 30 kilowatt turbine array in the East River near New York 
City and Ocean Power Technologies (OPT) is embarking on the fourth year 
of its efforts to site a 2 megawatt project off the coast of Reedsport, 
Oregon.
    The lengthy permitting process consumes scarce resources which are 
better used for perfecting the technologies which, in turn, would 
expedite commercialization. Moreover, permitting uncertainty deters 
private equity investors who, at present, are the primary source of 
capital for this nascent industry. As such, marine renewables 
developers have serious concerns about any system which will further 
delay siting or create more regulatory uncertainty for the first 
generation of marine renewables projects.
    Because only two marine renewables projects have been sited in the 
United States and only a handful more abroad, little is known about the 
real world environmental, social and economic impacts of marine 
renewables projects. Consequently, marine renewable energy project 
developers are often unable to comply with resources agencies' requests 
for information without engaging in years of costly studies. For now, 
we advocate application of principles of adaptive management which 
allows for rigorous post-deployment monitoring and changes in operation 
to address adverse impacts as an alternative to extensive pre-siting 
studies. Adaptive management will also allow for collection of data 
that can inform MSP and future siting decisions.
    Uncertainty regarding impacts also makes marine renewables 
inappropriate candidates for the precautionary principle. A policy of 
prohibiting action in the face of uncertainty would essentially bar any 
new technologies, including marine renewables, because questions about 
impacts cannot be resolved without actually siting these projects and 
gathering data.
    Marine renewables also suffer a second disadvantage in addition to 
their emerging status and undercapitalization. Specifically, marine 
renewables are subject to overlapping jurisdictions of multiple 
agencies, more so than any other offshore renewable. For example, 
marine renewables on the outer continental shelf (OCS) are regulated by 
both the Federal Energy Regulatory Commission (FERC) (for licensing) 
and the Mineral Management Service (MMS) (for leasing). Moreover, the 
existing ``sweet spot'' for wave energy technologies (based on existing 
technology, cost and operational viability) lies roughly two to five 
miles offshore, thus straddling state submerged lands and the OCS. 
Consequently, marine renewables are potentially subject to ongoing 
state coastal planning initiatives as well as any Federal policies 
proposed by the Task Force. Because of the problem of multiple 
jurisdictions, coordination between Federal and state programs as well 
as between FERC and MMS takes on heightened significance for marine 
renewables developers.
    As with offshore wind, marine renewables do not fit within the 5-
year planning process established for oil and gas under the Outer 
Continental Shelf Lands Act (OCSLA). Electricity from marine renewables 
is sold by contract to utilities, which have long-term planning 
processes for wholesale power procurement and transmission planning 
that must comply with Federal, state and regional initiatives. The 5-
year planning process for oil and gas is out of synch with the electric 
utility planning process and is unworkable for marine renewables.
    As the Task Force moves forward with steps toward MSP, it should 
bear in mind that several coastal states are already undertaking their 
own initiatives. These states include Massachusetts, Oregon, New 
Jersey, and Rhode Island. The Task Force should coordinate Federal 
efforts with state planning efforts. Finally, many of the models for 
MSP from Europe may not be appropriate for use in the United States 
because of our system of dual state-federal jurisdiction.
    OREC and its member marine renewable energy developers are 
committed to environmentally responsible, economically viable 
development of ocean renewables projects. OREC and its members work 
closely with the resource agencies, NGO's and coastal communities to 
devise a workable approach to siting marine renewables in an 
expeditious and environmentally benign manner.
    To this end, OREC has negotiated legislation (S. 1462--provisions 
on Adaptive Management and Environmental Grant Program) that would 
establish an Adaptive Management Fund which developers can use to 
underwrite environmental studies and ongoing post-deployment monitoring 
requested by state and Federal resource agencies, including NOAA, for 
demonstration and early-stage commercial projects. Information 
subsidized by the Adaptive Management Fund would be placed into the 
public domain (in contrast to many environmental studies performed in 
connection with permitting which remain proprietary if the project does 
not move forward) to inform future decisionmaking. As added protection 
against environmental harm, projects receiving adaptive management 
funds would be required to cease or alter operation if unacceptable 
environmental impacts are observed during post-deployment monitoring. 
OREC has also supported legislation that would provide funding to 
coastal states to study and map their coastal resources and make such 
information publicly available.
    OREC believes that NOAA's history of, and long experience in 
protecting and enhancing our Nation's coastal and ocean resources make 
it a critical player in developing an ocean management program. Most 
importantly, NOAA can play a valuable role in collecting the data 
necessary for a comprehensive ocean management policy. For that reason, 
OREC supports legislation to fund NOAA's ongoing data collection 
efforts through the Integrated Ocean Observatory Systems or other 
programs.
    These carefully negotiated initiatives provide a course for moving 
forward cautiously, even in the face of some uncertainty and a means to 
gather the information that is critical to the success of MSP efforts. 
The Task Force should take these voluntary efforts into account when 
crafting an ocean management plan.
    For the near term, OREC recommends that the Task Force begin to 
address uncertainties regarding marine renewables technologies through 
adaptive management, robust monitoring and data gathering. OREC does 
not oppose MSP in principle nor do we object to laying the framework 
for eventual incorporation of MSP in National Ocean Policy. However, 
MSP is only as effective as the data and input upon which it is based--
and gathering the baseline information needed to implement MSP will 
take time and funding.
    In the interim, many of the goals of MSP--such as a coordinated 
approach to ocean development and identifying compatible uses--can also 
be pursued for the near future within the parameters of existing 
regulatory processes with some modifications or improvements and 
through application of adaptive management principles.
    OREC has recommended that the Task Force consider adopting the 
following principles in its MSP efforts to the extent possible:

  <bullet> Adaptive management should be recognized as the preferred 
        approach for siting marine renewables and addressing concerns 
        related to ocean management;

  <bullet> Avoid creating additional uncertainty which would 
        effectively stop capital formation in this industry;

  <bullet> Leave the door open for future innovation;

  <bullet> Ensure that ocean management or MSP is informed by adequate 
        data, including data that has already been collected by Federal 
        and state agencies;

  <bullet> Recognize the differences between oil and gas and marine 
        renewables;

  <bullet> Avoid creation of a new bureaucracy;

  <bullet> Establish a coordinated, comprehensive approach to 
        permitting offshore renewables through use of MOUs and creation 
        of a uniform application;

  <bullet> Avoid jurisdictional conflicts;

  <bullet> Synchronize ocean management or planning initiatives with 
        state and regional planning efforts and policymaking for the 
        electric utility industry;

  <bullet> Recognize the difficulties inherent in MSP and proceed 
        cautiously, without slowing the marine renewables industry or 
        sacrificing the goal of fighting climate change.

    Marine renewables offer enormous potential to combat climate change 
and to provide an indigenous source of clean, renewable energy. Over 
the past 5 years, the marine renewables industry has gained momentum 
with respect to technology advancements and an influx of Federal and 
state funding. Stalling deployment of marine renewables at this 
critical juncture could devastate the industry and drive it overseas.
    Because of the unique hurdles that a nascent industry like marine 
renewables face, OREC urged the Task Force to avoid attempts for a 
``one size fits all'' or universal solution. With respect to marine 
renewables, the best approach is to allow for deployment to move ahead 
in an environmentally responsible manner which incorporates robust 
monitoring, adaptive management principles and encourages coordination 
between the relevant permitting agencies through use of uniform 
applications and process schedules and collaboration. Data gleaned from 
monitoring operation of the first generation of marine renewables 
projects can offer insight into marine renewables' environmental 
effects and its compatibility with other ocean uses. Ultimately, 
information gleaned can be used to inform siting decision and future 
ocean management initiatives.
    Thank you again for the opportunity to comment on the issue of 
ocean management.

    Senator Cantwell. Thank you.
    And again, I want to thank all the witnesses.
    And I want to start off, if I could. I'm assuming that many 
of you did give comments to the task force during this process. 
Is that correct, that everybody give input or filed something 
on a website or something of that nature?
    This issue of spatial planning has obviously come up with 
many of your testimonies. And if the Administration is going to 
move forward on developing a framework for this, what do you 
think the role NOAA should play in implementing or coming up 
with this framework? To any of you, or all of you.
    Mr. Frank. Well, in my time, you know, I see the door open 
for all of us to participate, certainly the tribes. The tribes 
have been left out in the past, and we certainly got to be in 
the door and at the table in this go-around. We sit down with 
NOAA, with National Marine Fisheries, we manage side-by-side 
with them in the ocean right today, mapping and everything that 
they're doing out there, and certainly with Interior, with all 
of our agencies--our Federal agencies, as well as our states. 
We have to all be together, every one of us. We have to put our 
best foot forward. And we have--there's a right way and there's 
a wrong way. In the past, it has been done the wrong way. 
Certainly, we have to look to try to make it happen the right 
way.
    Senator Cantwell. Dr. Kelso, did you--or Mr. Paxton? Any of 
you?
    Dr. Takahashi-Kelso. Thank you, Madam Chair.
    I'd like to answer both how we think NOAA can play a role 
in the National Ocean Policy and the council and also with 
respect to marine spatial planning.
    We think it's critically important for NOAA to have a key 
leadership role in the National Ocean Policy and in the 
council. We also think it's desirable to have a strong White 
House presence and a role in the Council. We think that helps 
maintain the kind of coordination and integration that the 
policy is supposed to achieve. So, both of those seem 
important, from our perspective.
    With respect to marine spatial planning, NOAA is clearly 
the agency with a great deal of expertise to bring to the 
table, particularly with respect to science and how some of the 
activities that are--occur in U.S. waters are regulated. The 
plans, however, are really regional in nature. And so, in order 
to be a place-based marine spatial plan, they need to build on 
a regional basis. So, clearly, NOAA should have a strong role 
and a presence in the development, but also other entities, 
including the tribes, as sovereign participants, the states, 
and the local communities. And those regions should be drawn in 
a way that enable us to really get plans that are targeted on 
the ecosystem and socioeconomic characteristics that bring them 
together as a region.
    Mr. Paxton. Madam Chair, I thought the first panel 
discussion was quite telling of who's in charge of all this. 
Quite frankly, though, NOAA is in charge with managing 
commercial and recreational fishing. They have regional 
councils, under the Magnuson-Stevens Act. They have a regional 
focus. They're already doing ecosystem-based management through 
the various regional councils.
    I would argue that it's most logical that NOAA should be at 
the head of this. The fact that they're not is a little 
surprising. I know they're part of the process, but to hear 
that they're not at the council level is a little stunning from 
where we sit. They have the expertise, they know the science, 
and they do coastal management. They should absolutely be at 
the head of this.
    Senator Cantwell. Thank you.
    Ms. Elefant. Yes. We would also agree with that. We have 
recognized the role that NOAA plays already in gathering 
information through the interagency ocean observatory systems. 
And we also believe that they can continue to gather 
information. They know what types of information is necessary 
to inform decision-making. They know what types of--I mean, 
data-gathering sounds like, you know, something that's very 
simple, but in reality it's very complicated. You need to put 
the data into, you know, formats that are useful to different 
organizations and also identify the data that you need for 
decisionmaking. And NOAA is very knowledgeable about that. We 
also do have--through the Coastal Zone Management Act, played a 
role in regional planning. And so, we want to see them play a 
role in the spatial planning effort on that level.
    At the same time--and so, we also were surprised to see 
that they had been left out, or relegated a more secondary 
role, in the creation of the ocean council.
    Senator Cantwell. OK.
    Senator Begich, did you have questions?
    Senator Begich. Thank you, Madam Chair, just a couple. I 
know we have a vote in about 9 minutes, here, so let me be very 
quick, if I can.
    And, Dr. Kelso, I--I want to call you Denny; as you know, 
that's how we refer to you. But, let me--Dr. Kelso, if I can 
ask you--one of the comments that I've seen off and on is that 
offshore oil development or gas development maybe should be on 
hold while they go through the process of this effort, and the 
spatial planning--marine planning effort be completed. You 
know, obviously I would have major heartburn over that, 
because, as I've heard--you probably heard me describe planning 
efforts I've been through. This is not one that ends up in 1 
year and you're done. So, can you give me any comment? 
Because--one, your personal experience of Alaska. But, how do 
you balance that as we develop a long-term policy and a 
planning effort and ensure that we continue to move forward on 
responsible offshore development?
    Dr. Takahashi-Kelso. Thank you, Senator Begich.
    The key, I think, is to look closely at the particular 
environments and the state of the science that we have, as well 
as other key information, like traditional ecological 
knowledge.
    So, here's how I would approach that. In a place like the 
Arctic, which is unusually vulnerable and has extraordinary 
resource values, we need to proceed carefully so we make the 
right decisions. That's not to say that we would simply stop 
and not proceed at all.
    Senator Begich. Moratorium.
    Dr. Takahashi-Kelso. Exactly. We don't--we are not pursuing 
a moratorium. We're talking about a kind of time-out that lets 
us get it right. And the different pieces of that, including 
the different regions and subregions in your state, make it 
possible, I think, to make different decisions in different 
areas, based on how much information we have, how vulnerable 
the area is, or what the proposals are for the--for making--for 
pursuing resource extraction. And, in a particular example of 
oil and gas, there the previous Administration put such large 
area on the leasing block that it made it very difficult to 
make thoughtful decisions about the specific effects, not only 
on ecosystems, but also on coastal communities. As you well 
know, the communities in the Arctic Slope and in northwest 
Alaska depend so heavily on the sea, and the North Slope 
Borough has asked for a very careful approach. And, in the 
words of a borough mayor, ``It's too much, too fast, too 
soon.'' And we think that's pretty good advice. That doesn't 
mean you can't get there. It means we need to be careful how we 
do that, and we make choices that are specific to the data, 
that are specific to risks involved and the particular 
proposals to go forward.
    Senator Begich. And do you think--you saw some of my line 
of questioning regarding the economic--when you do an oceans 
policy, from an environmental viewpoint, that's one piece of 
it, but there are all the economic pieces. I know when we did 
our comprehensive plan, we actually required an economic 
analysis--impact analysis--pro and con. In other words, you 
know, if you shut off an area that may be already--maybe it's 
commercial fishing--what's the impact? Or it might be a 
shipping lane, or it might shrink down an area that may be 
accessible. Do you think that's an important part, if we go 
down this effort of marine spatial planning, that there need 
also be tied directly to it an economic impact analysis, both 
private- and public-sector analysis?
    Dr. Takahashi-Kelso. I think the ocean policy and the 
marine spatial planning part of that provides an opportunity to 
give greater certainty to ensure that conflicts are reduced and 
to build on the best available science and to fill in some gaps 
in science, where those exist. I followed, in the Anchorage 
Daily News, your work--I would say, adventures--on the 
comprehensive plan for Anchorage.
    Senator Begich. It was an adventure.
    [Laughter.]
    Dr. Takahashi-Kelso. And I would suggest that one way we 
avoid the kind of tangle that you were successfully able to 
navigate--but it was a challenge--is, we don't take on every 
place at once. We don't try to do the entire U.S. Exclusive 
Economic Zone.
    Senator Begich. Yes.
    Dr. Takahashi-Kelso. We choose some pilot areas. We know 
that there are some areas that are ready to go. Several states 
have done important work already; the State of Massachusetts, 
the State of Rhode Island, are underway right now--the State of 
Washington has excellent experience with the Puget Sound 
partnership--and the work that's going on in other places can 
teach us how best to proceed. That doesn't mean that it will be 
simple, but I think, if we choose our pilot projects carefully, 
if we learn from them, we use adaptive management going 
forward, I think we can handle the kind of challenges that you 
already know so well.
    Senator Begich. Thank you very much. That's actually some 
very good advice in how to approach the planning effort, 
because sometimes we want to do it all at once, and we usually 
collapse under our own weight. That's why--I remember, as 
mayor, I inherited from the former Mayor--and we had to kind of 
do pieces in order to kind of get it moving. But, thank you 
very much.
    Thank you, Madam Chair.
    Senator Cantwell. It makes me want to go back and look at 
the clips, Senator, from your----
    [Laughter.]
    Senator Begich. It's--let me say, it was diverse, and we 
had 1,900 square miles of the city. So, it was very diverse, 
geographically, as well as peoplewise.
    Senator Cantwell. Mr. Paxton, you--in your testimony, you 
said that you have some concerns about eco-based management, or 
that it shouldn't be part of a Federal mandate or ocean policy. 
Could you explain why?
    Mr. Paxton. Thank you, Madam Chair.
    Primarily the reason why is, we're currently doing it. The 
regional councils implement varying forms of ecosystem-based 
management. One of the things that this committee steered away 
from in a debate several years ago was, Do you mandate 
ecosystem-based management in the law? And this committee 
decided they didn't have the science to really get them to that 
place where they could write a law that said, ``Here's how you 
do ecosystem-based management.'' So, what this committee did 
was actually say, ``Let us get the state of science on it. Let 
us find out what we know.'' And I think what we've heard a lot 
from this panel today is that there are a lot of regional 
efforts that are out there. I know that Puget Sound is doing 
ecosystem-based management in a varying form. And I know 
they're doing it up in Maine. We're doing it in the Gulf of 
Mexico. We can do this. I think what we've got to avoid is the 
Federal mandate to do so.
    We ran into a similar situation when they mandated a 
concept called ``essential fish habitat.'' They said every 
council has to look at the adverse impacts on essential fish 
habitat. And every FMP that came out of the regional councils 
go sued and ended up in court, because they didn't know how to 
take the adverse impacts on to essential fish habitat. I think 
the goal has to be, when you do anything in this process, 
especially with something that's kind of nebulous or difficult 
to explain or get to, on ecosystem-based management, is, don't 
mandate it, because the only thing we'll get out of it is 
potential litigation. I think that's where we see some 
problems, because we've already experienced that in some places 
in the Gulf of Mexico, where areas were closed because we 
couldn't define ``adverse impacts.''
    So, I would recommend that we try to get a very concise 
explanation of what ecosystem-based management is before we say 
``Go do it.''
    Senator Cantwell. Dr. Kelso or Mr. Frank, do you want to 
respond to that? Any ideas about how to address Mr. Paxton's 
concerns?
    Mr. Frank. You know, Madam Chairman, somebody has to be in 
charge. And, as you know, the tribes have a lot of agreements 
with the United States Navy, the United States Coast Guard, and 
the United States Army in our areas. Now, when we shake hands 
and make an agreement with them, the agreement stands. Before, 
this was not the case and problems festered, now we know who's 
in charge, and agreements are reached and problems are solved.
    Somebody has to be in charge of the policy of the ocean. 
And if it's NOAA, we have to support NOAA. You know, you heard 
the zoning of our ocean. You know, we have to zone it right. 
There's a right way and there's a wrong way.
    The food chain has to be protected in the ocean. You see 
all the problems that we have with the food chain right now. 
The Chinook salmon, the great Chinook salmon is a prime example 
of this. You know, these things have to be protected--our 
water, our quantity and our quality--all of these things. You 
know, it'll make us look good if we put a policy together where 
somebody's in charge.
    Thank you.
    Senator Cantwell. Thank you, Mr. Frank. I've always said 
environmentalists make great ancestors.
    [Laughter.]
    Senator Cantwell. Dr. Kelso?
    Dr. Takahashi-Kelso. Madam Chair, I agree with Mr. Frank. 
Somebody does have to be in charge. And I have a disagreement 
with my--with Matt Paxton, but I'm sure we could resolve it. 
The disagreement----
    Senator Cantwell. That's what I'm hoping for.
    [Laughter.]
    Dr. Takahashi-Kelso. The disagreement is that I don't see 
how it happens without a mandate. I think it's very appropriate 
that the President has put this in motion. And we think there 
is ample authority--ample discretion under existing 
authorities--to move forward with a policy. We think there is 
also an important role for the Congress. And we think that, in 
many ways, the Congress could help simplify and make clearer 
what the mandate is. So, there's a basis for, I think resolving 
what disagreement we may have.
    But, the challenge is that we know we have, right now, a 
Swiss cheese of authorities. It is a real mess. Now, that 
doesn't mean that individual agencies aren't doing the best job 
they can with the authority they have. But, unless we have an 
overarching--where--an overarching mandate for pulling these 
together and working collaboratively, in an integrated way, to 
produce ecosystem-based management, and to put legs on that 
through marine spatial planning, I think we are going to 
continue to have that Swiss cheese effect.
    The ocean policy that is being suggested by the task force 
does not take away authorities that Congress has granted. The 
regional fishery management councils continue to be the 
managers, under the Magnuson-Stevens Fishery Conservation and 
Management Act. That's appropriate. We think that they can, and 
should, adopt fishery management plans that are based upon 
ecosystem-based management principles.
    The North Pacific Council recently has done that, and has 
also enacted a groundbreaking fishery management plan for the 
Arctic. This is exactly the kind of work that they should be 
doing. But, unless the fishery managers are at the table with 
the other kinds of activities that are going to affect fishing 
opportunity, we are going to have greater and greater problems, 
because the complexity of activities in the ocean is going to 
increase.
    Mr. Paxton. If I could just add one point to that, Madam 
Chair. I agree, Congress should clarify. And I agree that a lot 
of the things that you just articulated weren't Federal 
mandates. I think one example we can throw out real quick is, 
the Bush Administration used the Antiquities Act to designate 
the northern Hawaiian Islands and other places as marine 
reserves, no-go zones. The Antiquities Act was written in 1904 
to, you know, save ruins in southwest Arizona. It wasn't meant 
to establish ocean parks, would be my argument. And I think 
when we get into a situation where we try to mandate, because 
we think we can--everyone agrees we should save the oceans--you 
get into bad results. And that's the only problem I see 
happening, if we just try to shoehorn in policies, under 
existing laws, that might not have application to the ocean 
environment.
    Senator Cantwell. I have one last question, and I don't--
Senator Begich, do you have more questions?
    The--Mr. Paxton, I wanted to ask you about climate change 
and the impact on recreational fisheries. And what do you think 
the Federal role should be there? And what do you think we 
should do to help on that effort?
    Mr. Paxton. Climate change is obviously a very complex and 
difficult issue to get your hands around. I think, from the 
recreational community, you'll hear this--the recreational 
community, and, I think, some from the commercial fishing 
industry, would say that they care about a sustainable 
resource. You can't go fishing, you can't have, you know, a 
fishery, if you don't have a sustainable, healthy resource. To 
the extent that climate change is impacting sustainable 
fisheries, making the ocean environment unhealthy, so you don't 
have the opportunity to get out there and try to go 
recreational fishing, I think it's a huge problem.
    But, I do think having a coordinated approach under this 
interim policy report on climate change would be an effective 
way to get at some big, huge concepts, like climate change. 
Because there are stovepipings, as you know, within our Federal 
Government that are all doing various things on climate change. 
If there's a way to coordinate those efforts, that's certainly 
a laudable goal and something we should be doing.
    Senator Cantwell. Thank you.
    Senator Begich, did you have a question?
    Senator Begich. [Off mike.]
    Senator Cantwell. Well, yes, it----
    Mr. Frank, did you want to make a----
    Mr. Frank. Madam Chair and our Senator, all I see on 
climate change is, the tribes have to be involved. We can bring 
so much to the table, you know, in just the knowledge that we 
have and the data that we have, and so, you know, we have to be 
there. The climate change bill comes through, and, whenever 
it's acted on, we have to be part of that.
    So, thank you.
    Dr. Takahashi-Kelso. Madam Chair, can I--I wasn't going to 
say anything, but, Chairman Frank, you're absolutely right. I 
mean, my experience, especially in Alaska, is, the tribes and 
the elders from generation to generation have--they knew what 
was happening before we knew, in the sense of the scientific 
world, of what we were--should have been talking about decades 
ago. And there's great knowledge within the tribal community 
and the elders within--I know, in Alaska and, I'm sure, within 
your tribe--that we should engage in an aggressive way on what 
we need to be doing, based on what we're seeing in Alaska. I 
mean, we're moving whole villages because of the impact. And 
there are many other impacts. But, thank you, for those wise 
words.
    Mr. Frank. Thank you.
    Senator Cantwell. Well, thank you all for being here this 
morning for this hearing. I know we'll be following up with 
many of you on various policies and the implementation of 
this--the Committee plans to play a very active role in the 
oversight of this--but, obviously, moving forward on something 
that does really continue the economic and environmental 
vitality of our ocean.
    So, we thank you for being good stewards, yourself, and for 
your testimony today.
    This hearing is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Our oceans, coasts, and Great Lakes provide our Nation with 
unmatched wealth. Their beauty inspires us. They provide the air we 
breathe and the water we drink. They are home to magnificent animals--
whales, dolphins, fish, and corals--that never cease to amaze us.
    This Congress, Senator Cantwell and I have made a point to talk 
about the enormous wealth and economic support that our oceans and 
Great Lakes provide coastal communities, and the United States, as a 
whole.
    Today's hearing will highlight similar work the Administration is 
undertaking on this same front.
    In June, the President charged the Council on Environmental Quality 
to create an Interagency Ocean Policy Task Force to develop 
recommendations for a national policy for our oceans, coasts, and Great 
Lakes, and he asked them to build a framework for coastal and marine 
spatial planning.
    The President set out an ambitious plan for the Federal Government 
with an ambitious timetable requiring the Task Force to report back in 
180 days on its recommendations.
    It is time. Forty years ago, the Stratton Commission defined the 
structure and substance of a National Ocean Policy. Yet today, ocean 
management remains fragmented with an array of laws, regulations, and 
practices that confound efforts to protect, manage, and restore our 
oceans, coasts, and Great Lakes for future generations.
    We have a responsibility to get this right and I look forward to 
working with the Administration as it finalizes its recommendations for 
a national policy for the ocean, our coasts, and the Great Lakes and 
develops a framework for coastal and marine spatial planning.
    The Commerce Committee has a longstanding history working on 
comprehensive ocean planning and has developed legislation that 
balances conservation and human uses, from habitat protection and 
national marine sanctuaries to commercial fishing, offshore thermal 
energy conversion, and maritime shipping lanes. These issues touch our 
lives everyday and will affect our communities for years to come.
    The Committee is charged with the comprehensive study and review of 
all matters relating to science and technology, oceans policy, and 
transportation, and has exercised this interest through its oversight 
of: NOAA, the Nation's premier ocean science and resource agency; the 
United States Coast Guard, charged with safeguarding our maritime 
safety, security, and environment; and, other Federal agencies whose 
activities fall within our jurisdiction. The Committee works to make 
sure policy decisions are built on and supported by strong science and 
technology.
    I want to commend the Interagency Ocean Policy Task Force for its 
hard work. This is a challenging issue. As the Task Force prepares its 
final recommendations for the President, I would ask that it consider 
the following issues:

        1. Give NOAA a central and strong leadership role in any 
        efforts to improve the national stewardship of our oceans, 
        coasts, and Great Lakes, and acknowledge the agency's critical 
        role in the final report and framework;

        2. Show us the money. The U.S. Commission on Ocean Policy 
        provided over 200 recommendations to Congress to improve ocean 
        and coastal management. The Commission estimated that the new 
        funding necessary for implementing the recommendations would be 
        $1.3 billion in the first year and up to $3.87 billion in 
        ongoing annual costs for NOAA and other Federal agencies. 
        Senator Cantwell, Senator Snowe, and I have called for $8 
        billion for the National Oceanic and Atmospheric 
        Administration's budget. We must recognize that, in order to 
        improve and manage our ocean, coastal, and Great Lakes 
        resources effectively, we need to fund these efforts. It is a 
        wise investment in our Nation's environmental and economic 
        future.

        3. Evaluate existing legislative authorities and determine what 
        more must be done to improve stewardship, management, and 
        conservation, while balancing multiple uses in the marine 
        environment. I hope that the Administration will work with 
        Congress as it implements the recommendations.

    This Committee recognizes that healthy oceans, coasts, and Great 
Lakes mean a healthy future. They mean quality jobs, strong industries, 
and thriving communities. They are a precious and beautiful natural 
resource, and we have a responsibility to protect them.
                                 ______
                                 
  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Senator Cantwell, for holding this hearing to consider 
the Administration's proposed National Ocean Policy.
    At 3.4 million square miles, the United States has the world's 
largest Exclusive Economic Zone. The safe and sustainable development 
of the resources contained within our Exclusive Economic Zone is 
vitally important to our Nation's economic health.
    From commercial and recreational fishing to shipping to oil and gas 
development, the economies of coastal states are closely tied to our 
oceans. For example, In the Gulf of Mexico alone, the commercial 
fishing industry brings in nearly $1 billion per year to our coastal 
economy and our 3.2 million recreational anglers make over 25 million 
trips per year. Further, the waters of our shores currently account for 
approximately 27 percent of our Nation's domestic oil production and 15 
percent of our domestic natural gas production, generating billions of 
dollars in economic activity and reducing our dependence on foreign 
oil.
    A recent Congressional Research Service (CRS) memo outlined how 
important these offshore resources are to our national and economic 
security. According to CRS, the Outer Continental Shelf (OCS) contains 
85.8 billion barrels of undiscovered technically recoverable oil. This 
represents over half of our entire endowment of technically recoverable 
oil which is 166.7 billion barrels. Additionally, the OCS contains 
419.8 trillion cubic feet of undiscovered technically recoverable clean 
burning natural gas. These reserves make up a significant percentage of 
the total value for technically recoverable natural gas which is 1400.4 
trillion cubic feet.
    These figures represent significant resource potential for our 
country. They translate into jobs, economic and national security and 
development of these resources mean more revenues for cities, states 
and the Federal Government.
    We must continue to produce these domestic resources in a 
responsible manner. It is important that we continue to take steps to 
reduce our reliance on foreign sources of energy.
    Our offshore resources are a logical step toward reducing our 
reliance on the Middle East and Venezuelan energy sources. We must be 
mindful of the role the Gulf of Mexico, Atlantic, Pacific and Alaskan 
OCS can play in our effort to become less reliant upon foreign 
countries. Our offshore oil and gas reserves hold tremendous resource 
potential if we will develop them responsibly.
    Our National Ocean Policy needs to ensure continuing access to our 
oceans for both recreational and commercial purposes, and avoid closing 
off portions of our Exclusive Economic Zone that have significant 
economic value.
    The current ocean governance system has worked well in the Gulf of 
Mexico through an appropriate balance of economic and environmental 
interests. It is vital that any new National Ocean Policy not disrupt 
this balance by increasing regulatory burdens and stifling economic 
development.
    Again, thank you for holding today's hearing. I look forward to 
hearing from our witnesses on this very important issue.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Hon. Nancy Sutley
    Question 1. Harmful Algal Blooms wreak havoc on coastal 
communities. In Washington State, a massive toxic algae bloom has 
killed over 8,000 seabirds over the last 2 months near Neah Bay--the 
largest-ever-recorded kill of seabirds on Washington's coast. Under the 
proposed National Ocean Council, who in the Federal Government have the 
authority to actually do something about the underlying causes of these 
toxic blooms (other than just studying the problem)? How would the new 
policy coordination proposed in the Interim Report improve our 
government's ability to prevent human-caused toxic algae blooms?
    Answer. The National Ocean Council (NOC) would maintain, 
strengthen, and coordinate existing authority and responsibility for 
monitoring, predicting, and addressing issues such as harmful algal 
blooms (HABs) that occur in Washington State and elsewhere in the 
country.
    Federal Harmful Algal Bloom research and response is mandated by 
the Harmful Algal Bloom and Hypoxia Research and Control Act of 1998 
and the reauthorization of 2004. This Act establishes a Federal 
interagency Task Force, led by NOAA, to coordinate Federal efforts. It 
also authorizes NOAA to administer directed HAB research programs 
including three applied, competitive national research programs for 
HABs to determine the underlying causes and provide tools for 
mitigation, response and forecasting.
    The NOC structure would provide a sustained, high level forum for 
responding to all aspects of HABs in a more coordinated manner, 
including linkages with public health agencies and, where indicated, 
efforts to address factors causing blooms such as nutrient pollution. 
This structure would build off of existing agency efforts and, with the 
proposed priority objectives in the Task Force's Interim Report, would 
bring to bear major programs of the Federal Government that can address 
HAB problems (e.g., ecosystem-based management; water quality and 
sustainable practices on land; ocean, coastal, and Great Lakes 
observations; and infrastructure).

    Question 2. One concern expressed about the Interim Report from the 
commercial sector is that it shifts the ``balance'' toward 
environmental stewardship priorities over economic demands. One of the 
nine recommended principles for a national ocean policy is that 
decision-making will be guided by a precautionary approach. Can the 
precautionary approach be adopted as a feature of our national ocean 
policy without bringing use of marine resources to a halt? Could you 
explain how CEQ would apply the precautionary approach to ocean 
resource use and development, and how it would change how you do 
business?
    Answer. The Interim Report responds to the President's June 12, 
2009 memorandum directing the Task Force to develop recommendations to 
``improve stewardship of the ocean, our coasts, and the Great Lakes''. 
Improved stewardship will support not only healthier and more resilient 
ocean, coastal, and Great Lakes ecosystems and services, but also 
benefit the economies (e.g., commercial and recreational activities) 
and communities that rely on them. The Task Force believes that 
economic growth and improved stewardship of the marine and Great Lakes 
environment are inextricably linked.
    Application of a precautionary approach, as defined in the Interim 
Report (``[w]here there are threats of serious or irreversible damage, 
lack of full scientific certainty shall not be used as a reason for 
postponing cost-effective measures to prevent environmental 
degradation''), is consistent with and essential for improved 
stewardship. Moreover, that definition is one to which the United 
States has formally agreed by signing and ratifying the 1992 Rio 
Declaration. We must ensure that when we enjoy and use ocean, coastal, 
and Great Lakes resources, we use the best available information to 
make management decisions and minimize adverse environmental effects.

    Question 3. At Dr. Lubchenco's confirmation hearing earlier 
thisyear, I discussed scientific comments that NOAA, EPA and Fish and 
Wildlife Service had submitted to the Minerals Management Service on an 
EIS for proposed drilling in the Chukchi Sea in the Arctic Ocean. 
Unfortunately, MMS dismissed NOAA's scientific and environmental 
expertise and largely ignored the agency's advice. I understand that 
NOAA submitted scientific comments to the Department of Interior on the 
environmental impacts of the Draft Proposed Outer Continental Shelf Oil 
and Gas Leasing Program for 2010-2015. How can we be sure that this 
time NOAA's views will be taken seriously and given the weight they 
deserve?
    Answer. A healthy environment in the Arctic and elsewhere is an 
essential foundation for sustainable resource management that provides 
long-term benefits to the Nation. NOAA has a great deal of expertise in 
marine science, coastal management, and living marine resources. NOAA 
is working with the Department of the Interior and the Administration 
to deliver coordinated science-based decision-making and ecosystem 
based management as they move through a process to further refine its 
five-year plan for oil and gas leasing on the outer continental shelf. 
We expect that NOAA and all other relevant Federal agencies will 
continue to work together to help DOI shape a five-year oil and gas 
leasing plan that effectively addresses the need for domestic sources 
of energy and protects environmentally sensitive areas of our oceans 
and coasts.

    Question 4. Can we expect to see a FY2011 funding request for 
implementation of the national ocean policy and marine spatial planning 
framework? What is the Administration's position on the establishment 
of an Ocean Investment Fund that draws on revenue derived from 
commercial activities in Federal waters or perhaps from the auctioning 
of carbon credits? Does the Administration plan to develop an 
Integrated Ocean Budget that will allow Congress and others to fully 
understand and evaluate how limited resources are being used to 
implement the proposed recommendations?
    Answer. A comprehensive national policy should improve policy 
coordination and inform the Administration's budget process, including 
the setting of priorities based on available resources, identifying new 
areas of investment, and proposing new sources of revenue.
    The proposed National Ocean Council (NOC) structure would provide 
annual guidance for ocean, coastal, and Great Lakes priorities and 
budgets consistent with the goals and objectives of the policies set 
forth in existing law and the proposed national ocean policy. The NOC 
also would ensure agencies are maximizing available resources across 
the Federal Government, in part by promoting partnerships among Federal 
agencies, and with State, local, tribal authorities, and the private 
sector. One of the nine national priority objectives that addresses 
management coordination and support in the Interim Report specifically 
describes the need for the NOC to ``evaluate existing or new funding 
sources'' and these actions will promote better investments in, and 
stewardship of, the ocean, coasts, and Great Lakes.

    Question 5. The Interim Report does not call out a specific role 
for NOAA or acknowledge its unique role--such as managing marine 
fisheries, coordinating ocean and coastal observations, or helping 
coastal communities through the Coastal Zone Management Act and Sea 
Grant Program. I hope this was an oversight of the Task Force and the 
final report will acknowledge NOAA vital role in ocean stewardship, 
management, and science. In its final recommendations, how does the 
Ocean Policy Task Force plan to ensure there will be adequate 
leadership to implement its recommendations and address critical ocean 
and coastal issues?
    Answer. The Task Force considered a variety of options for 
improving the governance and management of our Nation's ocean, coasts, 
and the Great Lakes. The Task Force believed that the Executive Office 
of the President, Council on Environmental Quality (CEQ) and Office of 
Science and Technology Policy (OSTP), should lead the NOC and provide 
the necessary high level engagement identified as a key goal of an 
improved governance structure.
    The Department of Commerce, in which NOAA resides, would be a 
member of the NOC. NOAA is a key agency when it comes to the ocean and 
we fully anticipate it will have significant involvement implementing 
the National Policy, with the NOC, and supporting the priority 
objectives, including effective coastal and marine spatial planning.

    Question 6. After the Task Force issues its final recommendations 
to the President, what are the next steps and what are the different 
options that the President could pursue to implement the 
recommendations?
    If the Task Force recommendations are implemented, what concrete 
changes would we see regarding the Federal Government's involvement in 
regional ocean governance efforts like the West Coast 
Governors'Agreement?
    Answer. The Interim Framework for Effective Coastal and Marine 
Spatial Planning (Interim Framework) will soon be completed and will be 
issued for public review and comment. Once comments are received and 
considered, the Task Force will finalize its recommended framework and 
then combine it with the final recommendations for a national policy, 
policy coordination structure, and priority objectives.
    All potential mechanisms would be considered to implement that Task 
Force's recommendations for the near, medium, and long-term. If 
established, the National Ocean Council (NOC) would also develop 
strategic action plans for the priority objectives identified in the 
Interim Report, which could also identify necessary implementation 
mechanisms.
    The September Interim Report highlights the need to improve the 
coordination and collaboration with state, tribal, and local 
authorities, and regional governance structures (e.g., West Coast 
Governors' Agreement on Ocean Health, Gulf of Mexico Alliance). The 
proposed governance structure includes a new advisory committee to 
formally engage state and tribal authorities, and regional governance 
structures over the long term.

    Question 7. The United Nations released a report called ``Blue 
Carbon''which recommended a global blue carbon fund for the protection 
and management of coastal and marine ecosystems and ocean carbon 
sequestration similar to the way credits are offered for green carbon 
such as rainforests. Would the Administration support this 
recommendation and be willing to actively work to establish this type 
of funding domestically and internationally?
    Answer. As discussed in the response to question number 4, a 
comprehensive national policy should improve policy coordination and 
inform the Administration's budget process, including setting 
priorities within available resources, identifying new areas of 
investment, and proposing new sources of revenue. The proposed National 
Ocean Council (NOC) structure expressly contemplates formulation of an 
annual budget guidance memorandum on ocean, coastal, and Great Lakes 
priorities consistent with the goals and objectives of the National 
Policy.

    Question 8. Under the Task Force's proposed National Ocean Council 
structure, how would the Council interact with fisheries management 
under the already-existing Regional Fisheries Management Councils?
    Many of my constituents in the commercial fishing industry are very 
worried that we may be adding another layer of bureaucracy that will 
override the current fisheries management system--even in instances and 
places where fisheries management is working well, like the North 
Pacific. What is your response to these concerns?
    Answer. The proposed National Policy will maintain existing 
authorities, such as the Magnuson-Stevens Fishery Conservation and 
Management Act, but seeks to improve the coordination, collaboration, 
and effectiveness of existing structures and processes by providing a 
unifying context within which they would operate. Thus, we fully expect 
that NOAA would continue to interact with the Fishery Management 
Councils through its existing structure as it works to further the 
National Policy.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Hon. Nancy Sutley
    Question 1. One initial reaction to the draft policy paper was that 
it lacked attention to the economic importance of our oceans to the 
Nation. In my opening remarks I noted that Alaska waters provide over 
half of all U.S. seafood harvests--over 4 billion pounds annually worth 
almost $2 billion. The seafood industry is the largest private sector 
employer in the State and coastal communities from the southeast 
panhandle to the Aleutian Islands depend on the bounty of the sea. 
Alaska waters are critical shipping routes between the west coast 
states and Asia, and with the diminishing Arctic ice pack, new, shorter 
trade routes to Europe will soon open via the Northeast and Northwest 
passages. More than a million visitors cruise our waters annually to 
enjoy our spectacular scenery and clean waters. And locked beneath our 
Arctic waters is the promise of a substantial supply of oil and clean 
burning natural gas to help our Nation meet the energy needs of future 
decades.
    As an ocean-dependent state, Alaskans care very deeply about the 
health of the ocean and sustainable resource management. How will the 
economic aspects of the ocean be addressed this in the final report?
    Answer. The Interim Report responds to the President's June 12, 
2009 memorandum requesting the Task Force to develop recommendations 
for a national policy and a policy coordination framework ``to improve 
the stewardship of the ocean, our coasts, and the Great Lakes.'' As 
such, the report includes a National Stewardship Policy for the Ocean, 
Our Coasts, and the Great Lakes. Improved stewardship will support 
healthier and more resilient ocean, coastal, and Great Lakes ecosystems 
and services, and benefit the economies (e.g., commercial and 
recreational activities) and communities that rely on them. The Task 
Force believes that economic growth and improved stewardship of the 
marine and Great Lakes environment are inextricably linked. While the 
Interim Report did not single out individual sectors for discussion, 
the Task Force recognized the significant economic importance of the 
ocean, our coasts, and the Great Lakes.

    Question 2. Concerns have been raised about how the budget for the 
work envisioned in the oceans policy would be funded, and whether it 
would come from shifting program funding from existing responsibilities 
that are equally necessary such as fisheries enforcement, search and 
rescue, and the like? Could you comment on funding for the new oceans 
initiative and how that would impact existing agency funding?
    Answer. A comprehensive national policy should improve policy 
coordination and inform the Administration's budget process, including 
setting priorities based on available resources, identifying new areas 
of investment, and proposing new sources of revenue. The proposed 
National Ocean Council (NOC) structure expressly contemplates 
formulation of an annual budget guidance memorandum on ocean, coastal, 
and Great Lakes priorities consistent with the goals and objectives of 
the National Policy. The NOC would also have the responsibility to help 
ensure agencies are maximizing the effectiveness of existing resources 
across the Federal Government, including partnerships among Federal 
agencies, and with state, local, tribal authorities, and the private 
sector. These actions should move us toward better investments in, and 
stewardship of, the ocean, coasts, and Great Lakes.

    Question 3. This new policy would establish a National Ocean 
Council with 25 members including cabinet members and agency heads. 
This Council has seats for HHS, Agriculture, Labor, Attorney General, 
even NASA has a seat on the Oceans Council but the one agency nominally 
charged with oceans, NOAA, does not. How does this Council and policies 
thereof affect the role of this Nation's ocean agency, NOAA? How will 
the National Oceans Council, co-chaired by CEQ and OSTP interact with 
NOAA?
    Answer. The Task Force considered a variety of options for 
improving the governance and management of our Nation's ocean, coasts, 
and the Great Lakes. The Task Force believed that the Executive Office 
of the President, CEQ and OSTP, should lead the National Ocean Council 
(NOC) and provide the necessary high level engagement identified as a 
key goal of an improved governance structure.
    The Department of Commerce, in which NOAA resides, would be a 
member of the NOC. NOAA is a key agency when it comes to the ocean and 
we fully anticipate it will play a significant role implementing the 
National Policy, coordinating with the NOC, and supporting the priority 
objectives, including coastal and marine spatial planning.

    Question 4. Fishermen's concerns about ocean zoning are similar to 
those they've experienced on land, which hasn't always been good. Many 
fishermen have seen waterfront property taken away by condo and 
restaurant developers. Sen. Collins has introduced the Working 
Waterfront Preservation Act to protect such traditional uses.
    What assurances can you give fishermen that Marine Spatial Planning 
will include fisheries and that their livelihoods won't be zoned out of 
existence? How do I address my constituency's concerns that a one-size-
fits-all National Ocean Policy will be implemented in the U.S. EEZ off 
Alaska which lacks regional relevance and utility?
    Answer. The Task Force was charged with developing a framework for 
effective coastal and marine spatial planning. As such, it would not 
contain zoning maps, or identify areas either accessible or off limits 
to any particular activity. Rather, the framework would set the stage 
for a collaborative, regionally-based process for coastal and marine 
spatial planning around the country. In developing the Interim 
Framework, the Task Force received a number of comments on the 
importance of providing flexibility and accounting for regional 
differences, and the need to provide for extensive stakeholder and 
public participation.

    Question 5. Currently, the Bering Sea Integrated Ecosystem Research 
Program is funded through the National Science Foundation and the North 
Pacific Research Board to study the effects of climate change on the 
Bering Sea ecosystem. At the Task Force's hearing in Anchorage, the 
U.S. Arctic Research Commission suggested that the work of the Bering 
Sea Program be expanded to research in the Chukchi and Beaufort seas. 
How will the new Ocean Policy promote climate change and ecosystem 
research in the Arctic? Will an integrated Arctic research plan be a 
part of the new National Ocean Policy?
    Answer. The Task Force Interim Report expressly recognizes the 
rapidly changing environment in the Arctic and the vulnerabilities and 
opportunities this creates. The Task Force report has identified 
specific suggestions pertaining to this important region. The Interim 
Report provides that the strategic action plan to be developed by the 
National Ocean Council for the Arctic address ``[i] mprovement of the 
scientific understanding of the Arctic system and how it is changing in 
response to climate-induced and other changes.'' Working with all 
stakeholders, including Alaska Native communities, the Task Force 
recognizes that it has the opportunity to develop proactive plans, 
informed by the best science available, to manage and encourage use 
while protecting the fragile Arctic environment.

    Question 6. During witness testimony on the second panel of the 
November 4th Subcommittee Hearing, Matt Paxton gave an example of the 
Bush Administration's use of the Antiquities Act to set aside the 
Mariana Trench as a no fishing zone to illustrate outcomes that can 
result from extra-statutory Federal ocean policy. What assurances do 
ocean stakeholders, who rely on the sea for their livelihood, 
recreation, and cultural and spiritual wellbeing, have that the 
National Ocean Council will not implement restrictions that are not 
explicitly contemplated, conceived and authorized in law?
    Answer. There are no regulations or restrictions proposed in the 
Interim Report, nor does the proposed National Policy create new or 
alter existing authorities. Rather it seeks to ensure improved 
collaboration and coordination among them and the agencies that 
administer them.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Jane Lubchenco
    Question 1. Harmful Algal Blooms wreak havoc on coastal 
communities. In Washington State, a massive toxic algae bloom has 
killed over 8,000 seabirds over the last 2 months near Neah Bay--the 
largest-ever-recorded kill of seabirds on Washington's coast. Other 
than studying the issue more, what else should we be doing to tackle 
this emerging problem?
    Answer. NOAA greatly appreciates the efforts of this Committee, and 
the Committees on Science and Technology and Natural Resources of the 
U.S. House of Representatives, to focus on this issue through 
reauthorization of the Harmful Algal Bloom and Hypoxia Research and 
Control Act of 1998 (HABHRCA). We strongly support reauthorization of 
HABHRCA. Over the last 10 years we have made enormous progress in 
understanding the causes and consequences of HABs and hypoxia, leading 
to the development of many tools and information products which, in 
turn, have directly improved HAB and hypoxia management, particularly 
in the area of prediction and mitigation. We anticipate that in the 
next 10 years we will continue to make progress and our ability to 
prevent and control, as well as mitigate, HAB events will be greatly 
enhanced.
    In late October, NOAA, state, and university researchers joined an 
ongoing regional effort to respond to a major seabird mortality and 
stranding event in the Pacific Northwest. Thousands of seabirds of 
multiple species appear to have been impacted by a widespread Harmful 
Algal Bloom (HAB) of the algal species Akashiwo sanguinea. The HAB, 
while believed to be nontoxic to humans, produces soap-like foam that 
removes the waterproofing on avian feathers, making it harder for birds 
to fly and promotes the onset of hypothermia.
    In order to discuss region-specific HAB issues and begin to develop 
a West Coast Regional Research and Action Plan to tackle this emerging 
problem, NOAA organized a 2009 West Coast HAB Summit which brought 
together 80 leading scientists, managers, and industry representatives. 
At the Summit, the representatives also endorsed the vision of the West 
Coast Governor's Agreement on Ocean Health to establish a regional HAB 
monitoring, alert and response network and forecasting system. Seizing 
on the opportunities of new and emerging technologies and research, 
this system will provide advanced early warning of HABs, minimize 
fishery closures, protect the economy of coastal communities, mitigate 
the impacts to marine life and protect public health.
    The West Coastal Governors' Agreement on Ocean Health and its 
member states are currently integrating specific actions to promote 
interstate coordination of HAB research and monitoring efforts. These 
are articulated in their recently released Action Plan, which is 
available at http://westcoastoceans.gov/docs/WCGA_Action
Plan_low-resolution.pdf.

    Question 2. One criticism of the Interim Report from the commercial 
sector is that it shifts the ``balance'' toward environmental 
stewardship priorities over economic demands. One of the nine 
recommended principles for a national ocean policy is that 
decisionmaking will be guided by a precautionary approach. Can the 
precautionary approach be adopted as a feature of our national ocean 
policy without bringing use of marine resources to a halt? Could you 
explain how NOAA would apply the precautionary approach to ocean 
resource management, use and development, and how it would change how 
you do business?
    Answer. The Interim Report responds to the President's June 12th 
memorandum directing the Interagency Ocean Policy Task Force to develop 
recommendations to ``improve stewardship of the ocean, our coasts, and 
the Great Lakes.'' Improved stewardship will not only support healthier 
and more resilient ocean, coastal and Great Lakes ecosystems and the 
services they provide, but also the communities and economies that 
depend upon those services.
    The language in the Interim Report specifically states: ``Decisions 
affecting the ocean, our coasts, and Great Lakes should be informed by 
and consistent with the best available science.'' When full scientific 
certainty is not available, it is important decisions are made 
carefully to avoid serious or irreversible impacts. Application of a 
precautionary approach, as defined in the Interim Report (``w]here 
there are threats of serious or irreversible damage, lack of full 
scientific certainty shall not be used as a reason for postponing cost-
effective measures to prevent environmental degradation''), is 
consistent with and essential for improved stewardship. Moreover, that 
definition is one to which the United States has formally agreed by 
signing and ratifying the 1992 Rio Declaration. We must ensure that 
when we enjoy and use ocean, coastal, and Great Lakes resources, we use 
the best available information to make management decisions and 
minimize adverse environmental effects.

    Question 3. At your confirmation hearing earlier this year, I 
discussed scientific comments that NOAA, EPA and Fish and Wildlife 
Service had submitted to the Minerals Management Service on an EIS for 
proposed drilling in the Chukchi Sea in the Arctic Ocean. 
Unfortunately, MMS dismissed NOAA's scientific and environmental 
expertise and largely ignored the agency's advice. In your view, how 
should the Ocean Task Force's recommendations play into these kind of 
decisions on offshore oil and gas drilling?
    Answer. The recommendations found in the Interagency Ocean Policy 
Task Force's Interim Report are draft recommendations and have not been 
finalized yet. It remains to be determined how and when the President 
would choose to act upon those final recommendations and how existing 
processes would then be incorporated into the implementation and 
execution of the National Ocean Policy.

    Question 4. Some critics of the Ocean Policy Task Force's Interim 
Report suggest that goals such as protecting ecosystem health and 
biological diversity will be difficult, if not impossible, to translate 
into concrete action and requirements by Federal agencies. How can the 
Administration translate these broad goals into tangible actions in and 
on the water? What do you see as the greatest challenges and greatest 
benefits in this regard?
    Answer. The Interagency Ocean Policy Task Force's Interim Report 
outlines nine principles that if implemented would guide the U.S. 
Government in developing management decisions and actions affecting the 
ocean, coasts and Great Lakes. These principles include the following 
essential concepts: decisions should be informed by and consistent with 
best available science and guided by the precautionary approach; 
ecosystem-based and adaptive management approaches should be utilized; 
and current and future uses of ocean, coastal, and Great Lakes 
resources should be managed and effectively balanced in a way that 
maintains and enhances the environmental sustainability of multiple 
uses. The entire suite of principles, when applied government-wide, 
will serve to make significant changes in how we manage our oceans, 
coasts and Great Lakes.
    One of the challenges in applying the National Policy and 
implementing the principles will be the need to continually improve our 
understanding of ocean, coastal, and Great Lakes ecosystems. Meeting 
this challenge will require disciplinary and interdisciplinary science, 
research, monitoring, modeling, forecasting, exploration and assessment 
to continue to improve our understanding of the consequences of 
management decisions on ocean, coastal and Great Lakes ecosystems, as 
well as the long-term health and well-being of the population, 
including human health and safety. The ultimate benefit of this effort 
will be the consistent application of the policies government-wide, to 
achieve the vision set forth in the Task Force's Interim Report: ``An 
America whose stewardship ensures that the ocean, our coasts and the 
Great Lakes are healthy and resilient, safe and productive, and 
understood and treasured so as to promote the well-being, prosperity, 
and security of present and future generations.''

    Question 5. Under the Task Force's proposed National Ocean Council 
structure, how would the Council interact with fisheries management 
under the already-existing Regional Fisheries Management Councils? Many 
of my constituents in the commercial fishing industry are very worried 
that we may be adding another layer of bureaucracy that will override 
the current fisheries management system--even in instances and places 
where fisheries management is working well, like the North Pacific. 
What is your response to these concerns?
    Answer. Activities that affect the ocean environment will only 
continue to increase in the years ahead, and effective planning 
processes are the best way to ensure that the consequences of decisions 
are appropriately considered in order to minimize conflicts between 
these activities. As currently envisioned, the National Ocean Council 
would serve primarily as a coordinating and priority-setting entity, 
and would provide a mechanism to better coordinate activities across 
agencies that contribute to national goals and objectives. The 
structure of the National Ocean Council is intended to provide for 
greater participation by, and coordination of, State, tribal, and local 
authorities, and regional governance structures, but is not intended to 
impair or override existing statutory authorities. The fisheries 
management system must be an active participant in ocean planning to 
ensure the needs of fishing communities are considered, and that 
productive, sustainable fisheries can be maintained even as the number 
and diversity of activities in the ocean environment increase.

    Question 5a. This Committee is dedicated to ensuring that the 
ending-overfishing deadlines we put into the Magnuson-Stevens Act in 
2006 stand firm. Does NOAA agree that these are important deadlines to 
meet? To what extent will the National Ocean Policy address the need to 
end overfishing and ensure fishermen can stay in business?
    Answer. Ending overfishing is critical to rebuilding our Nation's 
fish stocks and in this regard, NOAA is working hard to implement the 
requirements and meet the statutory deadlines of the Magnuson-Stevens 
Fishery Conservation and Management Reauthorization Act (MSA). NOAA 
believes that the recommendations made for a National Policy, if 
implemented, will be consistent with the MSA requirements, and the 
focus on cross-agency coordination should help to address environmental 
issues that are affecting fishery sustainability, but are outside of 
the scope of the MSA (e.g., non point source pollution, destruction of 
coastal habitat).

    Question 6. NOAA's 2008 recovery plan for the Puget Sound Southern 
Resident Orcas called for significant financial investments ($15 
million over the first 5 years) to help recover this critically 
endangered icon of the Pacific Northwest. Unfortunately, NOAA has only 
budgeted about $1 million each year for FY2009 and FY2010. NOAA has 
made nowhere near the necessary investment. What can the Task Force or 
National Oceans Council can do to make up for an inadequate NOAA budget 
for orca recovery (or any ocean issue)? Will any of the Task Force 
recommendations help push recovery for endangered marine species like 
Puget Sound's Southern Resident Orcas?
    Answer. In the cost estimates for recovery, some of the $15 million 
for the first 5 years is attributed to actions for which NOAA is the 
lead responsible party, while many of the actions include other 
responsible parties as well. Given the range of threats to the 
population (e.g., contaminants, vessel impacts, oil spills), the 
recovery of Southern Resident Orcas will require coordination among a 
variety of government agencies and stakeholder groups, as identified in 
the Recovery Plan.
    The interim report of the Interagency Ocean Policy Task Force 
includes a number of high level national priority objectives that are 
consistent with recovery of Southern Resident Orcas, and will also 
involve a wide variety of Federal, state and local entities. For 
example, support for ecosystem-based management will benefit orcas by 
providing a framework for managing multiple resources that considers 
the importance of restoring fish populations, sensitive species, and 
habitats. Adequate understanding of the impacts of human activities and 
efforts to educate the public regarding those impacts and stewardship 
opportunities (as described in the interim report under ``Inform 
Decisions and Improve Understanding'') will also inform management and 
contribute to recovery of Southern Resident Orcas and their salmon 
prey. One of the areas of special emphasis in the report, Regional 
Ecosystem Protection and Restoration, specifically identifies habitat 
loss and degradation of ecosystem services in Puget Sound, and 
highlights protection and restoration of protected species.

    Question 7. I'm very interested in figuring out how NOAA and other 
Federal agencies can play a larger role in helping local, state, and 
regional efforts to restore estuaries such as the Puget Sound. What 
concrete changes would we see under the Task Force recommendations that 
would increase NOAA's contribution to efforts like the Puget Sound 
Partnership? At the end of the day, would you agree that NOAA needs a 
stronger budget to contribute to such efforts?
    Answer. The Interagency Ocean Policy Task Force's suggested 
implementation strategy includes nine priority objectives that the 
Nation should pursue to implement the National Policy. Taken together, 
these objectives will lead NOAA and other Federal agencies to 
improvements on many fronts, including assisting in local, state, and 
regional efforts. In particular, the following principles, as described 
in the interim report, will help NOAA and other Federal agencies 
address these efforts: ``Ecosystem Based Management,'' ``Coordinate and 
Support,'' and ``Regional Ecosystem Protection and Restoration.'' These 
focus areas are not new to NOAA, as the agency has a number of existing 
programs and efforts that work with local, state, and regional partners 
around the country, such as the Puget Sound Partnership.
    In addition, NOAA's Regional Collaboration effort focuses and 
coordinates NOAA activities in eight regions around the country. The 
purpose of this effort is to improve NOAA's productivity and value to 
customers by integrating program activities to address NOAA's 
priorities at both the national and regional scale, while using 
existing authority and accountability structures.
    The Administration has many competing priorities for limited 
resources and must balance these priorities in developing the annual 
budget request. We understand your concern about this region and expect 
that changes instituted through implementation of the Ocean Policy Task 
Force's recommendations would strengthen local, state and regional 
efforts, such as those in the Puget Sound.

    Question 8. The United Nations released a report called ``Blue 
Carbon'' which recommended a global blue carbon fund for the protection 
and management of coastal and marine ecosystems and ocean carbon 
sequestration similar to the way credits are offered for green carbon 
such as rainforests. Would the Administration support this 
recommendation and be willing to actively work to establish this type 
of funding domestically and internationally?
    Answer. A comprehensive national policy should improve policy 
coordination and inform the Administration's budget process, including 
prioritizing within existing resources, identifying new areas of 
investment, and proposing new sources of revenue. The proposed National 
Ocean Council (NOC) structure expressly contemplates formulation of an 
annual budget guidance memorandum on ocean, coastal, and Great Lakes 
priorities consistent with the goals and objectives of the National 
Policy. ``Blue Carbon'' acknowledges the importance of coastal and 
marine ecosystems to the global carbon cycle, and the opportunities to 
protect and manage coastal habitats for their value in sequestering 
carbon in addition to the other multiple benefits they provide.

    Question 9. As we've explored in this subcommittee, ocean 
acidification has only recently been recognized within the scientific 
community. NOAA is largely a science-based agency, so it is at the 
forefront of understanding and acting on ocean acidification. What 
other Federal agencies will be impacted by ocean acidification or play 
a role in dealing with its impacts and how is NOAA coordinating with 
them?
    Answer. It is anticipated that ocean acidification will affect all 
coastal and ocean ecosystems. As directed within the Federal Ocean 
Acidification Research and Monitoring Act of 2009, the Joint 
Subcommittee on Ocean Science and Technology of the National Science 
and Technology Council is coordinating Federal activities on ocean 
acidification through an interagency working group. This working group 
is chaired by NOAA and is comprised of senior representatives from 
NOAA, National Science Foundation, National Aeronautics and Space 
Administration, Department of the Interior, Environmental Protection 
Agency, Department of State, and the U.S. Navy. The interagency working 
group is working to further interagency ocean acidification planning 
and to establish mechanisms to share and exchange information on agency 
ocean acidification activities.

    Question 10. The Ocean Policy Task Force Interim Report calls for a 
special emphasis on strengthening Federal and non-Federal ocean 
observing systems, sensors, and data collection platforms, integrating 
these components into a national system, and integrating that national 
system into observation efforts at the international level. How will 
NOAA use its authority under the Integrated Coastal and Ocean Observing 
Act to strengthen ocean observations?
    Answer. As the lead Federal agency for the implementation and 
administration of the National Integrated Coastal and Ocean Observation 
System established in the Integrated Coastal and Ocean Observation 
System Act of 2009 (Act), NOAA is collaborating with its Federal and 
non-Federal partners to build a robust national Integrated Ocean 
Observing System (IOOS). For example, NOAA is working to integrate 
coastal and ocean observing capabilities among Federal agencies, and 
the U.S. Army Corps of Engineers placed a permanent employee in the 
U.S. IOOS office at NOAA to facilitate this effort. In addition, NOAA 
continued a competitive, merit-based funding process in FY 2009 to 
enhance regional observing systems and achieve three long-term goals: 
(1) establish coordinated regional observing and data management 
infrastructures; (2) develop applications and products for regional 
stakeholders; and (3) craft regional and national data management and 
communications protocols.
    In order to realize the full potential of the national IOOS 
envisioned in the Act, NOAA is working closely with its partners to 
create a well-coordinated, national network of observation strategies 
and systems; identify gaps in our Nation's ocean observing 
capabilities; and provide information needed to help decision-makers 
improve safety, enhance the economy, and protect the environment. The 
Act establishes a legal framework for achieving these objectives and 
also supports the use of basic and applied research to develop, test, 
and deploy improved and innovative observing technologies, modeling 
systems, and other scientific and technological capabilities. NOAA 
plays a leadership role in coordinating and implementing the U.S. IOOS, 
and is collaborating with international partners to integrate U.S. 
ocean observations into the Global Ocean Observing System, which is the 
ocean component of an even larger network known as the Global Earth 
Observation System of Systems.

    Question 11. Earlier this year, you announced the creation of a 
Catch Shares Task Force. Will NOAA be issuing an interim report from 
that Task Force? What steps is NOAA taking to ensure that this process 
integrates the findings and recommendations of the Ocean Policy Task 
Force and vice versa?
    Answer. NOAA released a draft catch share policy for public review 
and comment on December 10, 2009. The comment period will last 120 days 
and NOAA will be meeting with each Regional Fishery Management Council 
and stakeholder groups during this period to solicit input and 
feedback. The Interagency Ocean Policy Task Force issued its interim 
report on ocean governance in September and held a 30 day comment 
period; a final report and recommendations are still pending. NOAA 
shared the draft catch share policy with the Ocean Policy Task Force, 
and NOAA members on the Ocean Policy Task Force have been directly 
involved in the formulation of the draft catch share policy. The draft 
NOAA catch share policy comment period is sufficiently long enough to 
ensure any final Ocean Policy Task Force findings and recommendations 
from the President and/or the Council on Environmental Quality will be 
accounted for in the final NOAA catch share policy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Jane Lubchenco
    Question 1. What is the NOAA's vision for rebuilding our Nation's 
fisheries, both using its own authorities and working in collaboration 
with the other member agencies of the Interagency Ocean Policy Task 
Force? What barriers exist to implementing strategies to restore 
fisheries?
    Answer. The Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (MSA) mandate to rebuild overfished stocks was 
enacted in 1996, and the first rebuilding plans under the new law came 
into place in the late 1990s. Currently, we have 51 active rebuilding 
plans. Sixteen other plans have resulted in successful rebuilding of 
overfished fish stocks.
    NOAA's Fisheries Service continues to work with the Regional 
Fishery Management Councils to implement the rebuilding provisions of 
the MSA. The most important factor in rebuilding most overfished stocks 
is adequate control of fishing mortality. NOAA's Fisheries Service 
believes that the annual catch limit and accountability measures 
required by MSA, which will be implemented in all fisheries by 2011, 
will improve our ability to prevent overfishing and achieve rebuilding 
goals.
    However, there are other factors that affect fishery sustainability 
that are more difficult for fishery managers to control, particularly 
as it relates to factors related to non-fishing impacts to habitat and 
upland sources of habitat degradation. For example, effective 
management of activities that affect the quantity or quality of 
important habitat, particularly areas needed for successful 
reproduction and early life stages, is essential both to rebuilding and 
to long term sustainability of fisheries. NOAA believes ocean policies 
should ensure that protection of essential fish habitat is given high 
priority in ocean planning efforts. In addition, NOAA, together with 
the Department of the Interior and the Environmental Protection Agency, 
is working to conserve coastal and estuarine habitats that are vital to 
spawning and juvenile fish rearing. The National Ocean Council 
structure could help achieve such objectives.
    Rebuilding is particularly complicated in fisheries where 
significant mortality occurs from international fishing, or fishing in 
state or territorial waters, and where there is lack of agreement on 
rebuilding goals or management measures among the various 
jurisdictions. The National Ocean Council forum, which brings together 
agencies and also is intended to reach out to state, tribal, and local 
authorities, and regional governance structures, may serve a valuable 
role in allowing such issues to be raised in the context of national 
objectives for coastal and ocean environmental and economic 
sustainability.

    Question 2. Will the Task Force's efforts to improve coordination 
of Federal ocean management authorities help to clarify the appropriate 
authorities for permitting offshore aquaculture operations? How is NOAA 
moving forward to work with the Minerals Management Service and other 
agencies to clarify its authority over pending offshore aquaculture 
proposals?
    Answer. The improvements in Federal ocean management and 
coordination called for in the interim report of the Interagency Ocean 
Policy Task Force would help advance NOAA's goal of achieving a 
coordinated national approach to regulating aquaculture in Federal 
waters. NOAA is currently developing a national aquaculture policy that 
will take into account the need for a transparent regulatory structure 
that: (1) clarifies the authorities of NOAA and other Federal agencies 
under multiple statutes; and (2) provides a coordinated Federal 
regulatory process that will both protect the environment and provide 
regulatory certainty to enable sustainable aquaculture to develop in 
Federal waters. In addition to the national aquaculture policy, NOAA 
has worked with the Interagency Ocean Policy Task Force to develop a 
draft recommended framework for effective coastal and marine spatial 
planning that will address activities and uses like offshore 
aquaculture. This Interim Framework for Effective Coastal and Marine 
Spatial Planning is out for public comment until February 12, 2010, 
after which the recommendations will be finalized for the President.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Hon. Jane Lubchenco
    Question 1. In your prepared remarks: you say if the Oceans Task 
Force recommendations are adopted, it ``could require NOAA to modify 
and re-prioritize some of its missions and data gathering 
responsibilities.'' What modifications and reprioritization do you 
envision? How will this affect current NOAA duties in fisheries 
research and management? How will this reprioritization affect budgets?
    Answer. The Interagency Ocean Policy Task Force's Interim Report 
contains an implementation strategy that proposes nine priority 
objectives. The first four, which together frame How We Do Business, 
represent overarching ways in which the Federal Government must operate 
differently or better to improve stewardship of the ocean, our coasts, 
and the Great Lakes (ecosystem-based management, coastal and marine 
spatial planning, inform decisions and improve understanding, and 
coordinate and support). The implementation strategy also identifies 
five Areas of Special Emphasis, each of which represents a substantive 
area of particular importance to achieving the National Policy. These 
priority areas of work seek to address some of the most pressing 
challenges facing the ocean, our coasts, and the Great Lakes 
(Resiliency and adaptation to climate change and ocean acidification, 
regional ecosystem protection and restoration, water quality and 
sustainable practices on land, changing conditions in the Arctic, and 
ocean, coastal, and Great Lakes observations and infrastructure).
    For each of these priority objectives, the National Ocean Council 
(NOC) would be responsible for, and oversee development of, a strategic 
action plan within six to twelve months from its establishment. Each of 
these plans would focus on the obstacles and opportunities for each 
objective but would also include, among other things: (1) explicit 
identification of key lead and participating agencies; (2) 
identification of gaps and needs in science and technology; and (3) 
identification of potential resource requirements and efficiencies 
along with steps for integrating or coordinating current and out-year 
budgets.
    It is possible that NOAA, working in coordination with the other 
agencies on the NOC to develop and implement these strategic action 
plans, may be required to make some changes or adjust priorities. 
However, until this planning takes place, it is unclear what the 
specific needs will be and whether NOAA would be required to make any 
adjustments (within its existing legislative mandates and 
responsibilities) to meet those needs.

    Question 2. Additionally, you say the policy will require ``Line 
office elements of NOAA to focus on working with the many external 
partners to support ecosystem-based management of the oceans.'' Which 
external partners are you talking about, what are their roles and 
responsibilities, how will they interact with Federal entities already 
working on ecosystem management such as regional fishery management 
councils?
    Answer. Using an ecosystem-based approach to management is not new 
to NOAA. NOAA currently collaborates with many external parties, such 
as those from academia, local and state governments, tribal 
governments, industry and non-governmental organizations, to better 
understand our ocean, coastal and Great Lakes ecosystems and human uses 
of these ecosystems. The statement you refer to simply reflects the 
need to continue to reach out to partners and work cooperatively 
together in order to leverage resources to support our information 
needs for ecosystem-based management.

    Question 3. I am a strong supporter of ensuring that development in 
our oceans is responsible and based on the best available scientific 
information. In your comments on the upcoming Minerals Management 
Service leasing plan you wrote ``NOAA believes that no leasing should 
occur in the Arctic Seas . . . until additional information is gathered 
and additional research is conducted and evaluated regarding oil spill 
risk, response and preparedness to spills; and possible human dimension 
impacts from oil and gas exploration activities and potential oil 
spills.'' While I support such research as we move forward to 
responsibly develop domestic energy reserves, I am concerned that 
bringing our leasing program to a halt will hinder our ability to 
provide for the Nation's energy security. How do you justify a complete 
halt to leasing activity? Since scientists are always asking tough 
questions to improve our knowledge, what level of science is enough to 
proceed? At what point do we decide that enough science has been 
produced?
    Answer. On September 21, 2009, NOAA responded to the Minerals 
Management Service request for comments on the Draft Proposed Outer 
Continental Shelf Oil and Gas Leasing Program for 2010-2015 (DPP). This 
response was intended as a set of informal comments that transmitted 
our initial thoughts regarding the DPP, and to initiate a dialogue 
between the agencies on the issues identified. Since September, 
multiple meetings have been held between NOAA and Department of 
Interior leadership to discuss these and other important issues related 
to oil and gas leasing on the Outer Continental Shelf (OCS). NOAA 
appreciates the chance to work closely with the Department of the 
Interior to ensure that decisions concerning energy exploration and 
development on the OCS are based on adequate and sound science, and 
afford an appropriate level of protection to NOAA's trust resources.
    NOAA believes that it is important to take a precautionary and well 
planned approach to potential development in the region due to the 
sensitivity of the Arctic environment and the significant stress that 
climate change places on systems and natural resources. A higher level 
of scientific knowledge about the Arctic ecosystem is critical to 
better understanding of the potential impacts of Federal Government 
management actions on Arctic ecosystem functions and services. NOAA has 
a direct programmatic interest in the region based on our living marine 
resource, coastal management, and oil spill response responsibilities. 
Our comments focus on this concern and the need to improve our 
understanding of the fragile and rapidly changing Arctic ecosystem, our 
ability to respond to potential Arctic oil and chemical spills, and our 
ability to measure the ecosystem impacts of development in the region. 
The Administration has an important focus on growing the blue-green 
economy and domestic energy sources, and we also have a responsibility 
to help shape that objective in a strategic and precautionary fashion 
in order to do the most we can to avoid future environmental 
catastrophes. Targeting the needs, gathering additional science related 
to the Arctic ecosystems, as well as improving oil spill response 
capabilities in the Arctic, are critical to enabling responsible 
development to proceed.

    Question 4. In your September 21 letter to the MMS, you also 
recommend that further OCS leasing should be put on hold until the 
Ocean Policy Task Force has released its recommendation and directives 
and a comprehensive Marine Spatial Plan is complete. What time-frame do 
you envision for completion of the spatial plan? How will halting the 
lease schedule until it is complete affect our Nation's ability to 
responsibly develop domestic energy reserves?
    Answer. As required by the President's Memorandum, the Interagency 
Ocean Policy Task Force's recommendations on a draft Framework for 
Effective Coastal and Marine Spatial Planning was delivered to the 
President on December 9, 2009 and has now been released for 60 days of 
public comment. Following this period, the recommendations will be 
finalized for the President. The comments offered by NOAA to the 
Department of the Interior were intended as a set of informal comments 
that transmitted our initial thoughts regarding the draft proposed 
program. NOAA did not intend for the response to be viewed as a formal 
set of comments, or for the response to be included as part of the 
public record. Instead, the response was intended to initiate a 
dialogue between the agencies on the issues identified.

    Question 5. I am a supporter of the need to bring more science to 
the challenges our oceans face, especially in the Arctic, but have yet 
to see a roadmap of just who is doing what there. To that end I 
introduced S. 1562, the Arctic Ocean Research and Science Policy Review 
Act that calls for a National Academy review of work underway and 
analysis of gaps in our scientific understanding. Could you comment on 
the need for such a review and gap analysis?
    Answer. NOAA strongly agrees that there is a critical need for 
improved scientific information and baselines for understanding and 
evaluating climate change and its effects as well as impacts from 
increased human uses of the Arctic. Efforts to conduct a gap analysis 
and establish a more cohesive, coordinated, and integrated approach 
toward Arctic research could be very beneficial to the U.S. and 
international community. Commerce and other interested agencies are 
reviewing S. 1562.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Hon. Jane Lubchenco
    Question 1. I recently learned that you sent a letter on September 
21, 2009, after having sent comments on September 9, 2009, to the 
Minerals Management Service urging the Interior Department to 
drastically reduce plans in the Draft Proposed Outer Continental Shelf 
Oil and Gas Leasing Program (DPP) to open new areas to offshore oil and 
gas development. This letter also stated your position that the DPP 
should be consistent with the recommendations of the Ocean Policy Task 
Force and include marine spatial planning.
    (a) Does the letter dated September 21 and the comments dated 
September 9 represent NOAA's official position on the DPP?
    Answer. On September 21, 2009, NOAA responded to the Minerals 
Management Service request for comments on the Draft Proposed Outer 
Continental Shelf Oil and Gas Leasing Program for 2010-2015 (DPP). This 
response was intended as a set of informal comments that transmitted 
our initial thoughts regarding the DPP. NOAA did not intend for the 
response to be viewed as a formal set of comments, or for the response 
to be included as part of the public record. Instead, the response was 
intended to initiate a dialogue between the agencies on the issues 
identified. Since September, multiple meetings have been held between 
NOAA and Department of the Interior leadership to discuss these and 
other important issues related to oil and gas leasing on the Outer 
Continental Shelf (OCS). NOAA appreciates the chance to work closely 
with the Department of the Interior to ensure that energy exploration 
and development on the OCS is based on sound science and affords an 
appropriate level of protection to NOAA's trust resources.

    (b) Were these formal or informal interagency comments?
    Answer. As noted in (a) above, the response was intended as a set 
of informal comments.

    (c) Are these comments on the official docket within the DPP 
comment period? Is it proper for an agency to base any formal policy or 
rulemaking on informal comments, where the public has had no official 
venue to view or respond to such comments?
    Answer. NOAA defers the question as to whether the comments are on 
the official docket to the Department of the Interior.
    A Federal agency may, as part of the inter-agency review and 
comment process, consider informal comments submitted by another 
Federal agency even though those comments have not been made available 
for public review. Comments of this type would likely be treated as 
interagency communications of a pre-decisional/deliberative nature and 
may be withheld from public review.

    (d) Do you intend to make NOAA's comments on the DPP available to 
the public?
    Answer. Because these comments were developed as part of an ongoing 
discussion with another Federal agency, NOAA does not currently plan to 
release them to the public.

    (e) How would you incorporate the Ocean Policy Task Force 
recommendations in the DPP?
    Answer. The proposed recommendations found in the Interagency Ocean 
Policy Task Force's Interim Report and Interim Framework for Effective 
Coastal and Marine Spatial Planning have not yet been finalized. It 
would be inappropriate for NOAA to speculate on how and when the 
President would choose to act upon the Task Force's final 
recommendations, once completed, and how existing processes would then 
be incorporated into their implementation.

    Question 2. Do you view marine spatial planning as a tool to create 
and identify new marine reserves?
    Answer. Coastal and marine spatial planning is a tool to achieve 
ecological, economic, and social objectives. Such planning is intended 
to allow for the reduction of cumulative impacts from human uses on 
marine ecosystems, provide greater certainty for the public and private 
sector regarding new investments, and reduce conflicts among uses. As 
part of the planning process, areas of special ecological significance 
could be identified and considered for additional protection when 
weighed against other planning objectives. In addition, as part of any 
planning process, consideration of specific activities and uses, or any 
combination of activities or uses, should involve a transparent, public 
process to ensure stakeholders have the opportunity to provide input.

    Question 3. Currently, the Fishery Management Councils have the 
authority to regulate the fisheries in our Exclusive Economic Zone. 
However, they have very limited authority to regulate fisheries in 
marine reserves, such as sanctuaries. If you create new marine 
reserves, who would have the primary authority to regulate the 
fisheries within the reserve boundaries?
    Answer. The Magnuson-Stevens Fishery Conservation and Management 
Act (MSA) is the primary authority for management of Federal fisheries 
in the U.S. Exclusive Economic Zone. Pursuant to the MSA, NOAA's 
National Marine Fisheries Service (NMFS) manages our Nation's domestic 
fisheries through fishery management plans and regulations. While 
fishery management councils (FMC) do not have regulatory authority, the 
MSA requires that, in most cases, management decisions be based on 
recommendations from the FMCs.
    The MSA establishes a framework for the conservation and management 
of fisheries, which includes preventing overfishing and recovering 
overfished stocks, achieving optimum yield, using the best available 
science, minimizing bycatch, and protecting habitat, among other 
things. The MSA authorizes FMCs to recommend and NMFS to implement 
zones where fishing is limited or prohibited, and to take various 
actions to conserve target and non-target species and habitat.
    Using a transparent public process, national marine sanctuaries are 
designated by NOAA to protect and comprehensively manage areas of the 
marine environment that are of special national significance. Under the 
National Marine Sanctuaries Act (NMSA), NOAA is authorized to regulate 
fishing and non-fishing activities. The NMSA requires that NOAA provide 
the relevant FMC with an opportunity to prepare draft NMSA fishing 
regulations when NOAA determines that such management measures are 
necessary in the Exclusive Economic Zone portion of these areas. To 
date, only a few national marine sanctuaries have areas within them 
where fishing and other forms of extraction are prohibited. Currently, 
there are no sanctuaries that are completely closed to all forms of 
extraction.
    NOAA considers both the NMSA and the MSA as tools that could be 
used exclusively or in conjunction to meet the goals and objectives of 
the national marine sanctuaries, including objectives related to the 
establishment of marine reserves. Each national marine sanctuary is 
unique, and the regulatory options are evaluated by NOAA on a case-by-
case basis to determine which mechanism is most appropriate to meet the 
stated goals and objectives of a sanctuary. National marine sanctuaries 
are established by NOAA through a highly transparent process that 
affords the public numerous opportunities to participate in the 
creation, and subsequent management, of the sanctuaries. This process 
allows for input into the articulation of a proposed sanctuary's goals 
and objectives prior to its establishment. Similarly, NOAA's management 
plan review process allows for additional public input in subsequent 
stages of a sanctuary's lifespan.
    In an effort to better communicate NOAA's decision-making processes 
and improve coordination, NOAA has produced internal operational 
guidelines that clearly explain the process for deciding under what 
authority fishing regulations within sanctuaries will be effectuated. 
The guidelines also describe the roles that FMCs, federally-recognized 
Indian Tribes, state and Federal agencies, sanctuary advisory councils, 
sanctuary users, and other interested parties play in this process. The 
guidelines are available on NOAA's website at: http://
sanctuaries.noaa.gov/library/national/fishing_071708.pdf.

    Question 4. The Interim Report proposes several new concepts to be 
used in ocean governance that have not been defined.
    (a) How would you define Marine Spatial Planning?
    Answer. The Interagency Ocean Policy Task Force's December 9, 2009, 
Interim Framework for Effective Coastal and Marine Spatial Planning 
defines coastal and marine spatial planning (CMSP) as, ``A 
comprehensive, adaptive, integrated, ecosystem-based, and transparent 
spatial planning process, based on sound science, for analyzing current 
and anticipated uses of ocean, coastal, and Great Lakes areas. CMSP 
identifies areas most suitable for various types or classes of 
activities in order to reduce conflicts among uses, reduce 
environmental impacts, facilitate compatible uses, and preserve 
critical ecosystem services to meet economic, environmental, security, 
and social objectives. In practical terms, CMSP provides a public 
policy process for society to better determine how the ocean, coasts, 
and Great Lakes are sustainably used and protected now and for future 
generations.'' NOAA supports this definition.

    (b) Could you please define ecosystem based management?
    Answer. Ecosystem-based management is place-based or area-based and 
aims to: (1) protect ecosystem structure, functioning, and processes; 
(2) recognize the interconnectedness within and among systems; and (3) 
integrate ecological, social, economic, and institutional perspectives. 
NOAA's ecosystem approach to management is:

  <bullet> Adaptive: Management strategies are tailored to unique 
        conditions and issues, and strategies are adapted and combined 
        for an integrated approach.

  <bullet> Collaborative: Mechanisms are in place to share information 
        and receive feedback from others, and stakeholder input is 
        considered in decision-making within joint strategies.

  <bullet> Incremental: Ecosystem-scale information continues to 
        improve as techniques and tools are developed in research, 
        observations, forecasting, and management.

  <bullet> Regionally directed: A joint strategy plan with stakeholders 
        is based on NOAA's 10 regional ecosystems to meet desired 
        ecosystem productivity and benefits.

  <bullet> Adaptable given ecosystem knowledge and uncertainty: Our 
        marine resources are complex and dynamic; ecosystem approaches 
        to management recognize that individual resources are better 
        managed by addressing ecosystem components and processes while 
        looking at cumulative impacts.

  <bullet> Inclusive of multiple external influences: Ecosystem 
        approaches to management encourage decisions based on 
        environmental, social, and political factors.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                          Hon. Jane Lubchenco
    Question 1. Recently, the Secretary received a letter from four 
Gulf Governors (attached) describing their dissatisfaction with 
existing catch shares; with your general policy on catch shares; and 
with the contact you have had with them. What do you intend to do about 
that letter?
    Answer. The Governors of Texas, Alabama, Mississippi, and Louisiana 
wrote to the Secretary expressing their concern about the possible 
impacts of catch share fisheries management programs on Gulf of Mexico 
recreational anglers. They requested each of the Gulf States serve a 
key role in the decision process as to which fisheries will have a 
catch share program, how they are structured, and how related 
commercial fishery and allocation policy decisions are made.
    On December 10, 2009 NOAA issued a draft policy statement on catch 
shares and is soliciting public input for 120 days. Catch share 
programs have been shown to provide significant environmental and 
economic benefits when applied to suitable fisheries, but they are not 
a panacea for all fisheries. Although the draft policy encourages the 
regional Fishery Management Councils (Councils) to consider catch 
shares as a management option where appropriate, the Councils are not 
obligated to adopt catch shares for either the commercial or 
recreational sectors. Consistent with the Magnuson-Stevens Fishery 
Conservation and Management Act, Councils will need to evaluate the 
data, impacts, and enforceability of any potential catch share program 
prior to moving forward. Prior to the release of the draft policy, the 
Secretary responded to the Governors inviting them to actively engage 
in the draft NOAA catch share policy comment process and to help 
maintain open communications on these important recreational issues.
    The reply also acknowledged that allocations between commercial and 
recreational fisheries are a significant concern of the recreational 
constituency. Catch shares, annual quotas, and days-atseas are among 
the many means to distribute the independently-determined allocation of 
the available catch among participants. In cooperation with the angling 
community, Councils, and states, NOAA's National Marine Fisheries 
Service will coordinate a recreational fisheries summit early next year 
to address allocation issues and other topics of concern to the 
recreational fishing community. Each state's active participation in 
this summit was requested. In addition, we encourage continued 
engagement by each state's fisheries director, each of whom is a voting 
member of the Gulf Council--where catch share allocation decisions are 
made.

    Question 2. In addition, can you please share with me NOAA's 
internal proposals for regional planning in the Gulf of Mexico. Whether 
the proposals are in the planning stage or simply internal discussions, 
please include: (1) catch share proposals, (2) aquaculture proposals, 
and (3) any plans involving any form of zoning or in any way limiting 
access to resources for any group of constituents.
    Answer. NOAA has authorities and requirements to manage ocean 
spaces through its national marine sanctuaries, estuarine research 
reserves, area-based fisheries, protected resource program, and system 
of Marine Protected Areas (MPA). NOAA protects vulnerable places 
primarily through National Marine Sanctuaries under the National Marine 
Sanctuaries Act, fishery management policies under the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA), and critical habitat 
designations under the Endangered Species Act (ESA).
    Under the MSA, the regional Fishery Management Councils (Councils) 
are responsible for considering the appropriateness of catch share 
programs, and deciding which, if any, sectors may benefit from their 
use. NOAA is not requiring catch shares in any fishery nor is NOAA 
setting any target number or quota for their usage. NOAA will help 
interested Councils, states, communities, fishermen and other 
stakeholders to organize collaborative efforts to design and implement 
catch share programs that meet their needs.
    In September 2009, the Fishery Management Plan for Regulating 
Offshore Marine Aquaculture in the Gulf of Mexico (Gulf FMP) took 
effect by operation of law. While the Gulf FMP does not identify 
specific areas for aquaculture development, it does prohibit 
aquaculture operations in Federal waters of the Gulf of Mexico that 
encompass marine protected areas, marine reserves, Habitat Areas of 
Particular Concern, Special Management Zones, permitted artificial reef 
areas, and coral reef areas. Under the Gulf FMP, NOAA's National Marine 
Fisheries Service (NMFS) would evaluate all proposed sites on a case-
by-case basis. An aquaculture facility would be required to obtain a 
Section 10 Permit for the site from the Army Corps of Engineers (USACE) 
and a restricted access zone would be created around each facility that 
corresponds to the coordinates specified in the USACE Permit. 
Implementing regulations for the Gulf FMP are in review and NMFS is not 
accepting applications for aquaculture operations in the Gulf at this 
time. NOAA is currently drafting a national policy for aquaculture, 
which will address issues related to aquaculture operations in Federal 
waters. NMFS will examine the Gulf FMP in the context of that policy 
once it is developed.
    In December of 2007, the Flower Garden Banks National Marine 
Sanctuary Advisory Council voted to extend sanctuary protections to 
nine additional banks and reefs in the northwestern Gulf of Mexico. The 
advisory council includes members of several different stakeholder 
groups including oil and gas, commercial and recreational fishing, and 
diving. NOAA is now actively working with the advisory council and 
other stakeholders in the Gulf of Mexico region to evaluate and 
carefully consider this recommendation. We anticipate publishing a 
draft environmental impact statement later in 2010.

    Question 3. It is clear to anyone paying attention that next summer 
a series of major fishery resource closures will occur in the 
Southeast. What are you doing to do to avoid this?
    Answer. The Magnuson-Stevens Fishery Conservation and Management 
Act (MSA) requirements to specify annual catch limits (ACL) for each 
managed fishery, and ensure catches do not exceed ACLs, require NOAA's 
National Marine Fisheries Service (NMFS) to closely monitor catches 
relative to ACLs and act quickly to prevent or mitigate ACL overages. 
Seasonal closures generally result when the commercial or recreational 
sector has harvested the ACL prior to the established season end date.
    The Gulf of Mexico Fishery Management Council (Gulf Council) and 
NMFS continue to explore alternative management strategies to reduce 
the likelihood of unexpected seasonal closures as we work to comply 
with these new MSA mandates. Unfortunately, extending the duration of 
the fishing season generally requires further limits on the catches of 
individual fishermen (e.g., through restrictive trip limits, minimum 
size limits, bag limits, etc.), and such limitations are often viewed 
as an unacceptable tradeoff.
    The Gulf Council has addressed this problem in some fisheries 
through the use of catch share programs, which ensure eligible 
participants the opportunity to catch a specific proportion of the ACL 
during the time of year that best meets their needs. However, such 
programs are not appropriate for all fisheries and are particularly 
difficult to apply in recreational fisheries where participation is 
generally unrestricted. However, the Gulf Council recently formed an Ad 
Hoc Advisory Panel consisting of commercial and recreational 
representatives to consider catch share issues in both sectors of the 
reef fish fishery. Also, some Gulf Council members have met informally 
with for-hire fishermen and private anglers to discuss potential catch 
share alternatives for the recreational sector.

    Question 4. Please identify which Environmental NGO's have been 
party to NOAA discussions regarding catch share and aquaculture 
policies in the Gulf of Mexico over the last 6 months.
    Answer. NOAA's National Marine Fisheries Service (NMFS) informally 
communicates with environmental non-governmental organizations (ENGO), 
industry, academia, and members of the general public at Gulf of Mexico 
Fishery Management Council (Council) meetings. The following parties 
routinely send representatives to Council meetings:

  <bullet> Environmental Defense Fund

  <bullet> Food and Water Watch

  <bullet> Oceana

  <bullet> Ocean Conservancy

  <bullet> Pew Environment Group

  <bullet> Coastal Conservation Association

  <bullet> Southern Shrimp Alliance

  <bullet> Southern Offshore Fishing Association

  <bullet> Several for-hire fishing associations
Catch Shares
    On July 23, 2009, Ms. Monica Medina, Special Advisor to NOAA 
Administrator Dr. Jane Lubchenco and chairperson of NOAA's Catch Share 
Task Force, held an informational briefing with approximately 17 ENGO's 
on NOAA's plan to issue a draft policy on catch shares. Similar 
briefings were held with representatives of commercial and recreational 
stakeholder groups. Summaries of the briefings and a list of attendees 
are posted on the Internet under the title ``Summaries of Stakeholder 
Sessions'' at http://www.nmfs.noaa.gov/sfa/domes_fish/catchshare/
index.htm.
    On September 11, 2009, Dr. Jim Balsiger, NMFS Acting Assistant 
Administrator, met with members of the Marine Conservation Network, a 
group of ENGO's in the Washington, D.C. area. During this regularly 
scheduled meeting, a status report was provided to the group on 
progress on the draft NOAA catch shares policy.
    Additionally, the ENGO's present at Council meetings heard NMFS 
updates on the NOAA Catch Share Task Force/draft policy and on agency 
activities to implement the Council's proposed individual fishing quota 
program for Gulf of Mexico grouper and tilefish. Two ENGO's 
(Environmental Defense Fund and Ocean Conservancy) participated along 
with NMFS staff in a July 2009 recreational catch share workshop 
organized by several Council members.
    The draft NOAA catch share policy currently is available for public 
comment period.
Aquaculture
    NMFS has not communicated with ENGO's, industry groups, academia, 
or other interested parties since the Council approved its proposed 
Offshore Aquaculture Fishery Management Plan (FMP) in January 2009 for 
Secretarial review and approval. However, the following ENGO's, 
industry groups, academics, and other parties provided NMFS comment 
letters prior to final agency action on the FMP:

  <bullet> Food and Water Watch

  <bullet> Humane Society of the United States

  <bullet> National Coalition for Marine Conservation

  <bullet> Ocean Conservancy

  <bullet> Environmental Protection Agency

  <bullet> Minerals Management Service

  <bullet> 37 Members of Congress (submitted by Lois Capps, D-CA)

  <bullet> Mike Thompson, Member of Congress (D-CA)

  <bullet> Chairman, House Committee on Natural Resources

  <bullet> Aqua Terra Strategies

  <bullet> United Cook Inlet Drift Association

  <bullet> American Veterinary Medical Association

  <bullet> Division of Aquaculture, Florida Department of Agriculture 
        and Consumer Services

  <bullet> Southern Shrimp Alliance, Inc.

  <bullet> American Soybean Association

  <bullet> Ocean Stewards Institute

  <bullet> Lindgren-Pitman, Inc.

  <bullet> East Coast Shellfish Growers Association

  <bullet> Cordova District Fishermen United

  <bullet> Rosamund Naylor (Stanford University), Felicia Coleman 
        (Florida State University Coastal and Marine Laboratory), Ian 
        Fleming (Memorial University of Newfoundland), L. Neil Frazer, 
        (University of Hawaii at Manoa), Les Kaufman (Boston 
        University), Jeffrey R. Koseff (Stanford University), John 
        Ogden (University of South Florida), Laura Petes (Florida State 
        University Coastal and Marine Laboratory), Amy Sapkota 
        (University of Maryland College Park), Les Watling (University 
        of Hawaii at Manoa)

  <bullet> Form letters and other comments (900+) were also submitted 
        by members of the general public.

    NMFS's Assistant Administrator, Dr. Jim Balsiger, contacted the 
following ENGO's on September 3, 2009, to advise them of the agency's 
decision to allow the FMP to take effect by operation of law:

  <bullet> Food & Water Watch

  <bullet> Marine Fish Conservation Network

  <bullet> National Coalition for Marine Conservation

  <bullet> Oceana

  <bullet> Ocean Conservancy

    On October 2, 2009, Food and Water Watch, Gulf Restoration Network, 
Inc., and Ocean Conservancy filed two separate complaints challenging 
the FMP in U.S. District Court.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Admiral Thad W. Allen
    Question 1. The Interim Report emphasizes the importance of 
addressing the environmental stewardship needs in the Arctic Ocean and 
adjacent coastal areas. You and I have discussed on a number of 
occasions the critical importance of the Coast Guard's polar icebreaker 
capabilities in the Arctic Region--in terms of national security and 
assertion of U.S. sovereignty; in dealing with the inevitable race to 
exploit the wealth of natural resources; and in providing us with the 
ability to perform meaningful research on global climate change.
    Could you please describe the changes that the Coast Guard is 
witnessing in the Arctic Ocean and the implications it has for the 
Coast Guard? Can any National Ocean Policy succeed in environmental 
stewardship of the Arctic without an increase in the number of vessels 
capable of sustained Polar operations? Do you feel that a comprehensive 
approach to assessing, planning and managing marine resources in that 
region would help current and emerging threats to that region?
    Answer. The region north of the Arctic Circle contains over 2,500 
nautical miles of U.S. coastline. Historically, that region's harsh 
environment and frozen polar icecap has facilitated our security by 
acting as an obstacle to trade and exploitation. This is changing. The 
extent of the area and thickness of the permanent ice cover in the 
Arctic has decreased dramatically in recent years.
    The growing global demand for new sources of energy and technology 
coupled with the reduction in sea ice now allows for exploration of 
parts of the region previously inaccessible. Warming ocean water 
temperatures are also affecting the distribution of some fish stocks by 
causing them to migrate north in search of new cold-water habitats and 
potentially creating more favorable fishing conditions in the region. 
The world increasingly relies on the maritime domain to support the 
global supply chain, and the potential exists for the Arctic to become 
a strategic link. This past summer, two German-flagged heavy-lift 
vessels took advantage of the much shorter transit from Asia through 
Russia's Northern Sea Route to transport industrial equipment to 
Siberia and on to Europe.
    The Coast Guard, as the principal Federal maritime enforcement 
agency with broad safety, security, and stewardship missions throughout 
the U.S. Exclusive Economic Zone, has already begun looking at ways to 
improve and better sustain operations in the Arctic region. The Coast 
Guard is currently undertaking a comprehensive review of its statutory 
missions and regulatory responsibilities in the Arctic to determine its 
requirements to support the objectives and implementation tasks 
contained in NSPD-66/HSPD-25, to include the work of the Interagency 
Ocean Policy Task Force. The Coast Guard will continue to work with 
other Federal agencies and Arctic nations through the Arctic Council, 
the International Maritime Organization (IMO) and other international 
forums to develop solutions to overcome challenges in the region.
    A comprehensive, national approach, properly prioritized, planned, 
and supported, would help promote the entire spectrum of U.S. national 
interests in the Arctic region. Such a national approach should 
consider sustainable resource development, environmental protection, as 
well as other emerging economic, national, and homeland security 
concerns.

    Question 2. One criticism of the Interim Report from the commercial 
sector is that it shifts the ``balance'' toward environmental 
stewardship priorities over economic demands. One of the nine 
recommended principles for a national ocean policy is that decision-
making will be guided by a precautionary approach. Can the 
precautionary approach be adopted as a feature of our national ocean 
policy without bringing use of marine resources to a halt? Could you 
explain how the Coast Guard would apply the precautionary approach, and 
how it would change how you do business?
    Answer. The Interim Report responds to the President's June 12, 
2009 memorandum directing the Task Force to develop recommendations to 
``improve stewardship of the ocean, our coasts, and the Great Lakes''. 
Improved stewardship will support not only healthier and more resilient 
ocean, coastal, and Great Lakes ecosystems and services, but also 
benefit the economies (e.g., commercial and recreational activities) 
and communities that rely on them. The Task Force believes that 
economic growth and improved stewardship of the marine and Great Lakes 
environment are inextricably linked.
    Application of a precautionary approach, as defined in the Interim 
Report (``w]here there are threats of serious or irreversible damage, 
lack of full scientific certainty shall not be used as a reason for 
postponing cost-effective measures to prevent environmental 
degradation''), is consistent with and essential for improved 
stewardship. Moreover, that definition is one to which the United 
States has formally agreed by signing and ratifying the 1992 Rio 
Declaration. We must ensure that when we enjoy and use ocean, coastal, 
and Great Lakes resources, we use the best available information to 
make management decisions and minimize adverse environmental effects.
    The vision of the national ocean policy should resonate with every 
citizen: ``An America whose stewardship ensures that the ocean, our 
coasts, and the Great Lakes are healthy and resilient, safe and 
productive, and understood and treasured so as to promote the well-
being, prosperity, and security of present and future generations.'' 
``Productive'' uses to promote the long-term ``prosperity'' of all 
Americans are key goals that the Nation should pursue in its ocean 
policy. The Coast Guard views the concept of stewardship as a rather 
broad one, transcending environmental protection and extending to the 
entire range of the best and most valuable management practices. These 
include making maximum, prudent benefit of all sustainable economic 
uses.

    Question 3. Following the release of the Interim Report, you spoke 
to its unqualified support of U.S. accession to the U.N. Convention on 
the Law of the Sea as an issue of significant importance from the Coast 
Guard's perspective. Can you please talk about why this is an important 
tool for the Coast Guard, and an important component in a National 
Ocean Policy?
    Answer. The United Nations Convention on the Law of the Sea (the 
Convention) sets forth a comprehensive legal regime governing 
activities on, over, and under the world's oceans. Joining the 
Convention significantly enhances the Coast Guard's ability to manage 
ocean resources and protect the marine environment by providing clear, 
internationally agreed-upon principles for operating in and governing 
ocean space. The Convention will enhance Coast Guard efforts to assess 
security in international shipping ports; monitor and enforce U.S. 
sovereign rights over natural resources off the U.S. coast; confront 
illegal, unregulated, and unreported fishing; protect the safety of 
life at sea; and protect the marine environment. Being an ``outsider'' 
to the Convention hampers Coast Guard negotiating positions at the 
International Maritime Organization (the IMO) as well as other forums. 
Furthermore, the Coast Guard relies heavily on freedom of navigation 
principles in the Convention.
    Consistency with international law, including the legal framework 
contained in the Convention, is a crucial requirement in the 
development of the strategic action plans for the nine priority 
objectives of the Interagency Ocean Policy Task Force's Interim Report. 
The Convention strikes a careful balance between the sovereign rights 
of coastal and port states and the navigational rights and freedoms of 
other states. The proposed National Policy can be more effective with 
the support of the legal framework contained in the Convention.

    Question 4. The Ocean Policy Task Force Interim Report calls for a 
special emphasis on strengthening Federal and non-Federal ocean 
observing systems, sensors, and data collection platforms, integrating 
these components into a national system, and integrating that national 
system into observation efforts at the international level. What role 
will the Coast Guard's maritime domain awareness capabilities play in 
this integrated system?
    Answer. The Interagency Ocean Policy Task Force's Interim Report 
provides for increasing scientific understanding of ocean and coastal 
ecosystems and awareness of all that is happening, which impact these 
waters, including human activities.
    The Coast Guard supports efforts to develop greater awareness of 
what is happening in waters subject to our jurisdiction and to provide 
interpretive products to promote our national ocean policy. A majority 
of Coast Guard operational units provide meteorological observations in 
conjunction with their normal operations, including weather, ice, and 
polar and near-Arctic observations. The Coast Guard cooperates with 
other Federal agencies, particularly through participation in the 
Interagency Working Group on Ocean Observations, and provides radio 
broadcast to mariners in accordance with an MOU with NOAA/National 
Weather Service (NWS) and in coordination with the Coast Guard/NWS 
Coordination Liaison Group. These capabilities, whether within the 
operational control of the Coast Guard or in other agencies, can help 
visualize human use and activity data on any coastal and marine spatial 
planning system that is to be developed. This will include static data 
and as well as more dynamic and timely data from MDA capabilities 
gleaned from a variety of organic and consolidated partner data 
sources. For example, the Coast Guard intends to monitor coastal and 
some oceanic vessel movements through the IMO-approved Long Range 
Identification and Tracking (LRIT) system, the Nationwide Automatic 
Identification System (NAIS), and other sensors. When possible, 
archived data will be made available to appropriate government and 
research institutions for safety and research purposes. It should be 
noted that IMO places strict controls on the dissemination of LRIT data 
outside of government, and other systems impose similar constraints. 
These and other efforts to promote MDA will enhance our national and 
homeland security interests and better enable the United States to be 
conscientious stewards of its ocean, coastal, and Great Lakes waters.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Admiral Thad W. Allen
    Question 1. What lessons has the Coast Guard learned since the 
Cosco Busan incident? What additional tools and resources could the 
Coast Guard use to better assist in cleanup and mitigation efforts?
    The San Francisco Chronicle reported the DUBAI STAR began leaking 
oil at 6:48 a.m. on October 30, 2009. Some environmental groups have 
raised concerns about the time it took the Coast Guard to begin placing 
containment booms to protect sensitive shoreline. Questions have also 
been raised about why environmentally sensitive locations such as 
Robert Crown Memorial State Beach, which was in the direct path of the 
oil, were not immediately boomed. How long did it take for containment 
booms to be put in place? What steps did the Coast Guard take 
immediately following reports of the incident? Please provide a 
timeline of the response.
    Answer. Improving Federal, State, and local government and 
stakeholder communications and coordination was a major focus following 
the COSCO BUSAN response. The recent DUBAI STAR response demonstrated 
that efforts to improve communications and coordination through 
planning activities were very effective.
    The Coast Guard and other Federal, State, and local partners 
coordinated their activities well during the DUBAI STAR response. 
During the COSCO BUSAN response, the establishment of an Incident 
Command Post (ICP) proved difficult due to lack of pre-identified ICP 
locations. As a result, a list of 50 potential Incident Command Post 
sites was created. During the DUBAI STAR response, an ICP was 
established at Sector San Francisco at 0800 (a little over an hour 
after the initial report of the incident). The Unified Command was 
established in a larger Incident Command Post on Coast Guard Island in 
Alameda by 0930 (less than 3 hours after the initial report of the 
incident) with both the Federal On-Scene Coordinator and State On-Scene 
Coordinator OSC (California Fish & Game, OSPR) present. By 1000, Coast 
Guard and California Fish & Game leadership made their appropriate 
notifications to local municipalities, including the Mayor of San 
Francisco.
    Another COSCO BUSAN lesson learned recognized that future responses 
should include a Local Government On-Scene Coordinator (LGOSC) in the 
Unified Command. The LGOSC represents the city or county, or 
potentially, multiple counties within the Unified Command. This 
position was deemed important because the San Francisco Bay, Delta and 
Central Coast Area Committee consist of 12 counties and can potentially 
cover three additional Northern California counties. During the DUBAI 
STAR response, the Unified Command LGOSC was filled by the Alameda 
County Fire Department.
    The importance of accurate oil spill quantification and subsequent 
oil spill volume reporting was also identified as a critical concern 
during the M/V COSCO BUSAN incident. During the DUBAI STAR incident, 
the initial estimate from the vessel crew was approximately one gallon. 
A final estimated spill volume of between 400-800 gallons was 
determined by USCG and California Fish and Game personnel within 5 
hours of the initial notification of the spill.
    In both the COSCO BUSAN and DUBAI STAR incidents, the Unified 
Command's response posture was based on worst case discharge scenarios. 
Response equipment was deployed based on the worst case discharge 
scenario instead of the reported spill volume. Immediately following 
the M/V COSCO BUSAN incident, the Coast Guard provided service-wide 
guidance to reinforce this response posture for future spills.
     For additional comments on lessons learned from COSCO BUSAN, we 
recommend reviewing the recent published article on the COSCO BUSAN 
response in the Fall 2009 Coast Guard Proceedings of the Marine Safety 
and Security Council magazine. This issue can be viewed at: http://
www.uscg.mil/proceedings/articles/77_Gugg
_Reflections%20on%20the%20Cosco%20Busan%20Pollution%20Response.pdf.
    The Coast Guard continuously works to improve spill response. In 
particular Coast Guard spill response initiatives are focused on 
response to High Latitude Spills, Submerged Oil, Existing Wrecks, and 
Spill Response Analysis. In particular, the Coast Guard requires 
further High Latitude spill response research due to the austere 
environment, lack of infrastructure, and the inadequate capability to 
address spills in icy conditions. As for submerged oil response, the 
capability to find and recover oil on the ocean floor is limited. While 
this type of spill is infrequent, the effects on the environment and 
impact on existing water intakes can be significant. Furthermore, there 
are thousands of submerged wrecks throughout the world containing oil 
or hazardous substances. The problems associated with old, leaking 
wrecks continue to draw international attention. The Wrecks of the 
World Conference, sponsored by the American Salvage Association and 
held in Baltimore in September 2009, was specifically organized to 
address this unique problem.
    In response to these unique spill response challenges, the Coast 
Guard is reviewing the quality and quantity of its response equipment 
to determine when new upgrades are needed or when new technology can be 
implemented. The Coast Guard has identified specific analysis and 
research areas to include: (a) localized spill detection tools, (b) 
evaluation of unknown storage containers, (c) spill recovery in adverse 
conditions (i.e., visibility, weather, fast currents), and (d) enhanced 
response tools for decisionmakers.
    The DUBAI STAR vessel agent reported the spill to the National 
Response Center at 0734 on October 30, 2009. At approximately 0920, 
containment boom was placed around the stern of DUBAI STAR and recovery 
of spilled oil commenced. Sensitive site (protection) booming was 
conducted in accordance with the Area Contingency Plan booming 
strategies. These booming strategies effectively protected all 
designated sensitive sites from oil impacts. Robert Crown Memorial 
State Beach (a sandy beach with man-made seawall improvements) is not 
designated a sensitive site per the San Francisco Area Contingency 
Plan. Several nearby shorelines, including the Alameda Eel Grass Beds 
and San Leandro Bay, were boomed by 1215 on October 30.
    Under the National Response System, the Responsible Party (spiller) 
provides notification to emergency officials, and conducts and funds 
clean-up operations for a discovered spill. When notified, the Coast 
Guard is responsible for assessing the situation and monitoring the 
speed and adequacy of the spiller's response actions. USCG Sector San 
Francisco dispatched a Station San Francisco RBS (response boat, 
small), Incident Management Response Team, and Port State Control 
personnel to investigate the reported spill. In addition, USCG Air 
Station San Francisco conducted a series of helicopter over flights 
with the Air Station and Incident Management Response Team observers to 
assess the extent of the spill.
    USCG Sector San Francisco ensured the California Emergency 
Management Agency was aware of the incident so they could make 
appropriate State and local emergency notifications. The USCG contacted 
California Fish & Game, Office of Spill Prevention and Response (OSPR) 
partners to coordinate required response and enforcement efforts. The 
Federal On-Scene Coordinator directed National Response Corporation 
Environmental Services (NRCES) to respond to the spill when it was 
determined that the Responsible Party (ship owner/operator) was not 
responding promptly in accordance with its Vessel Response Plan. Soon 
thereafter, the Responsible Party requested to assume management of the 
NRCES activation. Consequently, the Oil Spill Liability Trust Fund 
(OSLTF) did not incur costs associated with the initial Federal 
activation of NRCES.

----------------------------------------------------------------------------------------------------------------
      Time (30OCT2009)                                              Action
----------------------------------------------------------------------------------------------------------------
0400 PST                      DUBAI STAR initiated bunker (fueling) operation.
0734 PST                      DUBAI STAR vessel agent reported oil spill and sheen to the National Response
                               Center.
0737 PST                      USCG Station San Francisco small boat diverted from another case arrived on scene
                               to investigate the report; multiple small boats were launched to the scene
                               throughout the day.
0800 PST                      Initial Incident Command Post established at Sector San Francisco.
0802 PST                      USCG launched initial over flight.
0905 PST                      National Response Corporation Environmental Services personnel on scene, commenced
                               boom deployment around vessel.
0920 PST                      National Response Corporation Environmental Services completed harbor boom
                               deployment around the vessel and continued skimming operations. Containment Boom
                               was placed around the stern of T/V DUBAI STAR.
0923 PST                      USCGC HAWKSBILL en route to scene.
0930 PST                      Unified Command was established with State of CA On Scene Coordinator (Cal Fish &
                               Game, OSPR) on Coast Guard Island in Alameda.
0940 PST                      Additional response resources begin arriving and deploying containment and
                               protection boom in the vicinity of the spill in accordance with the Area
                               Contingency Plan booming strategies and Unified Command direction; boom
                               deployment continues throughout the day.
0943 PST                      USCGC PIKE arrived on scene.
1000 PST                      USCG and CA Fish & Game Leadership notified local municipalities including the
                               Mayor of San Francisco.
1001 PST                      Incident Management Team and Port State Control Inspectors arrive on scene.
1215 PST                      Boom deployment of sensitive areas complete; further boom deployment continues.
1330 PST                      Pacific Strike Team arrived at Coast Guard Island to assist in the Incident
                               Command Post.
2300 PST                      Boom deployment complete.
----------------------------------------------------------------------------------------------------------------


    Question 2. Please give the Committee the latest account of the 
events that led up to the mid-air crash between the Coast Guard 
aircraft and the Marine Corps helicopter. MSNBC reported that the 
collision occurred in military warning area airspace that is not under 
the control of the FAA. What is the protocol for Coast Guard aircraft 
operating within that airspace?
    Answer. The details leading up to the mid-air crash are still under 
investigation. The MSNBC report is correct in that the crash occurred 
in a military warning area airspace not controlled by the FAA.
    For flights into warning areas, the Coast Guard follows the 
procedures provided in the Department of Defense Flight Information 
Publication AP 1/A, Special Use Airspace in addition to following any 
instructions provided by the FAA air traffic controller. The specific 
procedures for Warning Area 291 requires military aircraft to contact 
Beaver Control (operated under U.S. Navy Fleet Area Control & 
Surveillance Facility (FACSFAC) San Diego, Ca) on frequency 266.9 or 
120.85 Mhz if north of the Mission Bay (MZB) VHF Omni-directional Radio 
Range (VOR) 247 radial or on frequency 289.9 or 118.65 Mhz if south of 
the MZB 247 radial.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Admiral Thad W. Allen
    Question 1. Ocean governance around Alaska is not strictly a 
domestic issue, especially as climate change opens more and more of the 
Arctic to international shipping. I introduced S. 1561 to implement the 
recommendations of the Arctic Council's Arctic Marine Shipping 
Assessment, including international cooperation on navigational aids in 
Arctic waters, improved Arctic navigational charts, monitoring of ocean 
conditions, improved oil spill prevention and response; search and 
rescue and maritime domain awareness, and to develop facilities for 
ship generated waste. I believe that implementing the Arctic Marine 
Shipping Assessment is important. Do you envision implementing aspects 
of the Arctic Marine Shipping Assessment through this Ocean Policy and, 
if so, how?
    Answer. Yes. The Coast Guard envisions implementing aspects of the 
Arctic Marine Shipping Assessment (AMSA) as part of the proposed 
National Policy in the Interagency Ocean Policy Task Force's Interim 
Report. The Task Force's proposed implementation strategy identifies, 
as one of the nine priority objectives, for the Nation to pursue the 
National Policy, ``Changing Conditions in the Arctic,'' and, 
specifically, to ``address environmental stewardship needs in the 
Arctic Ocean and adjacent coastal areas in the face of climate-induced 
and other environmental changes.'' The Interim Report also calls for 
``consistency and coordination with the implementation of U.S. Arctic 
Region Policy as promulgated in National Security Presidential 
Directive 66/Homeland Security Presidential Directive 25 (2009),'' 
which incorporates a number of the implementation goals and priorities 
found in AMSA.
    Moreover, the Task Force's Interim Report includes an international 
component which would facilitate the implementation of the National 
Policy. This requires coordination with matters arising within the 
International Maritime Organization (IMO), Arctic Council, and other 
international organizations. As a product of the Protection of the 
Arctic Marine Environment (PAME), a subordinate body of the Arctic 
Council, the 2009 AMSA report represents a superb example of 
international cooperation. Implementing its key recommendations will 
also require international cooperation, as well as a national 
commitment.
    The Coast Guard will continue to work with other Federal agencies 
and with other Arctic nations through the Arctic Council, the IMO, and 
other international forums to develop solutions to unresolved issues in 
the region. These issues include navigation, extended continental shelf 
determinations, resource rights, search-and-rescue and other emergency 
response capabilities, waste management, and other efforts to protect 
the fragile Arctic environment. The 2009 AMSA report identified and 
endorsed international and national efforts to tackle each of these 
issues.

    Question 2. In a similar vein, I also introduced S. 1564, the 
Arctic Oil Spill Research and Prevention Act, to improve our knowledge 
about and ability to respond to spills in broken ice conditions. As the 
Coast Guard plays a major role in oil spill research and response, can 
you comment on the need for this research?
    Answer. The findings described in Section 2 of S. 1564 provide 
context to the risk posed by oil spills in the Arctic and validate the 
need for further research. In particular, the Coast Guard requires 
further High Latitude spill response research due to the austere 
environment, lack of infrastructure, and the limited capabilities to 
address spills in icy conditions. The Coast Guard Research & 
Development (R&D) long-term strategic plan was informed by a 2004 study 
entitled ``Advancing Oil Spill Response in Ice Covered Waters.'' This 
study was produced by an international consortium of interested 
organizations under the coordination of the Prince William Sound Oil 
Spill Recovery Institute and the U.S. Arctic Research Commission.
    The USCG R&D program has identified specific areas of emphasis for 
Arctic and cold-weather response, which include: (a) detection of oil-
in-ice and under ice, (b) tracking/monitoring of oil in ice, (c) 
decision tools for Federal On scene Coordinators, and (d) removal/
recovery of oil in ice. The USCG also serves as the Chair of the 
Interagency Coordinating Committee for Oil Pollution Response (ICCOPR). 
In this capacity, the USCG shares and synchronizes its Arctic region 
R&D initiatives with those from other ICCOPR members, such as EPA, MMS, 
and NOAA. Collectively, the members follow the 1997 ICCOPR Oil 
Pollution and Research and Technology Plan and its future revisions.

    Question 3. I am a strong proponent of ratification of the Law of 
the Sea Treaty to assert our Nation's rights to the high seas and 
ensure we have a seat at the table when decisions are made about 
international claims to the extended continental shelf areas, 
especially in the Arctic where vast energy reserves are believed to 
exist. From the perspective of a National Oceans Policy, can you 
comment on the need for ratification of this treaty?
    Answer. The United Nations Convention on the Law of the Sea (the 
Convention) ensures U.S. sovereign rights over seabed resources, 
including a 12 nautical mile territorial sea, resources within a 200 
nautical mile exclusive economic zone (EEZ) and, potentially, resources 
(including oil and minerals) beyond the EEZ in the extended outer 
continental shelf to the outer edge of the continental margin, 
including up to 600 miles off of Alaska. This legal regime is important 
for the National Policy and implementation of the priority objectives 
described in the Interagency Ocean Policy Task Force's Interim Report. 
For example, the Task Force Interim Report has as one of its nine 
priority objectives ``Changing Conditions in the Arctic.'' The U.S. is 
currently the only Arctic country not a state party to the Convention.

    Question 4. To meet maritime challenges in the Arctic, I believe we 
need to modernize and replace our Nation's polar icebreaker fleet. Our 
two Polar-class icebreakers are over 30-years-old and are in need of 
replacement. Can you comment on the level of icebreaking capability the 
Nation needs to meet the challenges of an ice diminishing and ice 
thinning arctic? Given the time required to construct a new vessel, how 
can our Nation best meet this need in the short term?
    Answer. The FY2009 funded High Latitude Study was commissioned in 
part to address this question. Its Statement of Work directs the study 
to specifically include current ice breaker requirements in the high 
latitude regions (Arctic and Antarctic) and project future capability 
needs of the Coast Guard. Other agencies are also evaluating their 
icebreaking needs (e.g., Department of Defense Arctic Road Map) and/or 
acquiring new capability to traverse the Arctic (e.g., National Science 
Foundation's Alaska Region Research Vessel).
    The reactivation of the POLAR STAR is expected to be completed in 
FY2012 and will provide another 7-10 years of service life. This 
capacity plus the existing capacity provided by Coast Guard's two other 
icebreakers (HEALY and POLAR SEA) will allow Federal agencies 
sufficient time to determine and acquire the icebreaking assets they 
may need.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Laura Davis
    Question 1. One criticism of the Interim Report from the commercial 
sector is that it shifts the ``balance'' toward environmental 
stewardship priorities over economic demands. One of the nine 
recommended principles for a national ocean policy is that decision-
making will be guided by a precautionary approach. Can the 
precautionary approach be adopted as a feature of our national ocean 
policy without bringing use of marine resources to a halt? Could you 
explain how the Department of the Interior would apply the 
precautionary approach to ocean resource management, use and 
development within its jurisdiction, and how it would change how you do 
business?
    Answer. The Interim Report responds to the President's June 12, 
2009 memorandum directing the Task Force to develop recommendations to 
``improve stewardship of the ocean, our coasts, and the Great Lakes". 
Improved stewardship will support not only healthier and more resilient 
ocean, coastal, and Great Lakes ecosystems and services, but also 
benefit the economies (e.g., commercial and recreational activities) 
and communities that rely on them. The Task Force believes that 
economic growth and improved stewardship of the marine and Great Lakes 
environment are inextricably linked.
    Application of a precautionary approach, as defined in the Interim 
Report (``[w]here there are threats of serious or irreversible damage, 
lack of full scientific certainty shall not be used as a reason for 
postponing cost-effective measures to prevent environmental 
degradation''), is consistent with and essential for improved 
stewardship. Moreover, that definition is one to which the United 
States has formally agreed by signing and ratifying the 1992 Rio 
Declaration. We must ensure that when we enjoy and use ocean, coastal, 
and Great Lakes resources, we use the best available information to 
make management decisions and minimize adverse environmental effects.
    The Department has long recognized the importance of managing 
multiple uses of our marine environment. Through our conservation and 
stewardship efforts, we have been able to ensure the protection of 
native species and their habitats while simultaneously providing 
recreational opportunities for the public and overseeing safe and 
responsible natural resource energy development. The Department 
appreciates the clear link between the health of our marine ecosystems 
and their capacity for productive use, and will continue to take 
precautionary measures to ensure the well-being and prosperity of our 
oceans, coasts, and Great Lakes.

    Question 2. Science-based decisionmaking and ecosystem based 
management are part of the underpinnings of the Interim Report. How 
will the Department of the Interior incorporate science-based decision-
making, ecosystem-based management, and the recommendations of the Task 
Force into the decisionmaking process associated with its 5-year Outer 
Continental Shelf Oil and Gas Leasing Program? Can you commit to me 
that NOAA's views will be incorporated into whatever actions the 
Department of Interior decides to take on this issue?
    Answer. In the decision-making process for the 5-year OCS oil and 
gas program, the Department will continue to use science-based 
decisionmaking and ecosystem-based management. The Minerals Management 
Service's (MMS) environmental studies program has acquired over $860 
million worth of environmental research on the OCS and partners 
extensively with NOAA, the Navy, EPA, and others. A science and 
ecosystem approach will be used throughout the program, including at 
the 5-Year program design stages, the preparation of an EIS for an 
individual sale, and the decisions on an individual sale, consistent 
with other statutory mandates. We will continue to coordinate with NOAA 
and all other relevant Federal agencies during the decision-making 
process.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Hon. Laura Davis
    Question 1. As we work to develop a more comprehensive, ecosystem-
based approach for managing natural resources, both in the ocean and on 
land, we must also continue to think about how more narrowly focused 
conservation efforts also relate to broader ecosystem-level goals. The 
Department of the Interior, acting through the Fish and Wildlife 
Service, manages recovery efforts for many individual endangered or 
threatened species, and a variety of laws have been enacted relating to 
the management of individual species. Do recovery efforts for 
individual species have broader ecosystem benefits?
    Answer. Yes, recovery efforts for individual species most 
definitely have broader ecosystem benefits. The stated purpose of the 
Endangered Species Act (ESA) is to conserve the ecosystems upon which 
threatened and endangered species depend. Other statutes such as the 
Marine Mammal Protection Act (MMPA) take a similar approach. For 
example the Marine Mammal Protection Act states, ``The primary 
objective of their [marine mammals] management should be to maintain 
the health and stability of the marine ecosystem.''
    Actions taken to improve the status of listed species frequently 
have beneficial effects to other non-listed species and improve the 
integrity of the ecosystem. This is largely due to the fact that most 
endangered or threatened species are facing threats due to habitat 
destruction. The South Florida Multi-Species Recovery Plan is a good 
illustration of this principle. The plan covers 68 listed species, but 
its emphasis is on restoring 23 properly functioning ecological 
communities.

    Question 2. I am concerned about the decline in the southern sea 
otter population and the impacts it may be having on Central 
California's kelp ecosystem. What role do sea otters play in the kelp 
ecosystem, and how could efforts to promote their recovery help improve 
the health of this ecosystem at large?
    S. 1748/H.R. 556, the Southern Sea Otter Recovery and Research Act, 
would establish a research and recovery program for southern sea otters 
that would help identify and address some of the major stressors 
affecting these animals. In his testimony before the House Committee on 
Natural Resources, Subcommittee on Insular Affairs, Oceans and Wildlife 
on May 5 of this year, Acting Director of the Fish and Wildlife Service 
Rowan Gould outlined several of these stressors, saying, ``Disease and 
predation, food limitation, nutritional deficiencies, and exposure to 
chemical contaminants are all stressors that may be influencing 
mortality patterns.'' These particular stressors are specifically 
called out in the legislation. Would research and recovery programs 
targeting these stressors have any benefits for understanding or 
addressing factors affecting other species in California's kelp 
ecosystem, such as abalone and sea urchins, other marine mammals, or 
fish, not to mention human health?
    Answer. Sea otters are important predators in the nearshore marine 
ecosystems of the North Pacific Ocean and are generally considered to 
be a ``keystone species'' in these communities. The effects that sea 
otters have on their environment arise largely from predation. Sea 
otters consume a wide variety of nearshore marine invertebrates 
(including sea urchins, abalone, crabs, lobsters, clams, and mussels) 
and exert a strong limiting influence on their prey populations. Sea 
urchins are a favored prey item of sea otters. They are commonly viewed 
as the most important subtidal grazers of macrophytes (large algae, 
including kelp) in California. Overgrazing by sea urchins tends to 
occur when giant kelp (Macrocystis pyrifera) becomes scarce. When giant 
kelp is abundant, sea urchins typically feed on drift kelp, pieces of 
algae that break off and drift down from the canopy above. Under these 
conditions, sea urchins remain fairly stationary and feed 
opportunistically, and large numbers of sea urchins may have little 
effect on attached plants. However, shortages of drift kelp can cause 
starving sea urchins to gather together in moving ``fronts,'' which can 
clear all attached macroalgae in their path. Intense grazing in areas 
densely populated by sea urchins can lead to the formation of sea 
urchin ``barrens,'' areas that are devoid of kelp and are characterized 
instead by crustose coralline algal assemblages. Therefore, in areas 
where sea urchin grazing is limiting kelp establishment or growth, the 
presence of sea otters can generally be expected to result in the 
increased stability and persistence of kelp forest habitat.
    The recovery of southern sea otters will be associated with an 
increase in their population size and the recolonization of their 
historic range. Range expansion of sea otters is expected to provide 
additional benefits that stem from their effects on kelp. Kelp forests 
provide numerous direct and indirect benefits, including reductions in 
coastal erosion, carbon storage that can moderate climate change, and 
improved habitat for numerous invertebrate and fish species. The marine 
environment of southern California has been dramatically affected by 
human activities, such as the direct removal of many of the animal 
components of the community and the input of pollution, making it 
difficult to determine the ``natural'' functioning of the community. 
The return of sea otters, top carnivores that were historically present 
in the ecosystem, is expected to enhance ecosystem functioning and to 
bring the nearshore marine ecosystem to a state more closely resembling 
its historic (pre-fur-trade), or ``natural,'' condition.
    With respect to the research and recovery programs targeting the 
stressors on the southern sea otter population--including disease and 
predation, food limitation, nutritional deficiencies, and exposure to 
chemical contaminants--these programs would have benefits for 
understanding or addressing factors affecting other species in 
California's kelp ecosystem and human health. For instance, prey 
specialization, which is a consequence of food limitation, appears to 
be functioning synergistically to cause disease in southern sea otters. 
The infection of sea otters with the protozoal parasites Toxoplasma 
gondii and Sarcocystis neurona is associated with use of particular 
areas of the coastline and with the selection of certain types of prey. 
These parasites infect and can cause mortality in a wide range of 
marine and other animals. T. gondii additionally poses a health risk to 
humans. A diet of marine snails is associated with T. gondii infection 
in sea otters, whereas a diet rich in abalone appears to protect sea 
otters from both T. gondii and S. neurona. An understanding of the 
precise pathways by which sea otters are exposed to these pathogens may 
allow the development of management interventions that will have 
implications for sea otters as well as other marine organisms. Similar 
benefits may be realized by tracking the inputs of other coastal 
contaminants that affect sea otters and other marine life, such as 
perfluorinated compounds or the toxins produced by harmful algae, such 
as domoic acid or microcystin that can kill sea otters as well as other 
marine organisms.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Hon. Laura Davis
    Question 1. In September, I joined in signing a bipartisan letter, 
along with 34 other Senators, to Secretary Salazar conveying strong 
support for the Draft Proposed Outer Continental Shelf Oil and Gas 
Leasing Program (DPP). What is the ratio of positive and negative 
comments on the DPP?
    Answer. MMS received approximately 530,000 comments from citizens. 
It is difficult to establish such a ratio because some comments are 
support of or opposed to development in specific geographic areas. 
Others relate to the overall program. Therefore, we cannot provide such 
an analysis of positive or negative comments. Many comments require a 
judgment as to whether or not they should be considered positive or 
negative, particularly if the comment focuses on only one or two 
aspects of the DPP.
    Comments can be viewed by the public on www.regulations.gov in 
docket MMS-2008-OMM-0045. Representative samples of group letter 
campaigns that were received by the MMS via mail have been posted on 
www.regulations.gov.

    Question 2. How will the proposed National Ocean Policy impact the 
2007-2012 Leasing Program and the decision to finalize the DPP?
    Answer. The decisions to be made on the 2007-2012 program pursuant 
to the remand by the U.S. Court of Appeals, the lease sales remaining 
in that program, and the preparation of the new program will be made 
under the requirements of the OCS Lands Act (OCSLA). There is no 
inherent inconsistency between the requirements of the OCSLA and the 
Interagency Ocean Policy Task Force's proposed National Stewardship 
Policy for the Ocean, Our Coasts, and the Great Lakes (National 
Policy). The OCSLA has several requirements that could be used to carry 
out the principles of the National Policy, including using scientific 
data and analyses, consulting with other governmental entities, and 
opportunities for public input.

    Question 3. The Interim Report states that decision-making will be 
guided by the precautionary principle. How will the precautionary 
principle impact future decisions with respect to the Outer Continental 
Shelf Oil and Gas Leasing Program?
    Answer. Application of a precautionary approach, as defined in the 
Interim Report (``[w]here there are threats of serious or irreversible 
damage, lack of full scientific certainty shall not be used as a reason 
for postponing cost-effective measures to prevent environmental 
degradation''), is consistent with and essential for improved 
stewardship. Moreover, that definition is one to which the United 
States has formally agreed by signing and ratifying the 1992 Rio 
Declaration. We must ensure that when we enjoy and use ocean, coastal, 
and Great Lakes resources, we use the best available information to 
make management decisions and minimize adverse environmental effects.
    The Department has long recognized the importance of managing 
multiple uses of our marine environment. Through our conservation and 
stewardship efforts, we have been able to ensure the protection of 
native species and their habitats while simultaneously providing 
recreational opportunities for the public and overseeing safe and 
responsible natural resource energy development. The Department 
appreciates the clear link between the health of our marine ecosystems 
and their capacity for productive use, and will continue to take 
precautionary measures to ensure the well-being and prosperity of our 
oceans, coasts, and Great Lakes.

    Question 4. How do you envision marine spatial planning will impact 
offshore energy development?
    Answer. As stated in the Interagency Ocean Policy Task Forces' 
Interim Framework for Effective Coastal and Marine Spatial Planning 
provides that coastal and marine spatial planning is intended to build 
upon and significantly improve existing Federal, State, tribal, local, 
and regional decision-making and planning processes. The OCSLA directs 
the Secretary to conserve the Nation's natural resources; develop 
natural gas and oil reserves in an orderly and timely manner; meet the 
energy needs of the country; protect the human, marine, and coastal 
environments; and receive a fair and equitable return on the resources 
of the OCS. The Department views coastal and marine spatial planning as 
a collaborative process of working with other Federal agencies, States, 
tribes, and diverse stakeholders to better meet its stewardship and 
ocean resource management responsibilities, using an adaptive and 
ecosystem-based approach to management. One example is that MMS and 
NOAA have developed a Web-based Multipurpose Marine Cadastre, which is 
one of several tools that can be used in a marine spatial planning 
process to inform this type of decisionmaking.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Billy Frank, Jr.
    Question 1. What does a national ocean policy mean to you?
    Answer. It means the establishment of a comprehensive management 
framework from which we can build upon for a better future. Most 
importantly, a national policy should result in co-management of our 
shared marine resources. The Northwest Tribes believe that is national 
attention to ocean governance, ocean resources and issues is long past 
due.

    Question 2. Do you think the process that the Administration is 
pursuing to create a national policy and develop a framework for marine 
spatial planning is moving the Nation forward?
    Answer. Yes. The effort will result in greater management certainty 
for all parties engaged in marine related activities.

    Question 3. If yes, what are the next steps to keep us moving 
forward? If no, how do we move forward?
    Answer. Additional regional hearings should be scheduled upon 
release of the draft framework plan. The draft should include potential 
sites or regions where this planning process could be ``test driven.'' 
The Ocean Task Force should seek further input on what, if any, 
additional refinements should occur in the framework and where a trial 
run of the planning process should be initiated.

    Question 4. What role do you think that NOAA should play in 
implementing a national ocean policy and framework for marine spatial 
planning?
    Answer. At a minimum, NOAA should be the lead science agency for 
developing a national ocean policy that addresses the ecosystem 
functions of the ocean. Without the benefit of the draft framework plan 
for marine spatial planning it is difficult to comment on whether NOAA 
is the appropriate lead Federal agency for the planning process 
envisioned.

    Question 5. Mr. Frank, in your testimony, you said climate change 
and ocean acidification are real problems facing tribes in their daily 
lives. Could you explain how they are impacting tribes, and how the 
Federal Government can assist tribes in adapting to these changes?
    Answer. The tribes have been witnessing changes across the 
landscape. Rainfall patterns have been shifting. Coupled with land use 
changes in our watersheds this change has resulted in earlier peak 
flows, increased frequency and intensity of floods. For the Hoh Tribe 
seasonal flooding and anticipated increases in sea levels have lead to 
relocation of tribal housing to higher ground. We are appreciative of 
the NW congressional delegation's efforts in helping secure this land 
for the tribe. Unfortunately, the Hoh Tribe probably will not be the 
last tribal community that will needs such relocation assistance.
    The change in rainfall pattern has also put a strain on well water 
supplies across the region. The Makah Tribe has had to watch more 
closely their yearly freshwater supply as a result. This is a growing 
trend across the region. Communities will be looking to increase their 
holding capacity or bring additional water supplies on line. The 
Federal Government needs to prepare to deal with water supply and 
allocation in the near future.
    The change in weather patterns is reducing our snow pack and 
glaciers. This is negatively affecting habitat for salmon and steelhead 
by changing flow patterns and water temperate. We need to increase the 
speed and scope of our efforts to restore stream buffers and riparian 
areas to provide adequate shade and deep pools to counter this trend. 
Our salmon need this to have a chance to thrive into the future.
    We are seeing shifts in abundance and distribution of fish in our 
oceans. Southern species such as mackerel and Humboldt squid are 
becoming more prevalent off our coast. The frequency and severity of 
hypoxic dead zones off the outer coast has increased. The same can be 
said for toxic algae blooms leading to seabird deaths. We do not know 
whether this is caused more by climate change or shifts in ocean 
acidification. We are afraid these subtle changes are making our region 
more welcoming to invasive species. Federal action is required to begin 
to address the root causes for these problems and establish better 
safeguards for our environment (e.g., reducing nitrogen and phosphates 
levels in freshwater, prohibiting nearshore ballast discharge).

    Question 6. I know that the Northwest Indian Fisheries Commission 
considers ecosystem-based management a priority in its role as a co-
manager of ocean fisheries. What can the Federal Government do to help 
tribal governments achieve the mutual goal of ecosystem-based 
management for our fisheries resources?
    Answer. Ecosystem-based management should be made a priority for 
NOAA. Provide adequate funding for NOAA Fisheries and the Regional 
Science Centers to increase their efforts toward this goal. Establish a 
pilot project for the Northwest Region to work with the coastal tribes 
and the State of Washington to implement an ecosystem-based approach 
for rockfish populations off the Washington Coast.

    Question 7. What mechanisms for co-management tend to work which 
tend to be less successful, based on your experience?
    Answer. Tribes are sovereign governments and should be dealt with 
on a government-to-government basis. What works best is the 
establishment of a management framework that treats each manager 
equally in stature and status. An approach where each manager is 
represented at the table and has an equal voice in the decisionmaking 
process. This approach is accompanied with adequate funding for all 
managers to allow them to fully engage in the process at all levels--
data gathering resource monitoring, assessment, and policy development. 
A framework and approach where each manager has the opportunity for 
input throughout the process from start to finish.
    What doesn't work is the establishment of a tiered framework, where 
not all the managers are seated or fully represented at the table. An 
approach where engagement for one set of managers comes only in the 
form of consultation and input is only sought on the final decision. 
This tiered representation can occur where funding is limited to the 
extent that it hampers or prohibits full participation in the process. 
Tribes must be engaged early and often in the decisionmaking process.

    Question 8. What are some of the barriers preventing us from 
implementing ecosystem-based management with the Federal Government and 
tribal governments as functional co-managers?
    Answer. The biggest barrier for ocean resources is funding 
constraints prohibiting the gathering of data in the frequency and 
resolution necessary for implementing such an approach. In addition, 
the current Federal management framework doesn't provide the tribal or 
state managers complete participation in the resource assessment 
decisionmaking process.
    A different set of barriers exist for our steelhead and salmon 
resources. The complexity of the management structure is the biggest 
barrier from truly implementing effective ecosystem-based management. 
The fragmentation of management and regulatory responsibilities is a 
hindrance given the multitude of agencies that have authority over the 
fishery resource and its marine and freshwater habitat. Coordination of 
effort is difficult and increased funding to facilitate better 
coordination is needed. Even with the umbrella of the Endangered 
Species Act not all Federal agencies--most notably Department 
Agriculture--have consulted on their impacts to listed species within 
Puget Sound. Even NOAA, in carrying out Coastal Zone Management Act 
compliance review activities, has yet to fully assessed impacts to ESA 
Chinook Salmon recovery plans within Puget Sound.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                     Dennis Takahashi-Kelso, Ph.D.
    Question 1. What does a national ocean policy mean to you?
    Answer. A national ocean policy is a governance framework for all 
U.S. federal waters that establishes goals and mandatory standards, 
provides mechanisms for implementation, supports scientific research, 
and requires effective monitoring and assessment. A science-based 
national ocean policy can help maintain the health of our oceans so 
that we and future generations may continue to benefit from its myriad 
services. The ocean is critical to our well-being, and it is vital that 
we protect, maintain, and restore the ecosystems that make it 
productive. A strong national ocean policy with ecosystem health as a 
priority goal is crucial to ensuring that the ocean can continue to 
provide the economic, environmental, social, and spiritual benefits 
that are so important to us.
    Today, our coasts, ocean, and Great Lakes are governed by more than 
20 Federal agencies and over 140 Federal laws, not to mention state, 
tribal, and local laws as well as international agreements that affect 
ocean governance. While individual agencies may practice good ocean 
management and administer individual statutes and regulations well, the 
overlapping and uncoordinated nature of ocean governance cries out for 
a more coordinated policy. The President recognized this in calling for 
a National Ocean Policy based on ecosystem-based management and using 
marine spatial planning as a tool. I strongly support this initiative.

    Question 2. Do you think the process that the Administration is 
pursuing to create a national policy and develop a framework for marine 
spatial planning is moving the Nation forward?
    Answer. The Administration's initiative is an important step in 
moving the Nation forward, and so is your committee's interest and 
involvement in the process. It will be vital to have the support of 
both the Administration and the Congress as the United States develops 
and implements a national policy for our ocean, coasts, and Great 
Lakes. The current situation is untenable, and we must find ways to 
protect, maintain, and restore ecosystem health so the ocean can 
continue to provide the important services on which we all rely.
    Environmental non-governmental organizations have strongly 
supported and continue to endorse the Administration's efforts. Many of 
these groups jointly submitted comments on the Interim Report, and some 
of these comments address issues that you raise in subsequent 
questions. We look forward to reviewing the draft policy on coastal and 
marine spatial planning (CMSP) now that it has been released for 
comment. It will also be essential to remain engaged in the process--
for us, for Congress, for the Administration, for other stakeholders, 
and for the public--as policy formulation and implementation move 
forward, both through actions by the Administration and, importantly, 
through legislative efforts.
    Several critical issues must be addressed: achieving full policy 
implementation; ensuring accountability, transparency, and broad, 
participatory decision-making; providing adequate funding; and making 
sure that the policy accomplishes the Nation's goals. The policy must 
establish as a primary goal the protection, maintenance, and 
restoration of ecosystem health; and, in concert with that goal, the 
policy should promote sustainable economic development now and into the 
future.

    Question 3. If yes, what are the next steps to keep us moving 
forward? If no, how do we move forward?
    Answer. Existing statutory authorities give Federal agencies a 
significant amount of discretion to consider marine ecosystems as well 
as present and future uses of the ocean in making decisions. The 
Administration should move quickly to issue an Executive Order that 
would ensure that Executive Branch agencies exercise this latitude in a 
manner consistent with the Ocean Policy Task Force recommendations. As 
discussed below, we also encourage Congress to consider legislation.
    Specifically, my organization, along with a coalition of 
environmental non-governmental organizations, has suggested how to move 
forward with a national ocean policy that uses marine spatial planning 
as a tool for ecosystem-based management to protect, maintain, and 
restore healthy ocean ecosystems. Our recommendations include:

  <bullet> Planning on a regional basis and, insofar as possible, on an 
        ecosystem basis, and adopting a governance structure that is 
        led by a Federal body with not only protection, maintenance, 
        and restoration of ecosystem health but also agency 
        coordination at the core of its mission. The proposed National 
        Ocean Council structure is appropriate for management and 
        approval of regional planning efforts.

  <bullet> Ensuring that regional planning includes robust 
        participation of tribes, non-Federal government entities, 
        stakeholders, and the general public and is structured to 
        compel responsibility, transparency, and accountability;

  <bullet> Providing adequate resources to ensure that marine spatial 
        plans are based on high-quality scientific information and 
        expertise, including traditional and local knowledge.

    In addition, we recommend specific steps to create, adopt, 
implement, monitor, and adapt marine spatial plans. These steps are 
based on research and recommendations from case studies of marine 
spatial planning initiatives that have been adopted throughout the 
world--from Australia's Great Barrier Reef to the Belgian and German 
North Sea coasts to Great Britain's comprehensive ocean legislation to 
CMSP initiatives in Rhode Island and Massachusetts. The steps include:

  <bullet> Identify planning needs and preliminary planning objectives;

  <bullet> Assemble data for analysis and planning;

  <bullet> Conduct regional ecological and socio-economic assessments 
        and identify data gaps;

  <bullet> Determine the conflicts and compatibilities between human 
        uses of ocean resources on the one hand and ecosystem health on 
        the other, as well as among human uses;

  <bullet> Develop plans to implement the goals of the National Ocean 
        Policy and specific national management objectives and to 
        address regional objectives to the extent that they are 
        consistent with these goals and objectives;

  <bullet> Adopt the coastal and marine spatial plans and make them 
        binding;

  <bullet> Implement the final regional plans through the existing 
        regulatory authorities of individual Federal agencies (or 
        through new legislation) and monitor progress toward meeting 
        the plans' objectives; and

  <bullet> Revise and adapt plans as needed.

    Together these steps should lead to important progress in national 
ocean policy using Executive Branch discretion under existing 
legislative authorities and mandates. Progress toward the goal of 
healthy ecosystems and sustainable uses of ocean resources could be 
even more substantial if Congress were to enact strong ocean policy 
legislation.

    Question 4. What role do you think that NOAA should play in 
implementing a national ocean policy and framework for marine spatial 
planning?
    Answer. The importance of NOAA's role in implementing a national 
ocean policy and CMSP framework cannot be overstated. NOAA has vast 
expertise and experience in science-based ocean management and policy. 
Among our recommendations for national ocean policy, we urge that NOAA 
play a central role and have a seat at the table as a principal level 
National Ocean Council member.
    NOAA's scientific expertise will be vital to the regional CMSP 
process. Assessment and compilation of existing data, as well as 
research to fill data gaps, is an essential element of coastal and 
marine spatial planning. NOAA's role in this process will be integral 
to its success.

    Question 5. I know that you are supportive of the work of the Ocean 
Policy Task Force, but the Task Force is focused largely on how the 
Federal Government can do a better job under existing authorities, and 
relies heavily on interagency processes. . . . What are some of the 
limits of an interagency approach as proposed under the National Oceans 
Council? By relying so heavily on interagency processes within the 
Administration, isn't it likely that ocean issues will be handled in 
very different ways as Presidential administrations change? Do you see 
a need for legislation to implement the recommendations of the Task 
Force?
    Answer. Your questions get to the heart of the issue. Yes, a policy 
based so heavily on Executive Branch action is subject to change under 
different administrations. Consequently, in answer to your second 
follow-up question, implementing the Task Force recommendations through 
legislation could ensure their continued priority regardless of changes 
in the executive branch.
    Before I address the ways in which legislative action could provide 
lasting, effective implementation of the national ocean policy, 
however, I would like to discuss what could be accomplished through 
action by the Administration, with Congressional support.
    As Dr. Lubchenco noted during her testimony, there is much that 
Federal agencies can do under existing authorities, including ocean 
mandates like the Magnuson-Stevens Fishery Conservation and Management 
Act, the National Marine Sanctuaries Act, the Coastal Zone Management 
Act, the Marine Mammal Protection Act, and environmental mandates like 
the National Environmental Policy Act, among others. Use of existing 
authority can help implement regional spatially explicit planning, 
especially because many of the existing mandates allow for interagency 
coordination, although they do not necessarily require it.
    Nonetheless, there are definitely limits to what can be done under 
existing authority. An executive order could address some of these 
limitations by directing agencies to use their discretion under 
existing authority for the purpose of implementing coastal and marine 
spatial planning, and by directing them to work in a coordinated 
fashion. Executive orders can be quite comprehensive and specific. For 
example, Executive Order 13508 (12 May 2009) for Chesapeake Bay 
Protection and Restoration promotes a comprehensive, coordinated 
approach to restoring the health of this important estuary. With 
committed, adequate, and sustained financial support from Congress, an 
executive order that is sufficiently compulsory and specific would 
allow for a positive start to regional marine spatial planning. While 
administrations can and do change--and with them, the Executive Branch 
priorities--once programs and policies are in place and successful, 
they have a certain self-sustaining momentum that can help ensure their 
continued application.
    As you noted, however, not all executive orders have the same 
staying power. Legislation could create a comprehensive framework for 
implementing CMSP in a binding and lasting manner. It could cut through 
the myriad statutes and regulations affecting ocean policy and could 
overcome the fragmented, sector-based system that currently exists. New 
legislation could address these issues for the long term. While 
legislation, too, can be changed, it provides greater certainty that 
policies will be implemented, supported, and sustained. We are 
committed to working with you in the coming year to determine areas 
where legislation can help fill existing gaps in authority and solidify 
national policy to meet the goal of protecting, maintaining, and 
restoring ocean ecosystems that support healthy economies and help 
satisfy our Nation's other needs--social, traditional, environmental, 
and spiritual. We support your working to adopt comprehensive ocean 
legislation to establish a national ocean policy that uses ecosystem-
based management through marine spatial planning as a tool to 
accomplish those goals.
    Congress's role extends beyond passage of legislation. Effective 
coastal and marine spatial planning requires adequate and sustained 
funding. Congressional support in the appropriations process is 
crucial. Your efforts with Ranking Member Snowe to increase NOAA's 
budget are an important step. Coordinating national, tribal, and state 
planning efforts will also require financial assistance to enable 
participation and to serve as incentives for tribes and states, as well 
as local governmental entities, to engage as active planning partners.

                                  <all>

</pre></body></html>
